<html>
<title> - FEDERAL FUNDING FOR THE NO CHILD LEFT BEHIND ACT</title>
<body><pre>[Senate Hearing 110-28]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-28

            FEDERAL FUNDING FOR THE NO CHILD LEFT BEHIND ACT

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     MARCH 14, 2007--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                  Terrence E. Sauvain, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                       TOM HARKIN, Iowa, Chairman
DANIEL K. INOUYE, Hawaii             ARLEN SPECTER, Pennsylvania
HERB KOHL, Wisconsin                 THAD COCHRAN, Mississippi
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
MARY L. LANDRIEU, Louisiana          LARRY CRAIG, Idaho
RICHARD J. DURBIN, Illinois          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              TED STEVENS, Alaska
FRANK R. LAUTENBERG, New Jersey      RICHARD C. SHELBY, Alabama
                           Professional Staff
                              Ellen Murray
                              Erik Fatemi
                              Jim Sourwine
                              Mark Laisch
                            Adrienne Hallett
                             Lisa Bernhardt
                       Bettilou Taylor (Minority)
                    Sudip Shrikant Parikh (Minority)
                         Candice Ngo (Minority)

                         Administrative Support
                              Teri Curtin
                         Jeff Kratz (Minority)
                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Tom Harkin..........................     1
No Child Left Behind funding.....................................     1
NCLB authorized funding levels versus appropriations.............     1
Fiscal year 2008 Education budget proposals......................     2
Adequacy and most effective use of NCLB funding..................     2
Opening statement of Senator Arlen Specter.......................     2
Fiscal year 2008 Education budget request........................     3
Education funding................................................     3
Statement of Hon. Margaret Spellings, Secretary of Education, 
  Department of Education........................................     4
No Child Left Behind reauthorization.............................     4
Budget priorities................................................     5
School improvement and teacher incentive programs................     5
Promise scholarships and opportunity scholarships................     5
Increasing rigor in high schools.................................     5
American competitiveness initiative..............................     6
Prepared statement of Hon. Margaret Spellings....................     6
NCLB reauthorization.............................................     7
Raising the bar in our high schools..............................     7
American competitiveness initiative..............................     8
Expanding support for school improvement.........................     8
Teacher incentive fund...........................................     9
New choice proposals.............................................     9
Resources for No Child Left Behind...............................     9
Title I funding..................................................    10
Shifts in title I funds to LEAs..................................    10
Resources for No Child Left Behind...............................    10
Reading First program............................................    11
State and local curriculum control...............................    11
Response to IG report on Reading First...........................    12
Use of scientifically based curricula............................    12
Boston Reading First program.....................................    12
Response to IG report on Reading First...........................    13
Prepared statement Senator Larry Craig...........................    14
NCLB and local flexibility.......................................    14
Privacy and higher education national databases..................    15
Reading program in Mississippi...................................    16
Title I allocations..............................................    17
Prepared statement of Senator Thad Cochran.......................    18
Programs proposed for elimination in fiscal year 2008............    18
Native Alaskan and Native Hawaiian program eliminations..........    19
Congressionally directed funding.................................    20
No Child Left Behind funding.....................................    21
21st century community learning centers..........................    22
Response to IG report on Reading First...........................    22
Congressionally directed funding.................................    23
Gulf coast renewal...............................................    23
Title I funding increase.........................................    24
Foster care children.............................................    24
No Child Left Behind funding.....................................    25
Flexibility in charting adequate yearly progress.................    26
Funding for teacher quality and vouchers.........................    27
Charter school funding...........................................    27
Physical education--impact on health and learning................    27
Questions submitted by Senator Tom Harkin........................    29
Achieving No Child Left Behind goals for children with 
  disabilities...................................................    29
Other education programs assisting States and LEAs to meet NCLB 
  goals for children with disabilities...........................    29
Technical assistance for State assessment systems development....    30
Special education teacher shortages..............................    30
Funding for vocational rehabilitation State grants...............    31
Vocational rehabilitation State grant program performance 
  measures.......................................................    31
Rehabilitation Services Administration reorganization............    31
Rehabilitation Services Administration's new monitoring system...    32
Vocational rehabilitation techncial assistance and program 
  improvement....................................................    32
Vocational rehabilitation and independent living technical 
  assistance tools...............................................    32
Rehabilitation Services Administration monitoring division--full-
  time equivalent employment.....................................    33
Career and technical education national programs.................    33
Career and Technical Education National Activities and Perkins 
  Act reauthorization............................................    34
Evaluation of the impact of academically focused career and 
  technical education............................................    34
State scholars program outcomes..................................    35
Fiscal year 2007 research output measures........................    36
School improvement grants program and scientifically based 
  research.......................................................    36
Coordinating research agenda with NCLB school improvement 
  require- 
  ments..........................................................    36
School improvement research funding costs........................    36
Research studies and year 2014 NCLB goals for reading and math...    37
Research goals and research methodology..........................    37
Expediting research studies to meet State and local needs for 
  attaining year 2014 goals......................................    37
What works clearinghouse and research-proven strategies..........    38
Bridging the gap between practitioners, policymakers, and 
  researchers....................................................    38
Commission on No Child Left Behind report recommendation--
  statewide data system..........................................    38
Funding requirement for commission recommendation for State 
  longitudinal data systems......................................    39
National assessment of educational progress......................    39
12th grade NAEP initiative.......................................    39
Communications and outreach staffing levels......................    39
Office of Communications and Outreach objectives.................    39
Budget request for communications object class...................    40
Alcohol Abuse Reduction program..................................    40
Programs and initiatives providing drug and alcohol abuse 
  reduction assistance...........................................    40
LEA Drug Abuse and School Safety program assistance..............    40
Safe schools/healthy students drug and violence prevention 
  projects.......................................................    41
Proposed restructuring of SDFSC State grants program.............    41
Helping America's youth initiative...............................    41
Safe and drug-free schools and communities State grants..........    41
Reauthorization proposal for SDFSC State grants..................    41
Safe and drug-free schools and communities--uniform management 
  and information reporting system...............................    42
State reporting requirements under the SDFSC Act.................    42
Youth drug use and other high-risk behaviours surveillance data..    42
Consolidated State performance report data collection............    43
Development of UMIRS uniform data set on youth drug use and 
  violence.......................................................    43
Guidance on implementation of uniform management and information 
  reporting system requirements..................................    43
Data collection for tracking youth drug use and violence.........    44
Data collection at State and LEA levels..........................    44
State-by-State data collection...................................    44
21st century community learning centers..........................    45
Non-competitive awards...........................................    45
Non-competitive grant awards.....................................    45
Non-competitive contract awards..................................    45
Questions submitted by Senator Daniel K. Inouye..................    48
Native Hawaiian education........................................    48
Program increases supporting educational and cultural needs of 
  Native Hawaiian students.......................................    49
Higher education program requests................................    49
Flexibility to address educational needs of students.............    50
Native Hawaiian Education program performance measures...........    50
Performance indicator development for Native Hawaiian education 
  pro- 
  grams..........................................................    50
Native Hawaiian Education program performance data...............    50
Impact of Native Hawaiian Education programs.....................    50
Native Hawaiian Education program performance data...............    51
Native Hawaiian program grants process...........................    51
Reporting the impact of Native Hawaiian Education programs.......    52
Promising Native Hawaiian Education programs.....................    52
Questions submitted by Senator Herb Kohl.........................    52
Full funding for No Child Left Behind............................    52
After-school funding--21st century community learning centers....    53
Reading First grants--Inspector General's report.................    53
Alternative assessment funding...................................    53
State data collection............................................    54
Perkins funding..................................................    54
Questions submitted by Senator Jack Reed.........................    55
Teacher quality enhancement grants and other programs funding 
  teacher development............................................    55
Teacher Incentive Fund program...................................    56
Improving teacher quality State grants...........................    56
Teacher preparation, induction and professional development 
  programs.......................................................    56
Funding for improving literacy through the school libraries 
  program........................................................    56
Environmental education..........................................    57
EPA Environmental Education Grants program.......................    57
Questions submitted by Senator Frank R. Lautenberg...............    58
Raising achievement levels in high schools.......................    58
Education technology.............................................    58
American competitiveness initiative..............................    58
Vouchers.........................................................    58
Funding for special education....................................    59
Funding the educational needs of students with disabilities......    59
Questions submitted by Senator Arlen Specter.....................    59
Mentoring program................................................    59
Mentoring program PART rating....................................    60
Mentoring activities supported with SDFSC National program funds.    60
Department of Health and Human Services Mentoring Children of 
  Prisoners program..............................................    60
Helping America's youth initiative...............................    61
High School to postsecondary transitional programs as means of 
  addressing youth violence......................................    61
Dropout prevention...............................................    61
Childhood obesity and physical education.........................    62
HHS initiative--school health index..............................    62
Title I high school initiative...................................    62
School improvement...............................................    63
Teacher incentive fund program...................................    63
Fiscal year 2006 teacher incentive fund program..................    63
Proposed plans for teacher incentive fund in fiscal years 2007 
  and 2008.......................................................    64
Statement of John F. Jennings, president and CEO, Center on 
  Education Policy...............................................    64
    Prepared statement...........................................    67
Major findings on funding........................................    67
General NCLB costs...............................................    68
Title I allocations..............................................    68
State capacity to implement NCLB.................................    69
Schools in need of improvement...................................    70
Statement of Hon. Gene Wilhoit, executive director, Council of 
  Chief State School officers....................................    71
    Prepared statement...........................................    73
Longitudinal data systems........................................    74
School improvement grants........................................    75
State assessments................................................    75
Statement of Deborah Jewell-Sherman, Ph.D., superintendent, 
  Richmond Public Schools........................................    76
    Prepared statement...........................................    78
Statement of Jane Babcock, superintendent, Keokuk Community 
  School District................................................    80
    Prepared statement...........................................    82
Statement of Robert E. Slavin, Ph.D., director, Center For 
  Research and Reform in Education, Johns Hopkins University.....    84
    Prepared statement...........................................    86
Research, development, and NCLB..................................    86
Overall proposal.................................................    87
Specific proposals...............................................    87
A virtuous cycle of improvement..................................    88








 
            FEDERAL FUNDING FOR THE NO CHILD LEFT BEHIND ACT

                              ----------                              


                       WEDNESDAY, MARCH 14, 2007

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:28 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Kohl, Murray, Landrieu, Reed, 
Specter, Cochran, Craig, and Stevens.


                opening statement of senator tom harkin


    Senator Harkin. Good afternoon. Welcome to today's Labor, 
Health and Human Services Appropriations Subcommittee hearing 
on Federal funding for the No Child Left Behind Act. Welcome, 
Madam Secretary.


                      no child left behind funding


    When I voted for the NCLB 5 years ago, I did so with the 
understanding that President Bush and the White House would 
work with Congress to provide schools with the resources they 
need to implement the law. The administration had negotiated at 
that time closely with members of Congress, including this 
Senator, on the authorization levels, since I also serve on the 
authorizing committee, and I took the President at his word 
that he would take those levels seriously. Unfortunately, that 
has not happened.


          nclb authorized funding levels versus appropriations


    Year after year, the President sends us a budget that comes 
nowhere close to funding No Child Left Behind at an adequate 
level. The numbers have gotten almost laughable. The 
President's fiscal year 2008 budget underfunds NCLB by $14.8 
billion, for a cumulative shortfall from the time the bill was 
first passed of $70.9 billion since the enactment of the law. 
Now, that is the difference between what was in the 
authorization level and what was actually appropriated. Funding 
for Title I alone, the cornerstone of the law, would be 
shortchanged by $11.1 billion--that is this year--for a 
cumulative shortfall of $54.7 billion.
    Now again, I understand that authorization levels were 
estimates. No one knows exactly how much it will cost to enable 
every child in America to achieve at a proficient level as the 
law requires. But it is clear that we in the Federal Government 
have not done our share. We put new demands on schools and 
States, but we have not given them the resources they need to 
meet those demands.
    In fact, many districts have actually seen their Title I 
funding decline since Congress passed No Child Left Behind. In 
Iowa, for example, more than half of the districts in my State 
will receive less Title I funding in 2007 than they did 6 years 
ago in 2001 when the bill was passed. That is just not 
acceptable.
    We should not be requiring the majority of school districts 
to make huge improvements in student achievement at the same 
time that we cut their funding. That is an important point as 
Congress considers reauthorizing the No Child Left Behind Act 
this year. Accountability is important. I am sure we are all 
for accountability. But raising student achievement takes more 
than testing. It takes money. It takes money to hire good 
teachers, to make them fully qualified, to update the 
curricula, develop high-quality assessments, and to make all 
the other improvements that schools need to leave no child 
behind. Before I vote to reauthorize No Child Left Behind, I am 
going to insist that it is adequately funded.


              fiscal year 2008 education budget proposals


    The President's budget for fiscal year 2008 does provide 
some bright spots. I applaud the proposal to provide $500 
million to help turn around schools in need of improvement. 
That funding is long overdue. I also welcome the proposed $1.1 
billion for Title I. Unfortunately, all the money for both 
those increases would come from eliminating dozens of programs 
that are of high priority to Congress, programs like education 
technology, arts in education, school counseling, and Byrd 
honors scholarships.
    Well now, the administration plays this game every year. 
Madam Secretary, you know we are not going to zero out the Byrd 
scholarships. That is just not going to happen. The same goes 
for school counseling. I created that program and I am proud I 
did and we are simply not going to eliminate it.


            adequacy and most effective use of nclb funding


    So I have no idea where we will get the $1.1 billion for 
Title I without more money than the President has included in 
his budget. I hope today's hearing will shed some light on 
these issues. I will be particularly interested in three 
questions: Has the Federal Government provided enough funding 
to implement No Child Left Behind adequately? Two, would 
additional funding help improve student achievement? Three, if 
additional funding were available for education what would be 
the most effective ways to appropriate it?
    Before I call on you, Madam Secretary, I would like to 
yield to my friend and our ranking member, Senator Specter.

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Thank you, Mr. Chairman.


               fiscal year 2008 education budget request


    I join Senator Harkin in welcoming you, Madam Secretary. 
The budget which has been submitted is very problemsome. To ask 
for $1.5 billion below last year, which does not even take into 
account the inflationary factor, I think is unrealistic. When 
you take a look at the jurisdiction of this Subcommittee on 
Labor, Health, Human Services, and Education, those are 
enormously important programs for America, and to have a 
reduction in the budget is just not acceptable.
    You and I have talked about this before and we had a 
conversation yesterday, and I know it is difficult to be an 
advocate for education in the difficult financial circumstances 
we find. OMB has a large voice in what happens, but I believe 
it is necessary to have very, very strong advocacy, and you are 
in a special position to do it because you have worked with 
President Bush over such a long period of time. There are a lot 
of competing demands on the President, but I would urge that 
you, someone as close to the President as you are, should 
really pick up the cudgels in an advocacy capacity.
    One of the major problems confronting America today is 
juvenile violence. Philadelphia last year had 407 homicides. I 
know that problem very well because I was district attorney of 
Philadelphia for 8 years. We are now looking at programs to try 
to encourage mentoring. The crime problem is as serious today 
as it was decades ago when I was district attorney, and a 
short-term improvement could be obtained if we identify at-risk 
youth and pair them with mentors to provide some guidance 
because so many of them come from broken families. No parents 
at home, parents in jail--extremely difficult.
    When we see that the $48 million mentoring program is cut 
and the $4.9 million program for school dropout prevention is 
cut and $22.8 million for State grants for incarcerated youth 
offenders cut, that goes right to the heart of what is probably 
America's most serious domestic problem, juvenile violence. The 
job we will have is to try to reallocate the funds.


                           education funding


    I guess we can find money. We can take the money from the 
National Institutes of Health, or we can take the money from 
the Centers for Disease Control, or we can take the money from 
mine safety, which we have jurisdiction over, or we can take 
the money from Head Start. I think we will find the money. 
Those are the only programs we will have to rob to get the job 
done.
    So, Madam Secretary, when the budget resolution comes up I 
think there are going to be lots of concerns expressed on both 
sides of the aisle. On No Child Left Behind, which is the core 
of what we are looking at here today, I know the goals are 
difficult. They are said to be unreachable. But I do not think 
we ought to lower our sights on what is the desired result. If 
we lower our sights, we are just going to fail to meet the 
lower goal. So my instinct is to keep the goals lofty and 
insist on meeting them and not to give in.
    I had a little problem and I came to work every day. With 
enough determination, you can overcome lots of limitations, and 
that is what I would suggest we do. When we talk about letting 
a child move from one school to another, that is a good idea, 
but there has got to be a good school that the child can move 
to. So that again is a question of funding.
    May the record show that Secretary Spellings has nodded yes 
to a great many things I have said.
    That is one of the approaches we trial lawyers undertake, 
Madam Secretary. That is, it saves us answering questions. We 
make assertions, the witness nods, and we say: Stipulation 
achieved.
    As I said to the Secretary yesterday, Mr. Chairman, I 
cannot stay today. But we will have questions for the record.
    We will work with you. We know your passion, your 
intensity, and your desire to get the objective done. The next 
time you see President Bush, give him a piece of my mind.
    Secretary Spellings. I will do so.
    Senator Specter. Thank you.
    Senator Harkin. Thank you, Senator Specter.
    If there is ever a profile in courage and grit and 
determination in overcoming some hardships and getting up every 
day and doing his duty, Senator Specter fits that profile.


                 introduction of secretary of education


    Well, Margaret Spellings has served as U.S. Secretary of 
Education for 2 years. Before that, during President Bush's 
first term she served as Assistant to the President for 
Domestic Policy, where she helped craft education policies, 
including the No Child Left Behind Act. In Texas, Ms. Spellings 
has worked for 6 years as Governor Bush's senior adviser, with 
responsibility for developing and implementing the governor's 
education policy.
    Ms. Spellings is the first mother of school-aged children 
to serve as U.S. Secretary of Education. Very interesting. 
Well, Madam Secretary, welcome to the subcommittee. Your 
statement will obviously be made a part of the record in its 
entirety. If you would just highlight it for us, we would be 
most appreciative.
STATEMENT OF HON. MARGARET SPELLINGS, SECRETARY OF 
            EDUCATION, DEPARTMENT OF EDUCATION
ACCOMPANIED BY THOMAS SKELLY, DIRECTOR, BUDGET SERVICE

    Secretary Spellings. Thank you, Mr. Chairman, and thank you 
for the opportunity to come and discuss the President's budget.


                  no child left behind reauthorization


    As you know, this is a critical time in America's public 
education. Five years ago, with No Child Left Behind we did 
make a commitment as a country to have every child learning on 
grade level by 2014. We shifted our national conversation, not 
only to ask how much we are spending, but also how well our 
students are doing. So instead of just focusing on inputs, we 
are looking at results and data to drive decisionmaking, to 
allocate resources and to improve education.
    Because we are measuring student achievement, we know how 
far we have come and where we need to improve, not only at a 
national level but at the individual student level and on 
campuses. My recent Department national education report card, 
or NAEP, shows strong gains in the early grades where we have 
focused our efforts, more progress in fact with our young 
readers in the last 5 years than the previous 28 years 
combined. African American and Hispanic achievement rates are 
at an all-time high, and those achievement gaps that have 
plagued us for so long are finally beginning to close.
    More than 60,000 schools, more than 70 percent overall, are 
meeting the goals of No Child Left Behind. It is working and 
going forward, and in our reauthorization we must preserve the 
key principles of the law--high standards, accountability, and 
the goal of every child on grade level by 2014.


                           budget priorities


    At the same time, of course, we can use the knowledge that 
we have learned over the last 5 years to strengthen and improve 
the law, continuing a workable common sense approach that we 
have developed with States. Now that we have identified the 
schools that are struggling the most, we must target our 
resources and personnel accordingly. Now that we have laid the 
groundwork for reform, we must raise the bar and better prepare 
all of our students for college and the workforce, and these 
are the priorities of the President's budget: Improving 
chronically underperforming schools, and increasing resources 
and rigor in our high schools, especially in math and science.


           school improvement and teacher incentive programs


    First, turning around our lowest performing schools. 
Preliminary data show that roughly 2,000 schools are chronic 
underperformers and have been unable to reach standards for 5 
or more years. Though many serve our neediest students, they 
are often staffed by our least experienced teachers. As you say 
in your statement, our budget provides $500 million for School 
Improvement Grants, such as hiring more teachers or, if 
necessary, reinventing the school as a charter school. We have 
also included nearly $200 million for the Teacher Incentive 
Fund, to attract our most effective teachers to work in high-
need schools and reward them for results, an approach that has 
been shown to help students and schools improve.


           promise scholarships and opportunity scholarships


    In addition, we offer immediate choices and options for 
families, including $250 million in Promise Scholarships and 
$50 million in Opportunity Scholarships, for those who want to 
transfer to better-performing public or private schools or to 
receive intensive tutoring.


                    increasing rigor in high schools


    Next, we must increase rigor in our high schools, where 
every year about 1 million students drop out and only about 
half of our African American and Hispanic students graduate on 
time. A recent report by my Department shows that even as high 
school grades have risen, student skill levels have actually 
declined in recent years, a troubling fact when we know that 90 
percent of our fastest-growing jobs now require a postsecondary 
education. That is why we have increased high school funding 
dramatically while protecting resources for younger students.


                  american competitiveness initiative


    In total, we would provide nearly $14 billion in Title I 
funding for schools serving low-income students, a 59 percent 
increase since 2001. We have also included a total of $365 
million in new funding for the Academic Competitiveness 
Initiative, to strengthen math, science and rigor through the 
K-12 pipeline because these are the skills students need to 
succeed in today's knowledge economy.
    As you know, there is a growing consensus around how to 
improve our schools, and I am sure you read the recent reports 
by the U.S. Chamber of Commerce, the Center for American 
Progress, and the Aspen Institute. From parents to business 
leaders to the civil rights community, people across our 
country agree we must address inequalities within the system 
and we must better prepare all of our students for college and 
the work force.
    This year's budget requires us to make tough choices and I 
recognize, as appropriators, you have a very tough job ahead of 
you. As 9 percent investors in K-12 education, our role at the 
Federal level is limited. But we can make a real difference for 
students by targeting resources strategically. We all agree 
that education is a top priority for our country's future and 
we all agree that we must produce a balanced budget.


                           prepared statement


    Bill Gates recently said talent in this country is not the 
problem; the issue is patient will. I believe we have the will 
and I look forward to working with you to ensure that our 
students have the knowledge and skills they need to succeed.
    Thank you, Senator, and I would be happy to answer any 
questions you have.
    [The statement follows:]
             Prepared Statement of Hon. Margaret Spellings
    Mr. Chairman and Members of the Committee: Thank you for this 
opportunity to testify on behalf of the President's 2008 budget for 
education. Let me begin by saying that I think we are experiencing an 
unprecedented era of change and ferment in American education. There is 
a broad consensus on the importance of education for America's future 
in our increasingly competitive global economy, a new entrepreneurial 
spirit in our education system that is most evident in the growing 
numbers of charter schools, and a strong commitment to ensuring that 
all students not only graduate from high school, but graduate with real 
skills that they can put to use either at college or in the workforce.
    Much of this change is driven by two factors: the strong 
accountability of No Child Left Behind, under which the Nation has made 
a commitment to a high-quality education for all children, regardless 
of their background; and the demand for a highly educated, talented 
workforce to ensure our economic competitiveness. The President's 2008 
budget request for education is driven largely by these same two 
factors.
    President Bush is requesting $56 billion in discretionary 
appropriations for the Department of Education in fiscal year 2008. As 
you know, we prepared our request before Congress completed action on 
2007 appropriations for the Department of Education, and at that time 
our 2008 discretionary total was the same as the 2007 Continuing 
Resolution level--CR level. Our budget reflects both the discipline 
required to meet the President's goal of eliminating the Federal 
deficit by 2012 and his determination to target Federal education 
dollars on activities that show the greatest promise of helping all 
students reach the proficiency goals of No Child Left Behind.
    To fulfill this commitment to funding what works, our 2008 request 
would terminate support for a significant number of programs that have 
achieved their original purpose, duplicate other programs, are narrowly 
focused, or are unable to demonstrate effectiveness. We also are 
proposing to reduce funding for several other programs in favor of 
increases for higher priority activities. This combination of 
terminations and reductions would make available approximately $3.3 
billion for the administration's priorities.
                          nclb reauthorization
    Our top priority for 2008 is reauthorization of the No Child Left 
Behind Act--NCLB--or, more accurately, reauthorization of the 
Elementary and Secondary Education Act of 1965, as reauthorized 5 years 
ago by NCLB. In January, the administration released ``Building on 
Results: A Blueprint for Strengthening the No Child Left Behind Act'', 
which describes our principles and priorities for reauthorizing NCLB. 
We now are drafting detailed proposals for consideration by Congress 
that would put those principles and priorities into place.
    Our goal for reauthorization is to retain the strong accountability 
of the original No Child Left Behind Act, with its emphasis on annual 
assessment for all students, disaggregating assessment results by 
student subgroups, and 100 percent proficiency in reading and 
mathematics by 2014. In addition, our reauthorization proposal would 
build on this foundation by:
  --Strengthening efforts to close achievement gaps, both by giving 
        educators additional tools and resources to turn around low-
        performing schools and by providing new options to the parents 
        of students in such schools;
  --Giving States greater flexibility to measure student progress, 
        improve assessment, and target improvement resources;
  --Improving high school performance by expanding assessment, 
        promoting rigorous and advanced coursework, and providing more 
        resources to support reforms;
  --Helping teachers to close achievement gaps by supporting intensive 
        aid for struggling students, research-based instruction to 
        improve learning in mathematics, and new incentives and rewards 
        for teachers who work in low-achieving, high-poverty schools.
    I have been pleased to see a lot of common ground in the early 
discussions, reports, and recommendations on the reauthorization of No 
Child Left Behind, including the need to focus more attention on the 
high school level, the importance of improving math and science 
instruction, and greater flexibility and incentives to assign our best 
teachers to our most challenging schools. President Bush is personally 
committed to a successful reauthorization of NCLB, and I have seen 
strong evidence of that same commitment from key members of both Houses 
of the Congress. Our 2008 budget request was developed in concert with 
our reauthorization proposal to help move the debate forward in key 
areas.
                  raising the bar in our high schools
    The first key area is improving the performance of America's high 
schools. This has been a consistent theme of our last three budget 
requests, and the reauthorization of No Child Left Behind provides a 
new opportunity to finally make some real progress on the issue of high 
school reform. The recent release of the 2005 National Assessment of 
Educational Progress (NAEP) results for 12th-graders in reading only 
confirmed what we have long known: our high schools are not making the 
grade in the national effort to ensure that all students are proficient 
in core academic subjects. The average reading score for high school 
seniors in 2005 was lower than the score in 1992, and the percentage of 
12th-graders scoring ``Proficient'' or better on the NAEP reading 
assessment has now decreased from 40 percent in 1992 to 35 percent in 
2005. I know the NAEP definition of ``Proficient'' differs from the 
State definitions used for No Child Left Behind accountability 
purposes, but the NAEP data are suggestive of the nationwide gap that 
must be closed to reach NCLB proficiency goals.
    We think one way to close this gap is a relatively obvious one: 
give high schools their share of Title I funding. Currently, our high 
schools enroll about 20 percent of poor students, but receive only 10 
percent of Title I allocations. To help correct this resource 
imbalance, our NCLB reauthorization proposal would change local 
allocation rules to require each school district to ensure that Title I 
allocations to its high schools roughly match the share of the 
district's poor students enrolled by those schools.
    Since we don't want this new policy to come at the expense of 
elementary and middle schools currently receiving Title I funds, our 
$13.9 billion request for Title I Grants to Local Educational Agencies 
is intended to minimize any shifting of resources from elementary to 
secondary schools under the new allocation rules.
    In addition to increased Title I funding for high schools, our 
reauthorization proposal would expand assessment at the high school 
level to encourage greater rigor in high school course-taking and to 
help make sure all high school graduates are prepared for postsecondary 
education or competitive employment in the global economy. The 2008 
request would provide $412 million in State Assessment Grant funding 
that, in addition to supporting continued implementation of annual 
assessments in reading, math, and science in earlier grades, would help 
pay for new assessments in reading and math at two additional high 
school years, including an 11th-grade assessment of college readiness 
in each subject.
                  american competitiveness initiative
    Another key to increasing the rigor of instruction at the high 
school level is the President's American Competitiveness Initiative, or 
ACI, which is focused on improving math and science instruction both by 
ensuring that students in the early grades master the basics they need 
to succeed in critical high school subjects and by strengthening 
coursework in our high schools. The budget request provides a total of 
$365 million in new funding for the ACI, including $250 million for the 
elementary and middle school components of Math Now, which would 
encourage the use of research-based instruction to improve math 
achievement. We also are asking for a $90 million increase for the 
Advanced Placement program to train more teachers and expand the number 
of high schools offering AP and IB courses in math, science, and 
critical foreign languages. And we are seeking $25 million to create an 
Adjunct Teacher Corps, which would encourage experienced individuals 
from scientific and technical professions to teach high school courses, 
especially in high-poverty schools.
    Increasing the number of Americans who speak foreign languages also 
is essential to ensuring competitiveness in the global economy, and to 
national security in the global war on terrorism. For this reason, the 
2008 request would provide $35 million as the Department's contribution 
to the President's multi-agency National Security Language Initiative. 
The core of the Department's effort in this area is $24 million for a 
new Advancing America Through Foreign Language Partnerships program, 
which would support fully articulated language programs from 
kindergarten through graduate school aimed at significantly increasing 
the number of Americans fluent in languages critical to national 
security.
    In addition to the ACI, we are seeking $100 million for the 
Striving Readers program, which helps raise high school achievement by 
promoting research-based methods for improving the skills of teenage 
students who are reading below grade level.
                expanding support for school improvement
    A major focus of our NCLB reauthorization proposal is strengthening 
the school improvement process. An estimated 20 percent of Title I 
schools currently are identified for improvement, with a growing number 
of those now entering the corrective action and restructuring stages of 
improvement, under which school districts are required to make 
fundamental reforms in instruction, staffing, and school governance to 
turn around chronic low-performance.
    No Child Left Behind encourages a comprehensive, broad-based 
approach to school improvement, including technical assistance from 
States and school districts, the adoption of research-based improvement 
strategies, more effective teaching, and the provision of choice 
options for students and their parents.
    A critical factor in turning around low-performing schools is 
strong support from States, which by law are required to establish 
statewide systems of technical assistance and support for local 
improvement. The 2008 request would help build State capacity to 
support school improvement by providing $500 million in Title I School 
Improvement Grants, which would be reauthorized to permit States to 
retain up to 50 percent of their allocations under this program for 
State-level improvement activities, such as technical support in areas 
like analyzing test results, revising budgets, professional 
development, and making available school support teams. States would be 
required to subgrant the remaining funds to school districts to support 
local LEA and school improvement activities.
    I was pleased to see that Congress responded to the President's 
2007 request in this area by providing $125 million for School 
Improvement Grants in the final 2007 CR. We are moving ahead quickly in 
planning for the effective use of these new funds, and we will be 
prepared to scale up State and local improvement activities in 2008.
    Our reauthorization proposal for School Improvement Grants also 
would permit the Secretary to retain up to 1 percent of appropriated 
funds to support efforts to identify and disseminate proven, research-
based school improvement strategies. This proposal reflects the 
administration's strong conviction that we must not only invest in 
education, but also be careful to invest in what works.
    Another key to successful school improvement efforts is a new 
emphasis on incentives for talented and effective teachers to work in 
challenging school environments. Several recent reports have confirmed 
the tendency of districts to assign their most experienced and highly 
qualified teachers to their lowest-poverty, highest-achieving schools, 
while lower-performing, higher-poverty schools tend to be served by 
inexperienced and unqualified teachers. Our reauthorization proposal 
would attack this problem from two angles. First, in the case of 
schools identified for restructuring that are undergoing fundamental 
reforms in governance and staffing, our proposal would give 
superintendents and other school leaders greater freedom to reassign 
teachers to best meet the needs of schools working to improve student 
achievement.
                         teacher incentive fund
    Second, our budget request would provide $199 million to 
significantly expand the Teacher Incentive Fund and encourage more 
school districts and States to develop and implement innovative 
performance-based compensation systems. These systems would reward 
teachers and principals for raising student achievement and for taking 
positions in high-need schools, making an essential and valuable 
contribution to meeting the school improvement goals of NCLB.
                          new choice proposals
    We recognize, however, that school improvement takes time, and we 
firmly believe--especially in the case of chronically low-performing 
schools that have missed proficiency targets for many years--that 
students and parents should not have to wait for their schools to 
improve. Students attending such schools should have the opportunity to 
transfer to a better school, whether it is a private school or a public 
school in another district. To help create such opportunities, our 2008 
request includes two new choice proposals that would expand options for 
students and parents at low-performing schools.
    The first is $250 million for Promise Scholarships, which in 
combination with other Federal education funds would provide 
scholarships of about $4,000 that would allow students at schools 
undergoing restructuring to transfer to a better public or private 
school. Parents also could use Promise Scholarships to obtain intensive 
supplemental educational services--SES--for their children in lieu of 
transferring to another school.
    Second, our $50 million proposal for Opportunity Scholarships is 
intended to stimulate State and local choice initiatives, including 
those modeled after the DC Opportunity Scholarships program. This 
proposal would either pay the costs of attending a private school 
selected by eligible students and their parents or provide $3,000 to 
pay for intensive SES.
                               conclusion
    These highlights of our 2008 request demonstrate our commitment to 
targeting limited Federal resources where they can leverage the most 
change and bring about meaningful improvement in our education system. 
I look forward to what I expect will be a vigorous debate this year as 
we work together on both the 2008 appropriation for the Department of 
Education and the reauthorization of No Child Left Behind.
    I will be happy to respond to any questions you may have.

                   RESOURCES FOR NO CHILD LEFT BEHIND

    Senator Harkin. Thank you very much, Madam Secretary.
    Well, I also think the patient will also translates into 
coming up with the resources that are needed. Earlier I spoke 
in my opening statement about what is happening in Iowa, where 
more than half the school districts will receive less Title I 
money this fiscal year than they got before the law was passed. 
People in these districts cannot understand why the Federal 
Government would ask them to do more than ever under No Child 
Left Behind with less money.
    I just do not know what to say other than, if we are going 
to put higher demands on schools should we not help give them 
the resources to do the job? I do not see that in your budget 
request, that we are going to be able to do that.

                            TITLE I FUNDING

    Secretary Spellings. Well, as I said, Title I has 
increased--funding is up 59 percent since the President took 
office. Interestingly, I think it is also important that we 
have moved the Federal share of education spending upward in 
that period of time, and actually Federal increases have 
outpaced State increases. We have a 39 percent increase in 
Federal spending over that period of time compared to about a 
22 percent increase in State resources.

                    SHIFTS IN TITLE I FUNDS TO LEAS

    With respect to the Title I formula that you mentioned, 
with some school districts in your State losing resources, the 
formulas in the bill provide that the money follows the child. 
So communities that are growing, large, fast-growing 
communities, have seen more rapid increases in funding, while 
school districts that are declining in population may have seen 
less.
    Senator Harkin. That defines Iowa.

                   RESOURCES FOR NO CHILD LEFT BEHIND

    Let me just ask you about this, about the increase in 
funding. As I look back over the years, almost all of that 
increase in funding took place in 2 years, fiscal year 2002 and 
fiscal year 2003. Since then, No Child Left Behind funding has 
been basically flat. Here are the figures: No Child Left Behind 
was funded at $23.8 billion in 2003 and $23.6 billion in 2007.
    I do not think that is much to really brag about. But I 
just show, most of the increase took place in the first 2 
years. Furthermore, I might add, I was here during those years 
and it was not the administration's budget, it was Congress 
that did that. Congress added the money to boost that up in 
those early years beyond the administration's budget request, 
and we are the ones--and I say this on both sides of the 
aisle--that demanded that we put more money into this program.
    In 2002, the President asked for $19.1 billion for No Child 
Left Behind, but Congress demanded more and we put in $22.2 
billion. That was $3.1 billion above the President's request. 
In 2003, the President's budget proposed to cut No Child Left 
Behind funding. Congress put in a $1.6 billion increase. So 
again, when I hear about all these, the amount of increase, 59 
percent and all that kind of stuff, the fact is that took place 
in the first couple of years and since that time it has been 
relatively flat.
    Would you agree or not?
    Secretary Spellings. Yes, sir, I would agree that the 
significant increases came in the early years, and obviously we 
faced many, many challenges as a Nation in that period of time 
since that have strained resources. You know, we also fully 
understand that the President proposes and you dispose, and at 
the end of the day the President signed and was supportive of 
the investments that were made in education over those years.
    Senator Harkin. Well, again, there is money. We do spend 
money here. So it is prioritizing. Now, it seems to me if we 
are going to meet these challenges of the future and really do 
this through No Child Left Behind, that seems to me to be one 
of the major priorities we have in this country. So I know we 
have had other demands on money since then with 9/11 and the 
Iraq war and everything else, but nonetheless we do spend other 
money here. It would seem to me that if this is going to be a 
priority we ought to make it a priority, and I have not seen 
that.
    That is what I hear from my school districts. Again, as I 
divine this, as I try to get into it, first of all I hear the 
complaints from teachers and school boards and things like that 
about No Child Left Behind. But the more I dig into it, the 
more I find out it is just really a matter of resources more 
than anything else. Now, there is some concern about the 
frequency of the testing and whether or not frequency of 
testing really is a good measure, that type of thing. But 
overall it is more the resources. If there needs to be remedial 
math and remedial courses, it is the money for it. If they need 
to have highly qualified teachers, it is the money for it, and 
they simply are not getting it.

                         READING FIRST PROGRAM

    Let me just move to one other thing that has sort of been 
hanging over us for some time here. Obviously, reading. Reading 
is one of the parts of No Child Left Behind. One of the largest 
programs is Reading First. Over the past 5 years, Congress has 
appropriated more than $5 billion for this program. So I was 
disturbed by several recent reports from the Inspector General 
that the Department mismanaged the program, that it steered 
school contracts to publishers that were favored and away from 
others, and ignored Federal laws on maintaining local and State 
control of school curricula.
    After the first IG report, Madam Secretary, you said that 
these were, ``individual mistakes,'' by Department officials, 
and you noted that these events occurred before you became 
Secretary. However, Michael Petrilli, who worked in the 
Department during the period covered by the IG report, wrote 
that you micromanaged--this is a quote--``micromanaged the 
implementation of Reading First from her West Wing office,'' 
end quote, where you were President Bush's domestic policy 
advisor. Petrilli also wrote that you were, ``the leading 
cheerleader for an aggressive approach,'' whatever that means.
    Also, Education Week newspaper has uncovered numerous e-
mails between you and Reid Lyon, one of the key advisers for 
the program, regarding Reading First activities.

                   STATE AND LOCAL CURRICULUM CONTROL

    Madam Secretary, again this has to do with spending a lot 
of money. That is what this committee is about. We have this 
IG's report. I am concerned about it, concerned that in No 
Child Left Behind we insisted that the Federal Government would 
not dictate to local school districts and State schools what 
they had to teach, what their curricula was. That was insisted 
on, putting it in there.
    In Reading First, what we saw happen was the Department of 
Education or you as the domestic policy advisor basically 
telling some schools what they had to follow in terms of 
Reading First. Is that so or am I missing something here, Madam 
Secretary?

                 RESPONSE TO IG REPORT ON READING FIRST

    Secretary Spellings. No, sir, that particular aspect is not 
so. Let me address your concerns. First of all, obviously I was 
as disturbed and probably more so as you are about the 
Inspector General's report and that is why I adopted every 
single one of the recommendations that he made to me and have 
acted on those. In fact, I am about to provide on the House 
side, and I am sure you would be interested as well, a specific 
action plan of what we have done with respect to oversight of 
that grant program and every other grant program of the 
Department of Education.
    We made personnel changes within the Department of 
Education. The officials who were implicated in the Inspector 
General report are no longer at the Department. I was the 
domestic policy advisor at the time, with the responsibility to 
oversee more than a dozen departments and agencies and 
activities, and obviously I was not micromanaging that grant 
program or any other grant program of the thousands and 
thousands that are run by the domestic agencies.

                 USE OF SCIENTIFICALLY BASED CURRICULA

    With respect to Dr. Lyon, he was the lead Federal 
Government researcher at the National Institute of Child Health 
and Human Development under NIH at the time. The statute does 
provide that these funds, the nearly more than tripling of 
funds that were provided, be used for reading instruction based 
on a scientifically based approach. That research, which had 
been funded over a period of 14 years or more, conclusively 
answered much of the dispute about how we teach young children 
to read.
    There were not then, nor are there ever, specific 
requirements about particular curriculum products or 
approaches. But the law did require that the funds that were 
expended on reading had to meet scientifically based research 
principles. Secretary Paige at the time posted a letter early 
on in the administration and made crystal clear that there was 
not a specific program or product that was endorsed by the 
Department. That has been true since.

                      BOSTON READING FIRST PROGRAM

    Senator Harkin. Well, Madam Secretary, this still continues 
to bedevil us, because I think the law was very clear and we 
have, according to the IG's report, instances of where schools, 
I believe it was in Boston, were doing a certain reading 
program that was approved. These were approved, peer-reviewed 
programs. The Reading First director called a State official to 
say he had concerns about some of these reading programs that 
four districts were using. All these programs had gone through 
the appropriate, as I said, peer review approval process. 
Nevertheless, the State official conveyed that concern to the 
districts.
    The three that dropped those programs continued to get 
Reading First funding. The one that stuck with this program had 
its Reading First funding taken away, even though it was an 
approved program. This is what bothers us. I mean, the clear 
signal was you better do what the Department or the White House 
says or you are not going to get your funding.
    Secretary Spellings. Well, with respect to the particular 
issues about Boston, all I can say is that there was a 
framework about what constituted scientifically based reading 
instruction, which included obviously multiple aspects, and 
some school districts met those with one approach, some had 
multiple approaches woven together. As you said, there were 
peer review processes. I do not know the particular aspects of 
that specific situation, but----
    Senator Harkin. I wish you would look at it, because it is 
very disturbing about the Boston situation.

                 RESPONSE TO IG REPORT ON READING FIRST

    Secretary Spellings. I will tell you that, and I think it 
is important, and particularly in times of scarce resources, 
that Reading First is working for students. I would certainly 
not want us to leave the impression that, while there is 
certainly room for improvement in oversight and the management 
of this program, that it isn't. I have embraced, as I said, 
every single one of the IG's recommendations. I am hugely 
concerned about the credibility of the Department, but I also 
know that more kids are being taught to read. This is a major 
investment in reading instruction and I would hate to throw the 
baby out with the bathwater.
    Senator Harkin. Well, I do too. I just say that in looking 
at this, we had--obviously, these things come to light when 
complaints come in to the Congress and that is why we asked GAO 
or the IG's office to take a look at it, because we do not 
really know all these things and we have to rely upon their 
investigative arm to do so. When this came back, it was very, 
very disturbing to see the heavy hand of the Federal Government 
coming in and saying, no, you have got to do this, especially 
when it involves a lot of money. This is a lot of money and it 
is money to private contractors, so if one private contractor 
or somebody is getting a lot of money going his or her way and 
taking it away from others, it raises all kinds of questions 
about who is talking to whom and who is getting the benefits 
and that kind of thing.
    That is why we really have to be very careful about it. I 
am happy to hear that you have implemented all of the 
suggestions of the IG's office, and hopefully that is just a 
chapter in the past and it will not happen again.
    Secretary Spellings. We both hope that, believe me.
    Senator Harkin. Thanks, Madam Secretary.
    I yield to Senator Craig, who I guess was here first.
    Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman. Madam 
Secretary, again welcome to the committee.
    Let me ask unanimous consent that my opening statement 
become a part of the committee record.
    Senator Harkin. Sure.
    [The statement follows:]
                 Prepared Statement Senator Larry Craig
    Secretary Spellings, I appreciate you coming today to testify 
before this subcommittee regarding education funding and the 
reauthorization of No Child Left Behind. This hearing will give all of 
us critical insights as to how No Child Left Behind has functioned over 
the past five years, and what changes need to be made in order to 
ensure that American children will receive the best education possible 
and enable them to succeed in the global market.
    I have long been a proponent of a limited Federal Government, and 
this is especially true when it comes to education. It is presumptuous 
to say that the Federal Government can provide a one-size-fits-all 
solution to education, and because of that, we need to make sure that 
States and local education agencies ultimately are able to decide what 
is best for education.
    This year we will have the opportunity to revisit No Child Left 
Behind and improve it. I am confident that the administration will work 
closely with us to ensure that we continue to move our Nation's 
education system forward and make it stronger.
    I also support the President's American Competitiveness Initiative, 
which places an emphasis on improving math and science learning for our 
students. Last year, I joined several of my colleagues to introduce the 
PACE-Energy Act, legislation that would increase math and science 
education through the Department of Energy. This bill received 
widespread support and I look forward to continuing this work to make 
American students more competitive in the global community.
    As you know, Idaho has a large number of rural schools. It has 
always been a concern of mine that if the Federal Government became too 
involved in local education, the rural schools would suffer the most. 
As we consider No Child Left Behind this year, I will be working very 
hard to ensure that rural school districts are not unfairly punished by 
No Child Left Behind regulations that are unfair to the real conditions 
on the ground.
    Madame Secretary, the Congress will also be looking at higher 
education later on this year. Last year, I was troubled with by a 
program proposed by the Commission on the Future of Higher Education 
that would create a National Student Database. Currently, around 40 
States already maintain their own secure database without Federal 
involvement. Having been involved in the massive identity theft at the 
Department of Veterans' Affairs, I have serious concerns about your 
department compiling large amounts of personal and financial data to be 
kept within the Department of Education.
    Again, Secretary Spellings, I am pleased to see you here again 
before this Subcommittee, and I look forward to hearing your testimony.

                       NCLB AND LOCAL FLEXIBILITY

    Senator Craig. This hearing today was in large part to be 
focused on the reauthorization of No Child Left Behind and how 
we work on that and its dynamics and its future. Madam 
Secretary, the frustrations that I would want to express to you 
today--and it is something that in part resources solve, but 
also program solves--an effort to create a Federal program 
where one size fits all--this weekend I was at a gathering in a 
small community in my State not far from where I grew up, 
chatting with a high school senior. I said: How many in your 
graduating class this year? She smiled and said: Well, it is a 
fairly big class, Senator; it is 17. Riggins, Idaho.
    Not far from there, at least by Idaho distances, 200 miles, 
220 miles, is one of the larger schools in the country today, 
over 2,000 students in the high school, a rapidly growing area, 
breaking themselves up into academies, being very dynamic in 
how they look at themselves. I had walked into that school and 
took a tour of it a year ago, a beautiful new school that has 
already outgrown itself and it is 2 years old.
    I thought, oh my goodness, students must get lost here. But 
they are not getting lost. There is a certain amount of 
individuality there created by the academy concept that 
probably certainly is not as great in Riggins, Idaho, where 
there are 17 in the high school graduating class. But there it 
becomes very obvious to me that one size cannot possibly fit 
all and that in most instances the quality of a rural high 
school education, while different than an urban high school 
education, approaches it and must be allowed to approach it in 
different ways.
    Most of my educators today, principals, superintendents, 
and educators, are less critical of No Child Left Behind than 
they obviously were a few years ago. They see it working. They 
still do not see the flexibility that is oftentimes necessary 
or the measurement of indices or indices that measure in a way 
that do not do that.
    What kind of flexibilities can we see in reauthorization 
recommended from your position versus what we might do here?
    Secretary Spellings. Thank you, Senator. I will be glad to 
answer that. I completely agree, one size does not fit all. 
States have established their own assessment systems, their own 
standards, their own sample sizes, and so on and so forth. The 
President is specifically calling for some flexibility around 
calculating what is known in the trade as a growth model. I 
have granted, over the last 2 years, waivers for five States to 
begin to experiment, now that we have annual assessment data--
it would have been impossible to do 5 years ago when that was 
frequently not the case--for us to chart the progress of 
individual students over time, so long as we stay true to what 
I call the bright line principles. But I think certainly there 
is some prospect that that could be a very valid way of 
measuring progress and certainly one that the President 
supports.
    Senator Craig. Well, I will look forward to looking at some 
of those proposals. While I think small schools are more the 
anomaly today than the reality, as a graduate of a high school 
in which my class--I was 1 of 10--I find that my concern about 
being able to sustain small schools is very valuable for the 
participation and quality of education.

            PRIVACY AND HIGHER EDUCATION NATIONAL DATABASES

    Last question, Mr. Chairman. The Congress will also be 
looking at higher education later on this year, Madam 
Secretary. Last year I was troubled by a program proposed by 
the Commission on the Future of Higher Education that would 
create a national student database. Currently around 40 States 
already maintain their own secure database without Federal 
involvement. Now, you are looking at a Senator who has 
weathered two database breaches at the VA as chairman of the 
Veterans Affairs Committee here in the Senate of some magnitude 
and substantial expense on the part of the Federal Government 
and great consternation on the part of America's veterans, when 
it was possible, although, thank goodness, it has not happened, 
that their social security numbers, their wives' social 
security numbers or spouses' and on and on became available 
outside that realm.
    I have serious concerns about your Department compiling 
large amounts of personal and financial data to be kept within 
the Department of Education, especially when States are 
apparently doing it with some degree of adequacy on their own. 
And I am asking wherein does the value of this lie? In fact, I 
suggested at a time of a VA data breach, thank goodness it was 
not the student loan program, because there you would have got 
three social security numbers instead of one or two.
    Yet the sense of security in managing these databases 
becomes I think increasingly important on one side. The other 
side is sometimes we just like to assemble them for purposes of 
measurement and knowing where we are not or where we are, and 
we love to talk about statistical analysis. I am wondering how 
valuable it is at certain times when in fact a little extra 
work simply compiles that which is already out there when it is 
necessary to use, instead of in one large base environment.
    Can you respond to those concerns?
    Secretary Spellings. Yes, sir, I would be glad to. You are 
right, my commission did recommend that. While we do have 40 
State data systems, they are isolated--sort of cul de sacs. As 
consumers shop for higher education and look for value and look 
for productivity and look for output and completion rates and 
so forth, there is power in additional consumer information 
that would allow students to compare those things about a State 
school in your State versus a State school in my State and the 
like. That is why the President has asked for $25 million as a 
pilot project to begin to see if there is any promise at the 
State level of beginning to understand how those data might 
interact.
    I obviously am very concerned about matters of privacy and 
so forth. We have large databases at the Department of 
Education and, happily, have had sound integrity for the most 
part around those programs. But I also know that, as we collect 
data through our integrated postsecondary education data system 
that we obtain a lot about first-time, full-time, non-transfer 
degree-seeking students, but they are fewer and fewer students 
within our higher education population. So the existing data do 
not allow us to know very much and be very smart about either 
providing consumers the information they need to make 
selections or to inform policy about how we invest resources 
around higher education.
    So he has called for a $25 million pilot program to start 
to think about, whether this is an area that we ought to be 
looking into with greater intensity.
    Senator Craig. Okay, thank you.
    Secretary Spellings. Thank you, Senator.
    Senator Harkin. Thank you, Senator Craig. I thought it was 
very enlightening to now learn that you were in the top 10 of 
your graduating class.
    Senator Craig. That is a valid statement, Mr. Chairman.
    Senator Harkin. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Madam Secretary, welcome to the hearing. We appreciate your 
service and hard work as Secretary of Education.
    Secretary Spellings. Thank you.

                     READING PROGRAM IN MISSISSIPPI

    Senator Cochran. I'm listening to the discussion 
particularly about reading programs and I could not help but 
think about my State of Mississippi and the good fortune we 
have in Jim Barksdale, who is a very generous benefactor for a 
statewide reading program. I know you probably have met him and 
know of the work that is being done with privately funded 
activities that are based at the University of Mississippi, but 
are truly statewide. There are pilot efforts ongoing in places 
like Okolona, Mississippi, under the direction of Jim's 
brother, Claiborne Barksdale, who is a former education 
legislative assistant and legislative director on my staff.
    I am told that they are doing some marvelous things and 
work is under way that is very promising, and I wonder if it 
would be appropriate for the Department of Education to look 
closely at some of the things they are trying there and 
assessing the worth of the new programs and whether or not this 
could be a model for a nationwide effort?
    Secretary Spellings. Yes, Senator, we are very familiar 
with that. It is a model and they, as you said, basically have 
a statewide endeavor that is really improving reading 
instruction in Mississippi in big cities and small towns as 
well. So we are well familiar with it, and I will look and see 
what kind of best practices we might model and share with other 
States and communities.
    Senator Cochran. My dear mother was the Title I coordinator 
for mathematics instruction in County, Mississippi, where I was 
going to high school at the time. Actually, I was in college 
when Title I was created. But I did learn a lot about her 
enthusiasm for the coordination of countywide or districtwide 
instruction under the auspices of someone who is well trained 
and talented and committed and works hard in an academic area. 
I just happen to know more about mathematics programs than 
anything else.

                          TITLE I ALLOCATIONS

    I notice that there is a suggestion that some are saying 
they need more funds for Title I type instruction and 
supervision in the elementary grades; others express a need in 
the high school grades. I say that because I understand the 
President is proposing moving some of the funds that are now 
allocated to elementary schools to high schools and there are 
some elementary educators who are worried about this. What is 
going on? Is there a new national emphasis on either one or the 
other, high school or elementary, getting the benefit of the 
Title I program?
    Secretary Spellings. Senator, currently the vast majority 
of Title I resources go to our elementary schools, somewhat 
less to our middle schools, and virtually none to high schools. 
That is why the President believes, as we have heard from the 
business community and others about the new currencies of more 
competency and proficiency in high school, that new investments 
that we make in Title I, our largest program as you rightly 
said, be focused on investments in high school. We know that so 
many of our African American and Hispanic students drop out, 
that there is the need for more rigor and more relevance, more 
intervening programs like Striving Readers and various things 
like that that need to come to our high schools, and there is 
emerging consensus around that.

                           PREPARED STATEMENT

    So the President believes new investments ought to be 
targeted and pointed at some activities in high school, which 
frankly have been somewhat ignored.
    Senator Cochran. Thank you very much.
    Mr. Chairman, I would like to ask that my statement be made 
a part of the record.
    Senator Harkin. Without objection.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
                 welcome remarks to secretary spellings
    Welcome, Secretary Spellings. Thank you for your tremendous efforts 
on behalf of our schools' recovery from hurricane Katrina. You were 
swift to ease regulations and provide advice to school administrators, 
and when Congress provided funds, you and your staff quickly put in 
place the mechanisms to get the funds to the States and to the schools, 
both K-12 and our higher education schools. The subsequent visits by 
you, Under Secretaries, and your staff have helped to boost the morale 
of teachers and administrators and has given them the opportunity to 
show you the progress they have made. Your continued interest in the 
well being of our schools and students is very much appreciated.
    We appreciate the emphasis in the fiscal year 2008 budget proposal 
on high school students. Mine is one of those States with alarming drop 
out rates. This fact perplexes parents as well as education leaders. 
Emphasis on programs that will assist high schools with this problem 
and create an early learning environment that will reduce the 
likelihood of high school drop out will help many other parts of our 
society, including a well prepared work force, better parenting, and 
reduced criminal behavior.
    We look forward to the opportunity today to discuss some of the 
President's new ideas.

    Senator Cochran. Thank you.
    Thank you, Madam Secretary.
    Secretary Spellings. Thank you, Senator.
    Senator Harkin. Senator Stevens.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Secretary Spellings, I am sorry I was not here when you 
made your statement. I have read it, though. I am impressed 
with your support of the concept of No Child Left Behind, but 
could we have an agreement that in order to be fair all 
children have to be at the starting line if we are going to 
judge whether they have been left behind? There are some that 
are not there at the starting line to begin with.
    Secretary Spellings. I would agree with that.

         PROGRAMS PROPOSED FOR ELIMINATION IN FISCAL YEAR 2008

    Senator Stevens. I find it sad that this budget eliminates 
all of the programs that we have started in the past, like the 
Alaska Native Education Equity Act, the Alaska Native/Native 
Hawaiian-Serving Institutions of Higher Education Program, the 
Education Through Cultural and Historical Organizations, which 
is called ECHO, and the Physical Education Program which was 
named after Carol White.
    They have been in the budget for a series of years. I 
wonder if you could tell me why they were all eliminated?
    Secretary Spellings. Well, Senator, as I know you know, 
this budget presents a series of tough choices, including the 
ones that you name. As I said before you got here, the 
President certainly understands that we propose and you 
dispose. I think one of the philosophical things that the 
President believes in, and it certainly has been part of 
increases in Title I, is that we stipulate the goals, the 
outcomes, grade level achievement in 2014, and those sorts of 
things, and provide broad latitude, consolidate resources in 
larger programs, and allow local school districts to make 
decisions about the types of needs that they have.

        NATIVE ALASKAN AND NATIVE HAWAIIAN PROGRAM ELIMINATIONS

    Senator Stevens. Of course, that is a nice offer, but with 
the recent statement by Mr. Portman on the absolute abolition 
of earmarks, how would we ever get that money back into the 
budget to continue what has been going on now for at least 12 
years? All of those programs have been very successful. I hope 
you will come up to Alaska and you will go to Hawaii and take a 
look, but we have enormous problems dealing with Native 
children who come in from the villages and want to fulfill the 
educational program required by No Child Left Behind. That was 
the reason we created some of these programs long before No 
Child Left Behind.
    But I really--what are you doing in other areas where they 
have 10 and 15, 20 percent of minority students that do not 
speak English, that many of them have come from really 
impoverished circumstances? What do you do there?
    Secretary Spellings. Those students are supported through 
Title I, and certainly there is no impediment, obviously, that 
Title I resources be used around the----
    Senator Stevens. Do you have a Title I office in Alaska?
    Secretary Spellings. Do we specifically have a Title I 
office in Alaska? I am sure there is one in the State 
Department of Education there.
    Senator Stevens. I do not remember one.
    Secretary Spellings. I mean, I am sure we do not have a 
Federal Department of Education office in Alaska, but I am sure 
the State office manages and oversees Title I for the State of 
Alaska.
    Senator Stevens. Well, we do have a State department of 
education and we run our educational system on local school 
districts. But I do not think that your Department even knows 
the situation with regard to the higher education programs we 
are dealing with. These organizations, these institutions of 
higher education, for instance, are sort of open universities 
in various small villages and cities in both Alaska and Hawaii, 
many of whom are a thousand miles from the office of the State 
department of education.
    We created a Federal program to help them work together and 
we have united them through the concepts of tele-education, 
tieing them into the University of Alaska and the University of 
Hawaii.
    I tell you, I look at what has been done and I just, I 
cannot believe that such a meat axe would be placed on the 
education budget for Alaska and Hawaii. I am very serious. It 
worries me greatly to represent a place that is not understood 
apparently by this administration and they are refusing to 
accept the judgments made by the past administrations and 
Congresses of programs that would work and do work and have 
brought our children to the point where they can meet the needs 
of No Child Left Behind.
    I do hope you will come to Alaska.
    Secretary Spellings. I do too.
    Senator Stevens. I do not know yet what we are going to do, 
but the Senators from Alaska and Hawaii are going to have to 
meet and figure it out. Every single program that we have had 
in the past for education under this bill has been eliminated 
by the budget. I do not think that has happened to any other 
State.
    I do think that we are going to have to invent something 
that can escape the earmark process and get back to the point 
where we can fulfill the needs of these children. This budget 
cuts them off in midstream. We have children that are in those 
institutions of higher education, some of whom go on and 
successfully go to higher education in other States, but they 
are way out away from our universities.
    You know how far it is from Anchorage to Adak?
    Secretary Spellings. A long way.
    Senator Stevens. 2,000 miles. You know how far it is from 
Anchorage to Point Barrow? 1,200 miles. That is like from here 
to Denver. Your people just whacked these programs. I cannot 
remember ever being this disturbed with the Department of 
Education as I am today.
    Thank you very much, Mr. Chairman.

                    CONGRESSIONALLY DIRECTED FUNDING

    Senator Harkin. If I might just add, I think Senator 
Stevens has given another example of why there is a role for 
congressionally directed funding.
    Senator Stevens. I hope there is.
    Senator Harkin. There is. The Constitution of the United 
States gives us that role and, quite frankly, those of us who 
represent different States see different needs. We are able to 
use congressionally directed funding to test out theories. Some 
work, some do not, but then to focus where they are needed. 
Sometimes broad departmental maneuvers cannot do that, and that 
is why there is a role for congressionally directed funding in 
a lot of areas.
    Senator Kohl.
    Senator Kohl. Thank you, Senator.
    I want to, if I may, just echo what Senator Harkin said. I 
wanted to echo what Senator Harkin said. Back in Wisconsin, of 
course, I get around a lot and I have worked hard to get as 
much as I can in congressionally mandated spending, which is 
less than 1 percent of our budget. You know, the Constitution 
does call for Congress' role, as you know, in determining how 
much money we spend and where we spend it. It seems to me when 
we have at this level of Government 1 percent of the Federal 
budget to chew over to try and use in our various States in the 
most precise and effective way, and if we can have that subject 
to total transparency so that there is no chicanery and no 
involvement in trying to direct spending to satisfy lobbyists 
or campaign contributors, but simply to address real needs that 
we understand in our districts and in our State that cannot be 
understood necessarily at the Federal level by people who 
reside in different buildings around the city, if we can do 
that back at the State level with less than 1 percent of the 
Federal budget, it seems to me to demagogue that issue and to 
try and suggest that that money is being corrupted and spent 
for the most part unwisely, whereas all the money in a 
President's budget, be it a Democratic or Republican President, 
is being spent wisely, in contrast to congressionally mandated 
spending, I do not think that holds water, and I think we do 
our country a disservice.
    I know that back in my State, if all of the congressionally 
mandated spending that I have been able to do over my term were 
eliminated, there would be so many unhappy people for so many 
good causes--education, health care, and environment, after-
school programs, all the things that we really spend money on 
carefully and wisely. If we eliminated that and simply said to 
the President, as I said, regardless of party, we will work off 
your budget, we will not suggest any spending, we will not be 
involved in recognizing needs in our States and in our 
districts, we will walk away from that and just leave it to the 
Federal budget coming out of the White House, our country would 
be a lesser place. I honestly believe that. We would have less 
satisfied constituents. We would be less able to address the 
real needs in our various States and districts.
    While I do not see your head nodding yes or no, I will sort 
of take that as a qualified yes.

                      NO CHILD LEFT BEHIND FUNDING

    Having said that, I just want to address a couple things 
that I am sure you have heard about. In my State of Wisconsin, 
the lack of funding, adequate funding, for No Child Left Behind 
affects every district. In Sun Prairie, two Title I math 
teachers were let go. In Waukesha, they have had to cut back on 
writing classes and in Green Bay, support for art and music 
education has fallen.
    The Sun Prairie School District, Madam Secretary, received 
6 percent of their budget from the Federal Government. However, 
they spend 30 percent of their budget on meeting No Child Left 
Behind mandates. Sun Prairie is not alone in Wisconsin or 
across the country. Underfunding of No Child Left Behind forces 
our local taxpayers and our school districts to make up the 
difference. Taxpayers feel pressures to raise local property 
taxes. Districts are forced to cut vital programs and students 
are left behind.
    So how would you respond here? Perhaps you have already. 
There are many, many concerns, if not outright complaints, 
around Wisconsin, around the country, with respect to the 
requirements of No Child Left Behind and the lack of funds to 
meet those requirements.
    Secretary Spellings. Well, I think I would say a couple 
things to your school folks, Senator. One is that Title I 
funding is up 59 percent since the passage of that law. Special 
Education funding is up more than 65 percent since 2001. 
Federal investments actually have outpaced State increases in 
education funding by nearly two to one, about a 39 percent 
increase in Federal spending over that time compared to about 
22 percent increase in State funds.
    So I would answer the resource question. Obviously, there 
are issues around policy matters that you are hearing from your 
folks as well. The President has proposed a series of ideas 
around building on No Child Left Behind that recognize some new 
flexibility, some new ways to chart growth for progress over 
time, ways to look at highly effective teaching as opposed to 
just input-driven systems, around highly qualified teachers. So 
I think there is a nexus between the policy discussions as well 
as the resource levels that I think will come together this 
year as we look at the reauthorization.
    Senator Kohl. You do not agree--and I respect your point of 
view, but you do not agree with the position many of us have 
regarding the mandates of No Child Left Behind not being 
funded? That is not a----
    Secretary Spellings. Well, there is really one mandate per 
se in this law and that is annual assessment in grades 3 
through 8 in reading and math. We have spent about $2 billion 
specifically for that mandate, fully funded at the Federal 
level. But as a 9 percent investor in education, I do not think 
we will ever bear the full cost of meeting the requirements of 
grade-level proficiency by 2014. I do not think that was ever 
envisioned when No Child Left Behind was enacted. We are a 
minority investor in education in this country and I suspect 
will remain so.

                21ST CENTURY COMMUNITY LEARNING CENTERS

    Senator Kohl. Quickly, 21st Century Community Learning 
Centers have, as you know, been flat-funded at $981 million. As 
a result, many programs have had to be discontinued, as I am 
sure you are aware. It has happened in my city and in my State. 
Those programs, many of them are real after-school programs 
that have such a positive impact on young people's lives and I 
know you care about that deeply. But there is no question that 
we have had to eliminate many of those programs for lack of 
funding.
    Do you have a response, some way that we can get that 
program restored?
    Secretary Spellings. Well, I think I would say two things. 
One is that many of those needs are being met by virtue of the 
supplemental services or extra tutoring help that comes out of 
implementing No Child Left Behind and many of those same 
students are being served by the additional help that is 
provided through that route, which is not to say that we should 
not support after-school programs as they exist in the 21st 
Century program as well.
    Senator Kohl. Can I have 1 more minute? One more, quickly.

                 RESPONSE TO IG REPORT ON READING FIRST

    In Madison--I sent a letter to your office regarding 
Reading First grants. As you are aware, a recent internal audit 
of the Department's Reading First program cited significant 
mismanagement of the program. In 2004, Madison Metropolitan 
School District declined to continue to participate in the 
program. Madison's curriculum was working, but because it did 
not adopt your Department's recommended curriculum the district 
has lost over $2 million in Federal funds as a result.
    Can you tell us how you plan to address this report and, 
moreover, what is the status of the efforts to reinstate 
Madison's funds?
    Secretary Spellings. Yes, sir. Senator Harkin and I had an 
exchange about this. With respect to the Inspector General 
report, I have adopted every single one of the recommendations 
that he made to me, and I will be glad to share with the 
committee the status of each one of those actions. It pertains 
not only to the management of Reading First, but to really 
every grant program in the Department of Education, because, 
believe me, I take this very seriously. Personnel changes have 
been made, et cetera.
    But I would also say that the No Child Left Behind statute 
requires that--while there are obviously processes, peer review 
processes, and so forth--that scientifically based, researched 
programs are funded by this program. Our Government, through 
the National Institutes of Child Health and Human Development, 
funded a year long research program that conclusively ended 
some of the debate about how we teach young children to read. 
So it was not only about just programs that work. It was about 
particular elements and aspects that had to exist in a program, 
and that was the process of implementing Reading First, however 
flawed it might have been.
    With respect to doing that, Secretary Paige, who was at the 
helm at the time, sent letters and made clear that there were 
no prescriptive or specific programs that could or could not be 
allowed or paid for, so long as they met the requirement for 
scientifically based research programs. So the actual specifics 
of that program and where they fell off the mark with respect 
to implementing a scientifically based research program I do 
not happen to know off the top of my head, but I certainly will 
investigate.
    Senator Kohl. Thank you.
    Thank you for your forbearance, Mr. Chairman.
    Senator Harkin. Thank you, Senator Kohl.
    Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman.

                    CONGRESSIONALLY DIRECTED FUNDING

    Good afternoon, Ms. Secretary, Madam Secretary. I would 
like to associate myself with the remarks of Senator Kohl, my 
colleague from Wisconsin, relative to his defense of 
congressionally directed spending, which is a significant part 
of the role of Congress, in that the people elect us, send us 
here, to help focus on their priorities, and we do that through 
not just speeches and meetings that we have, but they are 
reflected in the budgets, particularly through the 
Appropriations committee members. But I think that has been 
well said, so I would like to just go on.

                           GULF COAST RENEWAL

    One, let me begin by thanking you for your attention to our 
particular situation in Louisiana and the gulf coast. You have 
been a very active Secretary on our behalf, willing to listen, 
to learn, to visit. I have said that publicly before, but I 
want to say it again. I really appreciate the effort that you 
and your staff have given.
    In that regard, are you familiar with the bill that Senator 
Kennedy has introduced, along with myself and Senator Reid and 
several Members of the House, called the Renewal Act for 2007? 
That is specifically focused to the gulf coast communities that 
were devastated both in Mississippi and Louisiana, to help us 
try to recruit, Madam Secretary, some of our teachers back, 
some additional good teachers to our region, and to help us 
stand up our schools, because it is virtually impossible to 
build cities, parishes, or counties without schools.
    Have you had a chance to look at it and could you make just 
a brief comment about your review of it?
    Secretary Spellings. Yes, I am somewhat familiar with it, 
Senator. Let me say that, to the extent that it is consistent 
with some of the things that the President has called for as he 
has asked for $199 million for what he is calling the Teacher 
Incentive Fund, which is to reward our very best people to go 
into our most challenging educational environments, I think 
there are definitely some similarities. But I am not 
specifically familiar with every aspect and with the resource 
levels. But I think there are some consistencies between the 
two proposals, clearly.
    Senator Landrieu. I will follow up with you and your staff 
on this, but it is a very important initiative in this Congress 
in the Democratic leadership, and we have Republican support 
hopefully as well, to move this through so that we can get our 
schools back up and running.

                        TITLE I FUNDING INCREASE

    Number two, on Title I, I am happy to see the increases. 
You know one of the successes of No Child Left Behind and the 
effort to create it initially was to refocus Title I moneys on 
the students that most needed the help, so it would become true 
to its original mission, which is to give the bulk of Federal 
funding to the school districts that needed the most help, as 
opposed to equally disbursed, because otherwise the inequities 
that naturally exist between wealthier counties and poorer 
counties or wealthier parishes and poorer parishes would never 
be closed.
    Title I is the title that tries to do that. So for every 
dollar invested in Title I, it helps us to close the dream gap, 
as I call it, between the counties that have a lot of resources 
and where the kids have a lot of big dreams, and the counties 
and parishes that have very limited dreams because the 
resources are very limited.
    So while I am pleased to see an increase, I am going to 
fight harder for even a greater increase in Title I dollars and 
the flexibility to use them well. So that when you look out in 
America, regardless of whether you are born in the poorest 
county in Louisiana or Mississippi or Arkansas or Tennessee or 
whether you are in the wealthiest county in Connecticut or New 
Jersey, you have a chance, a real chance. The only way you have 
a chance is if you go to a school where you are getting almost 
an equal amount of money being spent on you. You cannot have 
$4,000 in one case and $15,000 in another and think a child 
that is getting a $4,000 education has the same chance as a 
child getting a $15,000 education.
    When we shortchange Title I, we undercut our fundamental 
commitment to equal opportunity in this country. So while 8 
percent is better than no percent, it is not good enough, and I 
am going to be working on that with the chairman.

                          FOSTER CARE CHILDREN

    Finally, let me say--this is brought to me by my other 
advocacy on the role of the Coalition on Adoption and Foster 
Care. Mr. Chairman, we have 800,000 foster care children. By 
virtue of that definition, they have no parents because their 
parental rights are either on the way to be terminated, 
probably will be terminated. Their parents do not have custody. 
The custody--we have custody of them, the government has 
custody of them.
    So I am wondering if we should try to evaluate their 
learning as a category, foster care children. And it would not, 
I do not think, cost that much more. We are evaluating 
everyone. But if you would consider that, so we could judge the 
children that are under our care, 500,000 to 800,000 children, 
we could get reports on how they are doing as a subgroup 
relative to other children; it might be helpful and I wanted to 
suggest that.
    I will save the rest of my comments and questions for my 
second round. Thank you.
    Senator Harkin. Thank you very much, Senator Landrieu.
    Senator Murray.

                      NO CHILD LEFT BEHIND FUNDING

    Senator Murray. Well, thank you so much, Mr. Chairman, for 
holding this hearing. Obviously, funding for No Child Left 
Behind is a very hot topic at home and I share the frustration 
that you have already heard from this committee on both sides 
of the aisle. I have held a number of roundtables around my 
State over the past year in Yakima and Vancouver and Anacordas 
and had parents and students and principals and administrators 
all come and talk to us about their experiences with No Child 
Left Behind. Funding is the number one issue.
    They are working harder than ever. They are trying 
desperately to meet the goals of No Child Left Behind, and I 
think it does not do them a favor to say, well, it is only a 
small percentage of your funding. It is a huge impact on their 
funding if they do not meet the goals of this, and they are all 
working very hard to do that.
    I want to ask you what every one of them has asked me every 
place I have gone, and that is why has the President not fully 
funded No Child Left Behind?
    Secretary Spellings. Well, Senator, as I have said, funding 
for No Child Left Behind is up significantly, Title I, in 
particular, is up 59 percent.
    Senator Murray. Well, that was in the first couple of 
years, when we were in the majority. But since then we have not 
had it funded and in fact this year once again we are not 
seeing adequate funding for it, not the levels that were 
authorized with the bill. You remember--well, when we 
negotiated that bill there were two promises: We will put in 
accountability and we will put in funding. We have never met 
the funding.
    Secretary Spellings. Well, as I have said, funding is up 
and, while in the early days, the first 2 years, there were 
very, very significant increases, I think the times that were 
before us because of Hurricane Katrina, and the war, and 9/11, 
among other things, have made some very tough choices for all 
of us.
    Senator Murray. Well, the way it sounds to me is we are 
making this law try to work, but you continually do not fund 
it. How do you expect me to do my job? How do you say that to 
an educator who is working 12 hours a day, 40 kids in their 
classroom, working really hard to meet it, and they just feel 
left behind by this administration?
    Secretary Spellings. Well, I would give them that answer. I 
would also say that I think that the policy that is before us 
now, with more information, more data around kids and their 
needs, has allowed us to be a lot smarter and more precise 
about the resources we are spending.
    Senator Murray. Well, they are feeling it out there and the 
anxiety is huge. As Democrats, we are going to put together a 
budget that tries to meet that better. But it is very 
frustrating to not have that request come from you at your 
Department, where you are the top of education. Believe me, the 
people I am talking to are at the other end of it. It is very 
frustrating. You need to know, it is a very hot topic out 
there.

            FLEXIBILITY IN CHARTING ADEQUATE YEARLY PROGRESS

    The other thing I get asked all the time is with these 37 
cells and if you fail in one of those cells you are considered 
a failure. What do you tell educators who think that the AYP 
measurement should be adjusted so that one problem does not 
leave parents thinking that their entire school is failing?
    Secretary Spellings. Well, I tell them two things. One, I 
tell them about the President's proposal about perfections or 
tweaks that we need to look at as we reauthorize No Child Left 
Behind, that we might find ways through a growth model. I have 
given five States a waiver to begin to experiment with charting 
progress over time, to determine if those might be more 
accurate and more precise ways to look at progress.
    I also tell them----
    Senator Murray. So are you recommending changes in how 
those, how AYP is achieved?
    Secretary Spellings. We are suggesting that, as well as a 
status model, that this might be a State decision, actually. I 
would not necessarily mandate that every State must use a 
growth model, but that that could be a way----
    Senator Murray. So you will allow States some flexibility 
in that?
    Secretary Spellings. With respect to charting progress, 
yes, we have called for that in the administration.
    The other thing that I think is important, and we have all 
said this, a more nuanced system of accountability I think is 
certainly worthy of discussion, and that is that there are very 
many schools that are within range--you mentioned one specific 
example--versus those who are chronically underperforming for 5 
years or more, and that we have sort of a pass-fail system in 
No Child Left Behind and we could be more nuanced about it now 
that we are 5 years into implementing this law and have so much 
more data.
    But as you know, we passed the very best law we could 5 
years ago with the limited----
    Senator Murray. With the promise of funding.
    Secretary Spellings [continuing]. Amount of information.
    Senator Murray. That is where the rub has really come in, 
and I think you are going to hear that more and more.

                FUNDING FOR TEACHER QUALITY AND VOUCHERS

    Since I just have a few seconds left, you mentioned to 
Senator Landrieu the increased funding for the Teacher 
Incentive Fund to implement merit pay, as a response to her, 
and you did that by cutting $100 million from the Improving 
Teacher Quality State Grant program, which helps our teachers 
raise student achievement by professional development and 
mentoring. That is what we do not understand in your budget, is 
putting money, $300 million, into a voucher program and $100 
million into improving teacher quality and taking it out of the 
funding for other parts of this bill that will allow our 
students and our teachers and our schools to be able to meet 
the requirements of this law.
    Secretary Spellings. Well, I think to the extent that one 
half of the $200 million increase would come from Title II, I 
think there is a lot of promising practice around the country 
and that some of the most strategic and best use of those 
resources, those Title II resources, may very well be around 
paying our very best teachers for doing the most challenging 
work, and that is why this budget includes a proposal to do 
that.
    Senator Murray. Well, Mr. Chairman, I would just say you 
cannot rob Peter and try and pay Paul in the form of a voucher 
program and expect our schools to do less with what they are 
already working so hard on.
    I thank you for the hearing.
    Senator Landrieu. Mr. Chairman, could I speak to--could I 
have 30 seconds?
    Senator Harkin. I just want to respond to the voucher 
thing. Especially when the schools that the kids are going to 
with vouchers do not have to meet all the requirements of the 
public schools.
    Senator Murray. That is right.

                         CHARTER SCHOOL FUNDING

    Senator Landrieu. Can I just say, just one other follow-up. 
I agree with the vouchers, as I have been an outspoken opponent 
of them unless they are used in very targeted situations. But I 
am a supporter of public charter schools that can add some I 
think needed ``cooperatition''--I do not like to use the word 
``competition''; it is cooperatition--and entrepreneurship. But 
that level is funded as flat as well.
    I wish that we could try to stay consistent because some 
school districts are finding a lot of success in doing a more 
decentralized, more entrepreneurial, more site-based help with 
their public school system. So I hope that we can focus some 
additional effort in that direction. As you know, that is the 
direction we are taking in standing up a new New Orleans school 
system and it has been getting very good reviews from a wide 
breadth of the community.
    Secretary Spellings. Absolutely.

           PHYSICAL EDUCATION--IMPACT ON HEALTH AND LEARNING

    Senator Harkin. Madam Secretary, before you leave, I just 
want to make one other point, and I made it to you in person 
before in the past. I think there is one thing we are really 
drastically missing from all your endeavors, from ours too. I 
do not blame the administration; Congress, too. That is that in 
Leaving no Child Left Behind, we ought to think about also 
their health and Wellbeing. It is not enough just to say we are 
going to make sure these kids know how to read and understand 
math and science. But as you know, as well as I do, obesity is 
a problem in our schools. Diabetes is happening earlier and 
earlier. We are building elementary schools in America today 
without a playground. Kids are not getting any exercise.
    You might say, well, they can do it after school and stuff. 
Well, it is a different age. When I was young, of course we 
went out and we played basketball and stickball and a few other 
things. But now they all sit and play their computer games. You 
cannot change that.
    I just hope that we start a new endeavor in this country to 
really focus on physical exercise for every child in school in 
America. We have got some great examples of that at the Grundy 
Center, Iowa, where they have physical exercise for every kid. 
Even kids with disabilities have to exercise and it is a part 
of the curriculum, and it is working well. Kids study better, 
and they learn better when they are able to have that kind of 
exercise.
    It just seems to me that we are just brushing that aside. 
Of course, it does not help when you ask that we cut out the 
Carol White PEP program that was in the budget. That was cut 
out. That is what that goes for.
    But what I hear constantly from my schools on No Child Left 
Behind is when the crunch comes on funding the first person to 
go is the art teacher and the phys ed teacher, or the music 
teacher, that type thing. Those are the first ones to go.
    It seems to me that these all have an appropriate place in 
our schools, but I especially focus on physical exercise. Our 
kids are not getting it. They need to have time in school for 
exercise, for recess or whatever you want to call it, to be 
able to exercise. We ought to be thinking creatively about how 
we can encourage schools to have physical exercise programs 
that are part of their curriculum, like the school I mentioned 
in Grundy Center, Iowa, which you really ought to take a look 
at. It is phenomenal. They are getting people from all over the 
country coming to visit.
    Secretary Spellings. I am familiar with it, yes.
    Senator Harkin. Rich Shupeck. They get people from all over 
the country coming to look at what they have done there at that 
school.
    They have got good data now on what is happening with these 
kids as they go through school. Their parents are informed. But 
it just seems to me, we cannot continue to just ignore that any 
longer. I hope you will take a look at it.
    Secretary Spellings. Senator, I will. And I am happy to 
report that it does seem that we have reversed the trend and 
that more and more States are now restoring once again required 
physical education as part of the curriculum. That was, as you 
know, out of favor for a while and it is now making a comeback, 
I am happy to report.
    Senator Harkin. We should be backing them up. We should be 
backing them up.
    Secretary Spellings. I will certainly look at the Grundy 
Center data.
    Senator Harkin. They have a great program.
    Secretary Spellings. Thank you.
    Senator Harkin. Well, Madam Secretary, thank you very much.
    Secretary Spellings. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. I am appreciative of your time. You have 
been very generous with that. Thank you for being here. 
Hopefully, if there are any follow-up questions we can submit 
them for the record. Thank you, Madam Secretary.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
  achieving no child left behind goals for children with disabilities
    Question. Your budget includes a new measure for Special Education 
Grants to States based on the requirements in No Child Left Behind to 
get all students to a proficient or higher achievement level by 2014. 
However, according to your budget documents, the percentage of special 
education students at proficient or advanced levels was 27.8 percentage 
points lower in reading and 24.9 percentage points lower in math than 
for all students in 2005. How will school districts achieve the target 
identified in your budget for 2008 with the $291,000,000 cut proposed 
in the President's budget?
    Answer. The President's budget request for fiscal year 2008 
includes $10.492 billion for Special Education Grants to States, the 
same amount that was available for fiscal year 2007 under the short-
term continuing resolution that was in effect at the time the request 
was made and on which the budget was based. After the President 
transmitted the budget request to Congress, Congress increased funding 
for this program under the year-long continuing resolution, which was 
enacted on February 15, 2007.
    In the 6 years between 2001 and 2007, the appropriations for the 
Special Education Grants to States program have grown by $4.44 billion, 
or 70 percent. The large increase in Special Education Grants to States 
funding was driven in part by four unprecedented back-to-back $1 
billion increases included in the President's budget requests.
 other education programs assisting states and leas to meet nclb goals 
                     for children with disabilities
    While IDEA funds provide critical support to help States and local 
school districts meet the educational needs of children with 
disabilities, the administration's 2008 budget request for substantial 
funding increases under ESEA programs would target resources where they 
are most needed, including activities that would provide substantial 
benefits to children with disabilities.
    For example, under the reauthorized School Improvement Grants 
program, for which the administration has requested $500 million in new 
funding, States would be required to target funding on addressing the 
needs of schools and local educational agencies that have been 
identified for improvement under NCLB. We know that many schools and 
districts fail to make adequate yearly progress (AYP) because they have 
not adequately addressed the educational needs of students with 
disabilities. According to the National Assessment of Title I: Interim 
Report to Congress, during the 2003-2004 academic year, approximately 
37 percent of all schools for which AYP was calculated for students 
with disabilities missed AYP for this subgroup. The increase requested 
for the Title I Grants to Local Educational Agencies program of more 
than $1 billion would also directly benefit children with disabilities, 
both in Schoolwide programs serving all students in participating 
schools and in Targeted Assistance programs serving low-achieving 
students, including low-achieving students with disabilities.
     technical assistance for state assessment systems development
    Question. Specifically, what actions will you take to help States 
develop or redesign their assessment systems to ensure that they meet 
the requirements of NCLB and IDEA?
    Answer. On April 4, 2007, the Department announced that it will 
provide $21.1 million in grant funds for technical assistance as States 
develop new alternate assessments: $7.6 million from the Grants for 
Enhanced Assessment Instruments program and $13.5 million under the 
IDEA General Supervision Enhancement Grants program.
    In addition, States have many existing Federal resources at their 
disposal to help them develop high-quality State assessments. The $400 
million appropriated for fiscal year 2007 for formula grants under the 
State Assessments program will assist States in paying the costs of 
developing standards and assessments, and the President has requested 
another $400 million for this program for fiscal year 2008.
    States can also reserve about 1 percent of their grants under the 
Title I Grants to Local Educational Agencies program for administrative 
expenses, including paying the costs of developing assessments. The 
fiscal year 2007 appropriation for this program is approximately $12.8 
billion and the President's fiscal year 2008 request is $13.9 billion.
    With regard specifically to students with disabilities, under the 
Special Education Grants to States program appropriation for fiscal 
year 2007 and the President's request for 2008, the States may set 
aside in each year about $1 billion for a variety of State-level 
activities including the development of assessments for children with 
disabilities.
    Federal technical assistance resources are also available through 
comprehensive regional and content technical assistance centers that 
help States implement NCLB for all children. One of the content 
centers, the Center on Assessment and Accountability, is mandated to 
focus on providing assistance on the implementation of valid, 
standards-based testing and large-scale assessment programs especially 
for students with limited English proficiency and special education 
students. The Department also supports the National Technical 
Assistance Center on Assessment for Children with Disabilities, which 
specifically targets students with disabilities.
                  special education teacher shortages
    Question. Please describe how the fiscal year 2008 budget will 
address the documented special education teacher shortage.
    Answer. Recent studies suggest that there are multiple dimensions 
to the on-going special education teacher shortage. For example, 
special education teacher turnover rates, student enrollment increases 
over time, overall teacher quality, and teacher training program 
graduation rates each affect the special education teacher shortage. 
The fiscal year 2008 budget addresses these key dimensions through 
multiple IDEA programs, including Personnel Preparation and State 
Personnel Development. Within the Personnel Preparation program, for 
example, approximately 90 percent of program funds support training and 
professional development scholarship grants to Institutions of Higher 
Education (IHEs). Such awards are targeted to improve both the quality 
and quantity of training for special education teachers and related 
services personnel. This program also currently funds several projects 
that promote teacher retention through the establishment of activities 
that have been shown to reduce attrition rates among special educators 
in the first years of their teaching careers. For example, mentoring 
programs aid in the retention of beginning special educators, a group 
that studies have shown to be particularly prone to attrition.
    It is worth mentioning that, for many years, one of the primary 
goals of Federal programs that support special education training has 
been to alleviate shortages by increasing the supply of special 
education teachers. However, except in certain isolated areas such as 
awards to train leadership personnel and personnel serving children 
with low-incidence disabilities, there is little evidence that these 
investments have resulted in measurable increases to the overall supply 
of special education teachers and related services personnel. For this 
reason, the fiscal year 2008 budget addresses the special education 
teacher shortage primarily by concentrating scholarship grant support 
in those areas where States and other investors have limited capacity 
and incentive to invest (e.g., low-incidence and leadership personnel 
training programs).
           funding for vocational rehabilitation state grants
    Question. How will State Vocational Rehabilitation (VR) agencies 
meet the needs of the approximately 45,000 individuals on State VR 
agency waiting lists with the proposal in the fiscal year 2008 for 
level funding of the VR State grants program?
    Answer. The Rehabilitation Act recognizes that States may not be 
able to serve all individuals who are eligible to receive services 
under the VR program. Each State's Plan must include an assurance that 
services can be provided to all eligible individuals in their State, or 
if it is unable to provide the full range of services to all eligible 
individuals, the State Plan must show the order to be followed in 
selecting eligible individuals to be provided vocational rehabilitation 
services and assure that the individuals with the most significant 
disabilities will be selected first. Eligible individuals who are 
unable to be served are placed on a waiting list for services.
    Analyses of State agency waiting list data demonstrate that it is 
difficult to use such data in determining national needs. In fiscal 
year 2006, half of the 80 State VR agencies indicated in their State 
Plans that they would be unable to serve all eligible individuals and 
submitted their ``order of selection,'' including 62 percent or 35 of 
the 56 general and combined State VR agencies and 20 percent or 5 of 
the 24 VR agencies for the blind. However, fiscal year 2006 data 
reported by State agencies on the RSA-113 Caseload Report show that 
only 46 percent or 26 of the 56 general and combined agencies and 8 
percent or 2 of the 24 agencies for the blind had individuals on a 
waiting list at the end of fiscal year 2006. The data also show that 
the number of individuals on a waiting list varies considerably among 
State VR agencies operating under an order of selection. In fact, over 
25 percent of the 45,326 individuals on the waiting lists of general 
and combined agencies at the end of fiscal year 2006 were from one 
State agency and 4 State agencies accounted for almost three-quarters 
of the individuals on waiting lists. At the end of fiscal year 2006, 
only two agencies for the blind reported having any individuals on a 
waiting list, with a total of 7 individuals.
    In addition, VR State Grant funds are distributed by a formula 
based on the relative population and per capita income (PCI) of the 
State. Changes in the State's relative PCI (updated every 2 years) can 
have a significant effect on the amount of funds the State receives. As 
a result, when funds are allocated under the formula, there are some 
States that may receive an increase, no increase, or a decrease in 
funds compared to the previous year even with an increase in the 
program's appropriation. Since the VR needs of the State are not a 
factor in the formula, a State that can serve all eligible individuals 
may get an increase in its allocation, while a State agency operating 
under an order of selection with a waiting list may receive a decrease 
in funds.
   vocational rehabilitation state grant program performance measures
    Question. What would the impact of this proposal be on the 
program's performance measures?
    Answer. We do not expect the proposal to have an impact on the 
program's performance measures because performance on the VR indicators 
is not tied to the number of individuals served by a State VR agency. 
Rather, the performance indicators are designed to measure the outcome 
of the services provided to VR consumers who have exited the program. 
For example, key measures include the percent of State VR agencies that 
assist at least 55.8 percent of individuals who receive services to 
achieve employment outcomes and the percentage of State VR agencies for 
which at least 80 percent of the individuals achieving competitive 
employment have significant disabilities.
         rehabilitation services administration reorganization
    Question. The Department initiated a reorganization of the 
Rehabilitation Services Administration's monitoring, technical 
assistance, fiscal management and program implementation functions last 
year. The stated reason for this was that it would improve outcomes in 
all of these areas. Please explain how the new system is working 
compared to the stated goals for the reorganization.
    Answer. The Department's goal is to continue to make Rehabilitation 
Services Administration (RSA) a high performing agency that contributes 
significantly to improving the employment status of individuals with 
disabilities and enhances their ability to live as independently as 
possible. The reorganization has helped to improve accountability, 
fiscal management, monitoring, and technical assistance, and to focus 
on customer service. The reorganization has also enabled RSA to provide 
consistent policy guidance, increase the number of RSA staff who carry 
out on-site monitoring activities, and systematically integrate the VR 
and independent living programs in the review process.
    Fiscal year 2006 was a year of transition during which RSA 
developed a new, more effective monitoring protocol, undertook a number 
of innovative technical assistance initiatives, and eliminated a 
significant backlog of monitoring reports. RSA has eliminated the 
backlog of 75 fiscal year 2003, fiscal year 2004, and fiscal year 2005 
monitoring reports that accumulated over a 2-year period. The former 
RSA regional offices developed and issued 7 of the 80 section 107 
monitoring reports that were based on reviews conducted between fiscal 
year 2004 and fiscal year 2005 and had not issued 2 reports from 
reviews that were conducted in fiscal year 2003. In addition, RSA has 
reviewed and approved all 74 Corrective Action Plans (CAPs) and 10 
Program Improvement Plans (PIPs) required by the fiscal year 2003, 
fiscal year 2004, and fiscal year 2005 section 107 monitoring reports. 
Using a collaborative model, RSA and State VR agencies jointly 
developed the CAPs and PIPs, including criteria to determine if the 
corrective actions and program improvements are promoting compliance 
and improving performance. Eighteen CAPs and one PIP have been closed 
because they have been successfully implemented, and the remaining CAPs 
and PIP are making satisfactory progress towards closure.
     rehabilitation services administration's new monitoring system
    RSA's new monitoring system uses a collaborative performance-based 
model. Monitoring efforts focus on identifying the variables 
contributing to an agency's performance and working with the State 
agency to positively affect those variables. RSA, State agencies, and 
stakeholders work collaboratively to develop strategies to improve the 
quality and quantity of program outcomes and work together to 
successfully implement those strategies. RSA has achieved greater 
consistency in the monitoring process by convening regular meetings of 
staff who lead the State reviews to share information about their 
reviews, discuss policy issues that have been identified during 
reviews, and identify common technical assistance needs.
    RSA is scheduled to monitor State agencies once every 3 years and 
reviews of 23 agencies in 17 States are currently underway in fiscal 
year 2007. One or more program staff from each of the State Monitoring 
and Program Improvement Division's five functional units make up the 
review teams that carry out the monitoring process. As a result of the 
reorganization, a minimum of five RSA program staff participate on each 
review, compared to one or two, as a rule, before the reorganization. 
The reviews, which began in the fall of 2006, are to be completed in 
July 2007 and the monitoring reports are scheduled to be available to 
the agency and the public by mid-August 2007. Upon the conclusion of 
the reviews, RSA will conduct an evaluation of the new monitoring 
process. RSA has prepared a survey instrument that will be provided to 
all partners and stakeholders who have been involved in the review 
process.
 vocational rehabilitation techncial assistance and program improvement
    Question. Are State Vocational Rehabilitation systems better served 
with high-quality technical assistance, consistent on-site monitoring 
and discretionary grant competitions aligned with issues identified for 
program improvement?
    Answer. Yes. In addition to implementing the new monitoring 
process, RSA has instituted a number of innovative and effective 
technical assistance (TA) practices designed to assist States to 
improve the effectiveness and efficiency of their service delivery 
systems and produce high quality employment and independent living 
outcomes. A number of steps have been taken to increase access to 
performance data, promote the sharing of effective practices among 
State agencies, improve the quality of State plans, and provide 
technical assistance and training to better enable State Rehabilitation 
Councils (SRCs) and Independent Living Councils (ILCs) to fulfill their 
responsibilities.
    To increase access and use of performance data by stakeholders and 
partners, RSA issued Annual Review Reports (ARRs) in November 2006 on 
all 80 State VR agencies that presented information about the agencies' 
performance and published the reports on RSA's Management Information 
System (MIS) (http://rsadev.net/rsamis/). RSA has also expanded access 
to data collections in its MIS and is providing its partners and 
stakeholders with training and technical assistance on how to use the 
information system and conduct ad hoc queries to analyze data.
 vocational rehabilitation and independent living technical assistance 
                                 tools
    RSA has streamlined the format of the VR and IL State plans and 
provided technical assistance to State agencies through a series of 
national teleconferences to assist agencies to use the new format. In 
addition, RSA has provided feedback to each State agency recommending 
improvements in its State plan to improve strategic planning on the 
part of the agencies. RSA also plans to develop a model comprehensive 
State needs assessment to assist VR agencies to systematically identify 
appropriate annual goals and priorities for inclusion in their State 
Plan. Examples of some of the innovative technical assistance tools RSA 
is developing include:
  --A web-based Dissemination And Technical Assistance Resource (DATAR) 
        that will provide broad access to a wide variety of vocational 
        rehabilitation and independent living program resources 
        including a searchable database that will include all of RSA 
        policy guidance on a wide range of VR and IL topics.
  --Monthly TA ``webinars'' on a wide range of programmatic and fiscal 
        topics that will be accessible to all of RSA's stakeholders and 
        partners.
  --A web-based tutorial for new and current SRC members that will 
        enable them to thoroughly understand the obligations of the SRC 
        and assist them to fulfill those obligations.
    RSA has developed a new Fiscal Review Guide that outlines the 
process that staff follow when conducting the on-site portion of the 
fiscal review process. The on-site visit of a State agency is a part of 
RSA's on-going collaborative review of the fiscal management of the 
programs. The primary purposes of the review process are identifying 
technical assistance needs of the VR agency and providing the 
assistance needed to enable the agency to improve their performance in 
carrying out the fiscal requirements of the Rehabilitation Act and its 
implementing regulations.
    Finally, RSA is systematically using the results of its monitoring 
and State plan review processes to identify priorities for its 
discretionary grant programs. For example, RSA staff are working to 
ensure that the areas of technical assistance that are identified from 
this year's State reviews inform the priorities that are established 
for the Training program. In addition, the Strategic Performance Plan 
for the VR State Grants program that is currently under development 
will include strategies to assist RSA in implementing a more 
coordinated and targeted approach in the use of its discretionary grant 
resources to address program needs.
 rehabilitation services administration monitoring division--full-time 
                         equivalent employment
    Question. How many FTEs do you have currently in the Monitoring 
Division; how does that compare to the number of FTEs carrying out this 
function in fiscal year 2005 and fiscal year 2006? Is this Division 
fully staffed at its authorized staffing level; have you let any of 
your new hires; if so, how many and why?
    Answer. There are currently 38 FTEs in the Monitoring Division. 
Prior to the RSA reorganization, both headquarters and regional office 
employees carried out monitoring activities among other duties. As a 
result, it is difficult to accurately attribute a specific allocation 
of FTEs to this function prior to the reorganization. The original 
reorganization plan anticipated a staffing level of 42 FTEs for the 
Monitoring Division. In October of 2005, when the RSA reorganization 
went into effect, the Monitoring Division had 31 staff. Since that time 
23 persons have been hired. However, we continue to operate below our 
anticipated level of FTEs because of retirements and other staff 
changes. In addition, RSA has also released some individuals during 
their probationary period, the final phase of the examination process 
of Federal employment. Two employees were removed because they did not 
fully demonstrate their qualifications for continued employment.
            career and technical education national programs
    Question. Please provide an updated distribution of planned 
spending of funds available under the career and technical education 
national programs in fiscal year 2007.
    Answer. The Department is still developing plans for fiscal year 
2007 funds under this program; these funds are not available to the 
Department for obligation until July 1, 2007. Our preliminary plan for 
the $10 million available for Career and Technical Education National 
Activities (under the Department's Operating Plan for the fiscal year 
2007 Continuing Resolution) would provide support for the following 
efforts:
Strengthening Accountability and Data Quality
    Improving Program Performance--$800,000
Research, Analysis, and Technical Assistance
    National Center for Research and Technical Assistance--$4,500,000
Expanding Options for Achievement and Transition
    Promoting Rigorous Programs of Study--$1,000,000
    Strengthening High School/Community College Partnerships in Math 
and Science--$700,000
Program Evaluation
    National Assessment of Career and Technical Education--$2,000,000
    An Evaluation of the Impact of Academically Focused Career and 
Technical Education--$1,000,000
  career and technical education national activities and perkins act 
                            reauthorization
    Question. How will the funds provided in fiscal year 2007 and 
requested for fiscal year 2008 be used to address the requirements of 
the Perkins Act reauthorization?
    Answer. Fiscal year 2007 and fiscal year 2008 funding for Career 
and Technical Education (CTE) National Activities will support efforts 
to improve program accountability, enhance our research and knowledge 
base of strategies to improve program quality, strengthen the academic 
and technical content of CTE programs and pathways for students to 
college and careers, and assess the effectiveness of the implementation 
and impact of the requirements of the new Perkins Act. Most of the 
efforts supported with fiscal year 2007 funds represent multi-year 
activities, requiring multi-year commitments, and will need continued 
support with fiscal year 2008 funds. A more detailed description of 
categories listed above follows.
    Strengthening Accountability and Data Quality reflects continuing 
support to improve and strengthen States' accountability systems 
through small-group and individualized technical assistance, data 
quality institutes, and technological support. These efforts will focus 
on strengthening those systems in order to address the new elements 
under the new Perkins Act, including the requirement for States to have 
valid and reliable measurement approaches for the core indicators of 
performance. (It is likely that every State will have to change its 
measurement approaches for one or more of their indicators.) We 
anticipate that States will need support, in particular, to implement 
new requirements that each State link its Perkins academic attainment 
measure to its NCLB assessments, include in its system two new measures 
on secondary completion (GED attainment and high school graduation rate 
as defined under NCLB), and use, to the extent possible, industry-
recognized technical skill assessments as a measure of students' 
technical skill proficiency. We will work with the States to improve 
their definitions and measures for their core indicators and to help 
ensure that the data is valid and reliable.
    The new Perkins Act requires the establishment of a national 
research center. Our efforts in Research, Analysis, and Technical 
Assistance will be anchored by a new research, dissemination and 
technical assistance center for CTE. The Department is currently 
consulting with the States and leadership in the field on how to 
structure the competition for this Center, and expects to make the 
award by September 30.
    Fiscal year 2007 and fiscal year 2008 funds will be used to support 
efforts in Expanding Options for Achievement and Transition to help 
States and local educational institutions develop the rigorous 
``programs of study'' that the Perkins Act requires them to adopt. 
Programs of study are defined as coherent sequences of non-duplicative 
CTE courses that progress from the secondary to the postsecondary 
level, include rigorous and challenging academic content along with 
career and technical content, and lead to an industry-recognized 
credential or certificate at the postsecondary level or an associate or 
baccalaureate degree.
    Program Evaluation activities supported by fiscal year 2007 and 
fiscal year 2008 funds will focus on two efforts. First, the Perkins 
Act requires the Secretary to provide for an independent evaluation and 
assessment of the implementation of the new law and of the career and 
technical education programs under the Act. Resources will be needed 
from fiscal year 2006-2009 national activities funds to support the new 
national assessment. The Department has begun a process of identifying 
current and potentially available data sources that could help to 
inform the new assessment.
 evaluation of the impact of academically focused career and technical 
                               education
    Second, fiscal year 2007 and fiscal year 2008 funds will also 
support an evaluation of the impact of academically focused career and 
technical education. Previous Perkins Acts promoted activities that 
encouraged the integration of academic and vocational education as 
viable instructional approaches that could successfully engage students 
and help to raise the academic achievement of students in career and 
technical education courses. The current Perkins Act continues this 
thrust through an emphasis on programs of study and the alignment of 
rigorous technical content with challenging academic standards. The 
Department is currently supporting the selection and early development 
of interventions that infuse advanced math, including algebra, into 
programs such as Automotive Service Technology. Fiscal year 2007 and 
fiscal year 2008 funds would help support an impact evaluation to test 
the efficacy of these interventions in raising students' math scores 
and increasing their overall achievement. Findings from this evaluation 
will help to identify the critical elements of high-quality, integrated 
instruction and the degree to which such integrated content increases 
student achievement in career and technical education.
                    state scholars program outcomes
    Question. Also, please describe the specific outcomes achieved to 
date under the Department's State Scholars initiative.
    Answer. The State Scholars Initiative is achieving significant 
outcomes in four legislatively defined impact areas: growth, policy 
change, sustainability, and data collection.
    Growth.--The State Scholars Initiative Network has 24 members and 
continues to grow: 14 States joined in 2003-2004 (Arizona, Arkansas, 
Connecticut, Indiana, Kentucky, Maryland, Michigan, Mississippi, New 
Jersey, New Mexico, Oklahoma, Rhode Island, Tennessee, and Washington); 
10 States joined in 2006 (Louisiana, Massachusetts, Missouri, Nebraska, 
New Hampshire, South Dakota, Utah, Virginia, West Virginia, and 
Wyoming) and 13 States have expressed interest in joining the network 
in the last year (District of Columbia, Florida, Georgia, Hawaii, 
Idaho, Iowa, Kansas, Montana, Nevada, New York, Oregon, Pennsylvania, 
and Wisconsin).
    Policy Change.--States are using the State Scholars Initiative core 
course of study to support the development of statewide rigorous high 
school default curricula. Eight States have passed a statewide default 
curriculum. Six of them are State Scholars Initiative States: Arkansas, 
Indiana, Kentucky, Michigan, Oklahoma, and South Dakota. In addition, 
as a result of the State Scholars Initiative, policymakers in Kentucky, 
Michigan, and Oklahoma have enacted statewide curriculum.
    Sustainability.--The number of participating schools is rapidly 
growing as some State Scholars Initiative States moved beyond the pilot 
phase to multi-district, or in some cases, statewide implementation. 
Findings from the ``Evaluation Report for State Scholars Initiative: 
October 1, 2005-November 30, 2006,'' first-year State Scholars 
Initiative State evaluation report suggests ``[A] conservative estimate 
based on known quantities from 19 of the 24 State Scholars Initiative 
States is that there were approximately 800 schools participating in 
the network at the end of November 2006; this number is much larger 
than the estimated 200 schools participating in October 2005.'' (Page 
8). Further, by December 2006, 23 percent of the student population 
from the initial 14 States participated in the initiative.
    The Department, through the Initiative, has engaged the business 
community in high school redesign. Participation of business partners 
has increased from 367 in December 2005 to 904 in November 2006, less 
than a year later. Shelly Esque, Director of Public Affairs at Intel 
Corporation, says, ``At Intel we strongly believe that education is the 
key to a knowledge-based economy, innovation, and the future. The State 
Scholars Initiative is providing the venue for getting critical 
messages such as this out to tens of thousands of Arizona students, 
their parents, and teachers. Communities and individuals who wish to 
take advantage of the ever-increasing demand for skilled and 
professional labor are empowered by the call for more math and science 
and are supporting and celebrating students' successes.''
    Data.--The State Scholar Initiative is a national leader in 
collecting data on student course-taking that will improve our 
understanding of how to support rigor in our Nation's high schools. As 
the State Scholars Initiative State evaluation report concludes: 
``[T]he national State Scholars Initiative is at the forefront of 
encouraging States to consider student data and use that will be of 
paramount importance for informed decision making.'' (Page 26). The 
Initiative provides States and participating school districts the 
opportunity to better access and use student course-taking data to 
support rigor in high schools. A recent study (America's High School 
Graduates: Results from the 2005 NAEP High School Transcript Study, 
February 2007) highlights the need to both build an academic foundation 
of rigorous courses and to develop an understanding of competency in 
each course. The Initiative contributes importantly to this discussion 
by outlining a strong option for schools to follow, the State Scholars 
Initiative Core Course of Study. Through the Initiative and other 
national efforts, we are learning about the various policies and 
processes needed to achieve truly rigorous academic coursework.
               fiscal year 2007 research output measures
    Question. Please provide updated tables for fiscal year 2007 
program output measures that lacked information in the fiscal year 2008 
Congressional Justification.
    Answer. The funding devoted to research on a particular topic in 
any year depends on the quality of the applications received that year 
to address the topic. The quality of applications is determined by 
scientific peer review. In fiscal year 2007, the Institute of Education 
Sciences (IES) is holding two rounds of competition for research 
grants. Grants for the first round of competition have already been 
made. Grants for the second round will be made by June 30, 2007. At 
that time, IES will be happy to provide the Committee with an updated 
program output measures table, showing the amount of fiscal year 2007 
funds devoted to each research topic.
  school improvement grants program and scientifically based research
    Question. Last year, Congress provided $125,000,000 for the NCLB 
school improvement grant program begun by Congress in the fiscal year 
2007 bill based upon the increasingly urgent need for solutions for low 
performing schools not making adequate yearly progress. The fiscal year 
2008 budget requests $500,000,000 for this grant program. What specific 
plans do you have for using scientifically based research in this 
school improvement effort in fiscal year 2007 and fiscal year 2008?
    Answer. The Department is still working on plans for implementing 
the new Title I School Improvement Grants program, but a key goal will 
be to require States, in the application process, to explain how they 
will incorporate principles and practices drawn from scientifically 
based research into their support for local school improvement efforts. 
In addition, local educational agency applications for funding will be 
required to address the use of research-based school improvement 
principles.
 coordinating research agenda with nclb school improvement requirements
    Question. How will you coordinate your research agenda with State 
and local school improvements requirements in No Child Left Behind?
    Answer. The Institute of Education Sciences (IES) actively solicits 
and incorporates advice from Federal, State, and local school officials 
in the development of its research agenda. IES seeks advice through 
several formal mechanisms and has conducted two formal surveys of 
policymakers and practitioners to determine their needs for research. 
The long-term research priorities of IES were posted for public comment 
and revised in light of that comment. The National Board for Education 
Sciences solicited testimony on research needs from individuals 
representing chief State school officers, large urban districts, and 
public education advocacy organizations. That testimony and the advice 
of the Board are reflected in the IES research plans.
    Members of my staff and I meet regularly with the chair of the 
National Board for Education Sciences and the Director of IES to 
exchange views with respect to IES research and dissemination to inform 
State and local improvement efforts under NCLB. At my request, IES 
developed a new dissemination product, Practice Guides, which provides 
a better way of distilling research findings to deal with systemic 
problems in school improvement. The first Practice Guide, on English 
learners, will be published shortly. Others will follow on topics such 
as struggling adolescent readers and turning around low-performing 
schools.
    With the assistance Michael Casserly of the Council of the Great 
City Schools, IES has established the Urban Education Research Task 
Force to advise specifically on research activities to support school 
improvement efforts in the Nation's largest school districts. IES is 
also working collaboratively with the National Council of State 
Legislators to enhance the use of research findings in State 
legislative actions. IES's long-term research priorities, which drive 
all of its programs and activities, are focused on raising achievement 
in the core academic areas for children who are at-risk of 
underachievement because of poverty, race/ethnicity, limited English 
proficiency, disability, and family circumstance. Through all of these 
mechanisms, the Department ensures that the entirety of IES activities 
support school improvement.
               school improvement research funding costs
    Question. Will grants under the IES research agenda be of 
sufficient size to enable developers and researchers to do high-quality 
development and evaluation within a reasonable time period that meet 
these State and local needs?
    Answer. The IES research and dissemination appropriation is 
sufficient to support typical grant applications from developers and 
researchers. Substantially higher levels of funding would be necessary 
to initiate large-scale Manhattan Project-type efforts to solve 
systemic and connected problems in school improvement and education 
reform. For example, it could cost as much as $200 million annually 
over 3 years if the best researchers and developers in the Nation were 
funded, on a crash basis, to create a coherent mathematics curriculum 
from 1st grade through algebra, to develop assessments aligned with 
that curriculum, to generate ancillary instructional materials and 
software tools, to create and implement teacher training and 
development opportunities connected to the curriculum, and to evaluate 
the approach in several large districts. That seems like a lot, but it 
is less on an annual basis than the school budget of a single mid-sized 
city.
     research studies and year 2014 nclb goals for reading and math
    Question. The No Child Left Behind Act requires that all groups be 
proficient in reading and math by 2014. However, most of your current 
research projects using randomized field trials take up to 5 years to 
complete. Are there ways to speed up the process and conduct studies 
that address the most urgent and pressing needs at the State and local 
levels?
    Answer. Although randomized field trials have received a lot of 
attention recently, IES is not limited to randomized field trials and 
randomized field trials are not appropriate for most of IES' current 
research projects. Applicants for research funding apply to conduct 
research on a topic such as mathematics education under any one of five 
goals: Goal One--identify existing programs, practices, and policies 
that may have an impact on student outcomes and the factors that may 
mediate or moderate the effects of these programs, practices, and 
policies; Goal Two--develop programs, practices, and policies that are 
theoretically and empirically based and obtain preliminary (pilot) data 
on the relationship (association) between implementation of the 
program, practice, or policy and the intended education outcomes; Goal 
Three--establish the efficacy of fully developed programs, practices, 
or policies that either have evidence of a positive correlation between 
implementation of the intervention and education outcomes or are widely 
used but have not been rigorously evaluated; Goal Four--provide 
evidence on the effectiveness of programs, practices, and policies 
implemented at scale; and Goal Five--develop or validate data and 
measurement systems and tools.
                research goals and research methodology
    While there is not a one-to-one relationship between each goal and 
a particular research methodology, there are strong associations. Goal 
1 typically involves explorations of large databases of educational 
data with statistical tools to identify and model relationships between 
important inputs and outputs. For example, researchers might use 
longitudinal administrative data from North Carolina to examine 
relationships between teacher certification and student academic 
growth. Goal 2 supports the development of new programs, interventions, 
and practices. The typical methodology is the so-called design 
experiment, which involves cycles of testing the prototype of a product 
on users to obtain feedback to support further refinement of the 
product. Goal 5 uses psychometric methods to develop and refine 
measurement and assessment tools. Only Goals 3 and 4 involve 
determining the causal impact of programs and practices on student or 
teacher outcomes. The preferred methodology for research conducted 
under these two goals is a randomized field trial.
    In 2006 the National Center for Education Research funded 8 grants 
under Goals 3 and 4 and 24 grants under Goals 1, 2, and 5 in its 
topical research competitions on Policy, High School Reform, Cognition, 
Math & Science, Reading & Writing, and Teacher Quality. Thus, only 25 
percent of the funded grants were for projects for which the 
methodology of choice is a randomized field trial.
expediting research studies to meet state and local needs for attaining 
                            year 2014 goals
    One of the most important methodologies that expedite studies that 
address the most urgent and pressing needs at the State and local 
levels is statistical analyses of value-added (or student gain) data in 
State administrative databases. Not only does IES fund such work under 
Goal 1 in its regular research competitions, it has funded the National 
Center for Analysis of Longitudinal Data in Education Research (CALDER) 
to mine administrative data to determine how State and local policies, 
especially teacher policies, governance policies, and accountability 
policies, affect teachers (e.g., who teaches what students) and 
students (e.g., academic achievement and attainment). IES is also 
actively involved in increasing the capacity to support such work 
through its Statewide Data Systems grants to States. These grants are 
to establish or enhance State longitudinal databases that will support 
research. Finally, a major activity under the Regional Educational 
Laboratories program is so-called fast turnaround projects. These 
projects address pressing needs within the regions served by the Labs 
and are to be completed within one-year. Sixty of these projects are 
underway, as described at: http://ies.ed.gov/ncee/edlabs/projects/.
        what works clearinghouse and research-proven strategies
    Question. How will you ensure that information provided to 
educators and practitioners through the What Works Clearinghouse and 
other IES products and services is useful and helpful to educators in 
need of research-proven strategies for improving student performance?
    Answer. IES regularly seeks input from educators and practitioners 
on What Works Clearinghouse activities and other products and services. 
For example, the WWC established the What Works Network, whose members 
include educators, policymakers, researchers, technical assistance 
providers, program and product vendors, community leaders, parents, and 
journalists. Network members participate in the What Works 
Clearinghouse (WWC) meetings and forums by sharing their knowledge and 
expertise that helps shape the services and products of the WWC, 
ensuring that the processes and products of the What Works 
Clearinghouse meet the needs of the education community. The WWC also 
surveys users of the WWC website on the usefulness and usability of the 
site.
    Feedback from Network members, web-based survey respondents, and 
others has resulted in several notable improvements in WWC presentation 
of findings over the last year. For example, the WWC has substantially 
shortened its reports, added an ``improvement index'' to help users 
understand the size of the effect produced by an intervention, produced 
a graphical display of the effectiveness ratings for all interventions 
reviewed within a particular topic, (e.g., see http://
www.whatworks.ed.gov/Topic.asp?tid=13&ReturnPage=default.asp), and 
created an ``intervention finder'' to make it easier for users to 
identify interventions that meet their interests (see http://
www.whatworks.ed.gov/InterventionFinder.asp).
    One indicator of the success of the WWC is that traffic to the 
website is increasing dramatically. According to Webtrends, page views 
on the WWC website have doubled in the last year and now exceed 1 
million views per month.
 bridging the gap between practitioners, policymakers, and researchers
    Question. What role can IES play in helping bridge the gap that 
exists between practitioners, policymakers, and researchers; are there 
specific activities funded or carried out by IES that address this 
issue in fiscal year 2007 or proposed for funding in fiscal year 2008?
    Answer. IES is working with the Council of the Great City Schools 
to bring together researchers and practitioners around school reform in 
large urban districts: In addition to the Urban Education Research Task 
Force, IES has funded the Council to establish fellowships for senior 
researchers to be placed in and work directly with individual school 
districts. IES is working with the National Council of State 
Legislators to enhance the use of research findings in State 
legislative actions by hosting seminars on topics of legislative 
interest that bring together leading researchers and members of State 
legislatures that are focusing on education issues. The Regional Labs 
have a specific statutory role in bridging researchers and 
practitioners. IES is engaged in a concerted effort with its Lab 
partners to bring higher quality evidence to bear on regional education 
issues.
  commission on no child left behind report recommendation--statewide 
                              data system
    Question. The Commission on No Child Left Behind Report on No Child 
Left Behind recommended requiring all States to design and implement a 
high-quality longitudinal data system, with common data elements, 
within 4 years of the enactment of a reauthorized NCLB, and the Federal 
Government should provide formula grants to assist States in their 
development and implementation. How much progress has been made with 
funds appropriated through fiscal year 2007 in addressing the 
recommendation of the Commission report?
    Answer. In November, 2005, the Department awarded the first 
Statewide data system grants to 14 States. These States are now 
approaching the half-way point in their grants and are, overall, making 
good progress toward developing systems that will meet the needs of No 
Child Left Behind. (Detailed information on each State's activities is 
available at http://nces.ed.gov/Programs/SLDS/index.asp.) Fiscal year 
2007 funds will be used for continuation costs of those awards and for 
new awards to successful applicants to the 2007 competition, which 
closed on March 15, 2007. Even with the addition of the 2007 awards, we 
anticipate that fewer than 20 States will have received assistance to 
design and implement longitudinal data systems.
      funding requirement for commission recommendation for state 
                       longitudinal data systems
    Question. How much additional funding would be required in fiscal 
year 2008 to meet the recommendation in the Commission report?
    Answer. The Commission recommended that the Federal Government 
provide an additional $100 million a year for 4 years to help States 
develop longitudinal data systems. As explained earlier, the Department 
has made grants to 14 States and will be making additional awards in 
2007. If all the applications submitted in 2007 were found to be 
fundable by the peer reviewers, we would need as much as $180 million 
to fully fund all of the grants over their 3-year life. Our remaining 
2007 funds, after paying continuation costs for existing grants coupled 
with our 2008 request of $49.152 million, would cover only $69.917 
million of those costs.
              national assessment of educational progress
    Question. The budget requests an additional $22,500,000 to allow 
the Department to begin work on essential activities for implementing 
in 2009 State-level assessments at the 12th grade level. What 
activities would be funded by this requested increase?
    Answer. The additional $22.5 million for the National Assessment of 
Educational Progress (NAEP) in fiscal year 2008 will pay for activities 
such as developing assessment items and assessment materials, sampling 
and recruitment of schools for both the field-test in 2008 and the 
assessment in 2009, and for the field-test data collection.
                       12th grade naep initiative
    Question. What is the total cost of the 12th grade NAEP initiative 
and what is the range of options being considered for implementing this 
new policy?
    Answer. The total cost for one administration of 12th grade NAEP 
reading and math assessments at the State level will be $45 million. In 
addition to $22.5 million in 2008, we will need $22.5 million in 2009 
for administering the assessment and collecting the data in 2009, 
scoring and data preparation, analyzing the data, and reporting and 
disseminating the results. For the 12th grade reading and math 
assessments to be conducted every other year, as is the case for the 
4th and 8th grade assessments, $22.5 million will be needed every year.
              communications and outreach staffing levels
    Question. Budget documents supporting the fiscal year 2008 budget 
request indicate that staffing for communications and outreach will 
remain level at approximately 137 FTEs, and you will spend almost $17 
million on communications expenditures in fiscal year 2008, an increase 
of more than 8 percent. Please explain the need for 140 FTEs in this 
office, instead of utilizing these staff in grants monitoring and other 
program administration capacities. How do you explain an increase of 8 
percent in communications expenditures in a Department budget that 
proposes a reduction in spending? How do you evaluate whether these 
activities are effectively meeting their stated objectives?
    Answer. The Department of Education's budget request deals with two 
separate types of communications, and they will be addressed 
separately.
    For 2008, the President has requested a full-time equivalent staff 
level of 137 for the Office of Communications and Outreach, the same 
level as actual 2006 staffing and the 2007 budgeted level. The Office 
of Communications and Outreach is responsible for overall leadership 
for the Department in its communications and outreach activities that 
are designed to engage the general public as well as a wide variety of 
education, community, business, parent, academic, student, and other 
groups, including the media, intergovernmental and interagency 
organizations, and public advocacy groups in the President's and the 
Secretary's education agenda. The Office manages the President's 
Education Awards, Presidential Scholars, Blue Ribbon Schools programs, 
staffs the 1-800-USA-LEARN information number, and distributes the 
Department's Helping Your Child series of publications.
            office of communications and outreach objectives
    The Department uses a number of different measures to determine 
whether the Office's activities are meeting stated objectives. One 
example of such a measure is the waiting time on hold before a 1-800-
USA-Learn call is answered, and the length of time it takes to answer 
callers' questions.
    The Department reviews staffing throughout the organization yearly 
as budgets are developed to ensure the balance needed to best achieve 
the Department's objectives and be able to respond to its various 
constituencies. The Office of Communications and Outreach deals with 
those aspects of the Department's work that deal broadly with the 
public in general. Other offices have a narrower focus, dealing 
primarily with grantees or contractors. The Department tries to 
maintain flexibility in its staffing, and often makes small adjustments 
among its offices throughout the year as specific needs arise.
             budget request for communications object class
    The other aspect of communications within the Department is that 
shown under the communications object class in the budget request. For 
2008, the President's budget request for the communications object 
class for the Department of Education is $16,827,000, an 8 percent 
increase over the 2007 level of $15,533,000. This amount is to cover 
spending for all Department accounts for communication and utilities, 
including all local and long-distance telephone charges, BlackBerry 
usage, Government-issued cell phones, and utility charges from GSA. 
$14,417,000 of this amount, or 86 percent, belongs to the Department's 
central telecommunications account.
    The increase is due to an increase in the cost for dedicated 
circuits?the infrastructure that supports email, Internet, and voice 
communications. Costs are expected to increase because of increased 
bandwidth demand, due in part to the Department's recent migration to a 
new financial system designed to enhance financial management.
                    alcohol abuse reduction program
    Question. I understand that the individual grantees from the 
Alcohol Abuse Reduction program have all submitted final reports to the 
Department, many of which show impressive outcomes in delaying first 
use of alcohol and reducing underage drinking. Has the Department 
compiled this information into a report on the outcomes achieved by 
this program; if so, please provide it to this Committee, and if not, 
why not?
    Answer. The Alcohol Abuse Reduction program received its first 
appropriation in fiscal year 2002, at which time the Department held 
its first competition for 3-year grants under the program. Those grants 
had initial project periods from October 1, 2002 through September 30, 
2005, and most received a 1-year no-cost extension of their project 
period through September 30, 2006. Grantee final reports were not due 
until 90 days after that, or December 31, 2006. In the short time since 
then the Department has not compiled the performance information from 
those reports. For the next (2004) and subsequent cohort of grants, the 
projects are still underway and final reports are not due, at the 
earliest, until October 31, 2007.
  programs and initiatives providing drug and alcohol abuse reduction 
                               assistance
    Question. In addition, I understand that many Alcohol Abuse 
Reduction grantees' final reports also showed reductions among other 
drug use, in addition to reducing underage drinking as a result of 
their programs. Given these results, why would this program be 
recommended for elimination?
    Answer. Again, the Department is still reviewing the data recently 
received from the first cohort of grants, so we are not in any position 
to confirm that the program is producing reductions in alcohol 
consumption or in the use of other drugs.
    No funding is requested for the program because it is duplicative 
of other Safe and Drug-Free Schools and Communities (SDFSC) programs 
for which funds are requested in 2008, and because programs to reduce 
alcohol abuse in secondary schools can also be paid for with State and 
local resources.
          lea drug abuse and school safety program assistance
    For example, the 2008 request for SDFSC National Programs includes 
$59 million for grant assistance to local educational agencies (LEAs) 
to support the implementation of drug prevention or school safety 
programs that research has demonstrated to be effective in reducing 
youth drug use or violence; and for implementation and scientifically 
based evaluation of additional approaches that show promise of 
effectiveness. LEAs can use those funds to address or focus on alcohol 
prevention.
  safe schools/healthy students drug and violence prevention projects
    In addition, the 2008 request for SDFSC National Programs includes 
$79.2 million for grants to LEAs for comprehensive, community-wide 
``Safe Schools/Healthy Students'' alcohol, tobacco, and other drug and 
violence prevention projects that are coordinated with local law 
enforcement and also include mental health preventive and treatment 
services.
          proposed restructuring of sdfsc state grants program
    Also, the 2008 budget includes $100 million for a proposed 
restructured SDFSC State Grants program under which the Department 
would allocate funds by formula to SEAs, which would use the funds to 
provide school districts support for the implementation of effective 
models that, to the extent possible, reflect scientifically based 
research, for the creation of safe, healthy, and secure schools. Such 
activities could include financial assistance to enhance drug and 
violence prevention resources available in areas that serve large 
numbers of low-income children, are sparsely populated, can demonstrate 
a significant need as a result of high rates of drug and alcohol abuse 
or violence, or have other special needs so that they can develop, 
implement, and evaluate comprehensive drug, alcohol, or violence 
prevention programs and activities that are coordinated with other 
school and community-based services and programs and that foster a safe 
and drug-free learning environment that supports academic achievement. 
Our expectation is that States and communities would use these funds to 
address issues of underage drinking and alcohol abuse.
                   helping america's youth initiative
    Finally, aside from direct support for programs, under the 
leadership of the First Lady, the administration has launched Helping 
America's Youth, a nationwide effort to raise awareness about the 
challenges facing our youth, particularly at-risk boys, and to motivate 
caring adults to connect with youth in three key areas: family, school, 
and community. The Helping America's Youth effort is highlighting 
programs, including alcohol prevention programs that are effectively 
helping America's young people to make better choices that lead to 
healthier, more successful lives.
        safe and drug-free schools and communities state grants
    Question. The recommendations in the President's fiscal year 2008 
budget requests to cut the State Grants portion of the Safe and Drug 
Free Schools and Communities (SDFSC) program by $255 million would 
leave most of America's schools and K-12 students with no substance 
abuse and violence prevention and intervention services. With drug use 
on the decline, and recent incidents of violence in schools, isn't this 
the wrong time to drastically reduce the only nationwide prevention 
program that provides America's school aged youth with drug and 
violence prevention programming?
    Answer. Unfortunately the current SDFSC State Grant program is 
unable to demonstrate that it is achieving its mission. A 2002 ``PART'' 
(Program Assessment Rating Tool) review rated the current program as 
``Ineffective,'' primarily because the structure of the program is 
fundamentally flawed and the program was unable to demonstrate 
effectiveness in reducing youth alcohol and drug use and violence. A 
second PART review, conducted in 2006, rated the program as ``Results 
Not Demonstrated.'' Although the 2006 review determined that the 
outcomes of the program are undetermined (and, thus, the Results Not 
Demonstrated rating), it found that the structure of the SDFSC State 
Grant program is still flawed, spreading funding too broadly to support 
quality interventions and failing to target those schools and 
communities in greatest need of assistance. SDFSC State Grants provides 
more than half of all school districts with allocations of less than 
$10,000, amounts typically too small to mount comprehensive and 
effective drug prevention and school safety programs.
            reauthorization proposal for sdfsc state grants
    The administration is responding to these findings with a 
reauthorization proposal under which the Department would allocate 
SDFSC State Grant funds by formula to State educational agencies 
(SEAs), which would use the funds to provide school districts within 
their State support for the implementation of effective models that, to 
the extent possible, reflect scientifically based research on the 
creation of safe, healthy, and secure schools. Such activities could 
include, for example, provision of training, technical and financial 
assistance, and local capacity building to school districts to support 
their efforts to deter student drug use, and to prepare for, prevent, 
mitigate, respond to, and recover from crises arising from violent or 
traumatic events or natural disasters, and to restore the learning 
environment in the event of a crisis or emergency. The budget request 
also includes $224.2 million under SDFSC National Programs, the vast 
majority of which the Department would award competitively to local 
school districts for research-based activities designed to prevent 
student drug use and violence, or to support local emergency management 
planning efforts. These are not the only funds available to local 
educational agencies (LEAs) for drug prevention programming--State, 
local and private resources complement these Federal funds.
  safe and drug-free schools and communities--uniform management and 
                      information reporting system
    Question. Congress included data and information reporting 
requirements in the SDFSC Act specifically intended to result in the 
development and implementation of a Uniform Management Information and 
Reporting System (UMIRS) which would be the basis for (1) data-driven 
local and State decision making and evaluation under the Principles of 
Effectiveness; and (2) reporting comparable information from the States 
to the Department of Education. The Department has not yet issued 
guidance on how States are supposed to build and implement the type of 
UMIRS system intended by Congress to fix issues associated with 
demonstrating the SDFSC program's effectiveness. However, as required 
by law, States have already developed their own unique UMIRS data 
collection system. Unfortunately, because no data related to UMIRS has 
been collected by the Department, it is impossible to determine the 
level of comparability between and among State data sets. Why has this 
system not been developed or implemented at the Department; what plans 
does the Department have to implement this system? How does the 
Department intend to comply with the requirements of H.R. 1 for a 
UMIRS?
    Answer. Section 4116(a)(2)(B) of the ESEA, as amended by the No 
Child Left Behind Act of 2001, States that the Department is to collect 
data from the States, as part of their biennial report under the SDFSC 
program, related to incidence and prevalence, age of onset, perception 
of health risk, and perception of social disapproval of drug use and 
violence by youth in schools and communities. As you may know, however, 
section 9303 of the ESEA authorizes consolidated reporting to replace 
separate individual annual reports for the programs (including SDFSC 
State Grants) that the Department determines a State may include in its 
consolidated State annual report. Section 9303(a) expressly States that 
consolidated reporting is authorized ``to simplify reporting 
requirements and reduce reporting burdens.'' The consolidated report 
replaces separate reports that States, in the past, prepared and 
submitted under individual formula programs, thereby reducing State 
burden and permitting policy makers to gain a broader perspective on 
Federal programs.
            state reporting requirements under the sdfsc act
    In order to decide how to simplify reporting pertaining to SDFSC 
Act, the Department's goal was to select the smallest possible data set 
that would permit us to assess the extent to which States are meeting 
their established targets to prevent youth drug use and violence. As 
part of the consolidated report, we have thus required States to submit 
information about their self-identified performance measures and 
progress toward achieving their performance targets related to drug and 
violence prevention; data on out-of-school suspensions and expulsions 
by school type (elementary, middle/junior high, or high school) for 
alcohol or drug-related offenses, or for fighting or weapons 
possession; and narrative information concerning efforts to inform 
parents of, and include parents in, violence and drug prevention 
efforts.
    We did not ask States to report to us incidence and prevalence data 
because of the availability of data from high-quality, repeated cross-
sectional studies assessing drug use conducted by the Department of 
Health and Human Services, including the National Household Survey on 
Drug Youth and Health, the Youth Risk Behavior Surveillance System, and 
the Monitoring the Future Survey. Additionally, the Youth Risk Behavior 
Surveillance System (YRBSS) also provides data about prevalence of some 
measures of violent behavior.
    youth drug use and other high-risk behaviours surveillance data
    These surveys all provide data collected from nationally 
representative samples about youth drug use and, in the case of YRBSS, 
other high-risk behaviors associated with youth morbidity and 
mortality. We should note, however, that those data are surveillance 
data, as are the data identified in the statute. As such, they cannot 
be used to determine whether or not a cause-and-effect relationship 
exists between a specific intervention or program and student behavior. 
Instead, the data provide a snapshot in time about the behaviors of a 
nationally representative sample of students.
    States, as well, collect surveillance data about youth drug use and 
violence using a variety of instruments and collection protocols. For 
example, data are collected at different intervals and at different 
grade levels and, in some cases, using a sample that is not 
representative of all the students in the State. As a result, we are 
not able to aggregate the data in order to provide a national picture 
of progress in preventing youth drug use and violence. For these 
reasons, we elected not to impose burden on States to report these 
data, since more rigorously collected data representing students 
nationally are readily available.
    In addition, we did not ask States to report on age of onset, 
perception of health risk, and perception of social disapproval of drug 
use for reasons similar to those described regarding incidence and 
prevalence data. Data concerning perceived health risk and social 
disapproval are available from the Monitoring the Future data set, and 
the National Household Survey on Drug Use and Health collects and 
reports data about age at initiation of drug use.
         consolidated state performance report data collection
    Through the Consolidated State Performance Report (CSPR), we have 
collected data from the States using the authority provided by the 
Congress in section 9303 of the ESEA. The States submitted these data 
for the 2003-2004 school year in April 2005 and data for the 2004-2005 
school year in April 2006. States are currently submitting data to the 
Department for the 2005-2006 school year.
    For the 2003-2004 and 2004-2005 school years, we believe that we 
can verify submitted data, resolve questions about State submissions, 
develop State profiles for those elements currently included in the 
CSPR, and transmit a report to Congress later this fiscal year. We also 
plan to incorporate in these profiles information from other, related 
data collections, including those providing data about implementation 
of the Gun-Free Schools Act and the Unsafe School Choice Option 
provisions. Data collected via the CSPR are based on State-determined 
definitions of data elements, so the data available will not be 
comparable across States. Generally, the State performance report 
elements contained in section 4116 align with the UMIRS requirements 
and, in an effort to minimize the additional burden on States, while 
still providing the requested information to Congress, we plan to 
expand, beginning with the 2008-2009 school year, the number of data 
elements requested of States under the CSPR (or another mechanism) by 
capitalizing on State efforts to collect and report UMIRS data.
  development of umirs uniform data set on youth drug use and violence
    The UMIRS provisions require each State to develop a system to 
collect and publicly report identified core information about youth 
drug use and violence, as well as drug and violence prevention programs 
within the State. In order to enhance the comparability of data 
collected by the States in responding to the UMIRS requirements (and, 
in turn, increase the comparability of data submitted in response to 
the State performance report requirement), we are working with the 
States to establish a uniform data set that can be adopted by the 
States. We have met with all of the States to solicit their input about 
the uniform data set, have shared a draft data set with the States and 
collected their feedback, and will be finalizing materials and rolling 
out the data set in the next few months. The project also includes a 
variety of technical assistance activities to support States in their 
efforts to implement the uniform data set.
    As indicated previously, we plan to add additional elements to the 
CSPR that will be selected from those required by the UMIRS provisions. 
These elements will employ data definitions and collection protocols 
developed jointly with States as part of the uniform data set project. 
This approach should limit additional reporting burden for the States, 
since it will capitalize on data already being collected in response to 
UMIRS requirements. While we intend to collect as much data as possible 
via the web-based CSPR, some data elements may need to be collected in 
separate collections, using more conventional methods.
   guidance on implementation of uniform management and information 
                     reporting system requirements
    Question. Does the Department have any plans to issue guidance to 
the States on how to build and implement the kind of UMIRS system 
intended by Congress; if not, why not, and if so, please explain in 
detail, with dates, what these plans will include.
    Answer. In January, 2004, the Department issued non-regulatory 
guidance to the States concerning the SDFSC State Grants program, and 
included some guidance concerning implementation of the UMIRS 
requirements. In the fall, we plan to provide additional information to 
the States about a uniform data set that includes the elements included 
in the UMIRS provisions. At that time, we also plan to conduct a series 
of regional meetings to review and discuss the uniform data set with 
State officials who are charged with implementing the SDFSC State 
Grants program and its UMIRS requirements. The Department will also be 
working to identify technical assistance needs of States as they 
consider implementation of the uniform data set, as well as best 
practices related to data collection and the use of data to manage and 
administer youth drug and violence prevention programs.
        data collection for tracking youth drug use and violence
    Question. The core data set required in Title IV for States to 
collect and report on includes: incidence and prevalence, age of onset, 
perception of health risk and perception of social disapproval of drugs 
and violence by youth in schools and communities. It is purposefully 
identical to the data sets collected in national surveys such as 
Monitoring the Future because this data is universally accepted for 
tracking youth drug use and attitudes over time, at every level from 
local to national. The majority of States and LEAs currently collect 
data at the State and local level based upon these core data elements. 
Given that national surveys cannot demonstrate the effectiveness of a 
local program, why is the Department suggesting that the data from 
surveys such as Monitoring the Future be used as a proxy measure for 
the success of the SDFSC program?
    Answer. Surveillance data--whether collected at the national, 
State, or local level--cannot demonstrate the effectiveness of a local 
drug or violence prevention program. Those data provide a snapshot of 
the extent to which students are using illegal drugs or engaging in 
violent behavior at a single point in time, but they cannot be used to 
determine whether, or to what extent, prevention programs and 
activities affect youth behavior with regard to drug use and violence.
    We initially identified data from surveys of nationally 
representative samples of students as a proxy measure for the success 
of prevention programs and activities being implemented with SDFSC 
State Grants program funds, because the vast majority of school 
districts across the Nation receive program funds and use those funds 
to support drug and violence prevention programming. However as a 
result of the initial PART review, we concluded that adding measures 
that addressed the quality of programming decisions being made by SDFSC 
State Grants program recipients would produce a stronger basis on which 
to examine the effectiveness of the SDFSC State Grants program.
                data collection at state and lea levels
    Question. Why has no effort been made by the Department, to date, 
to collect this data that is currently and readily available from SEAs 
and LEAs?
    Answer. While virtually all States do collect information about the 
prevalence of youth drug use and violence, those data are not 
comparable across States, and some significant questions exist about 
the methods used to collect and report data at the State and local 
levels. For example, some States are not able to produce a sufficient 
respondent response rate in order to produce representative data. While 
we acknowledge that these data can be very important to policy-makers 
and program managers at the State or local level, the data cannot be 
aggregated to produce a national snapshot of the status of our efforts 
to reduce youth drug use and violent behavior. Instead, we chose to 
rely on the results of surveys conducted with nationally representative 
samples of students. These survey results have fewer methodological 
problems than similar data collected by the States and localities, and 
produce the national picture that we cannot generate by aggregating 
noncomparable data from the States. Moreover, States do not collect 
data on the quality of the programming being carried out by recipients 
of SDFSC funds.
                     state-by-state data collection
    Question. What specific plans does the Department have to collect 
this data from SEAs and LEAs and to report on this data to Congress as 
required by Title IV, Part A, section 4116?
    Answer. We are exploring mechanisms for collecting State-level 
prevalence and other related data directly from the States in the 
future. Because the data will not be comparable, we will continue to 
report the data on a State-by-State basis, rather than as aggregated 
information.
    Currently, the Department's activities designed to improve data 
collection efforts and reduce duplication and overlap among data 
collections are focused on data that are available electronically from 
State or local level administrative records. The burden associated with 
collecting and reporting prevalence and other related data specific to 
individual LEAs is immense, and is not justified, especially since 
UMIRS does not require school-building or even LEA-level prevalence 
data.
                21st century community learning centers
    Question. The Department's fiscal year 2008 congressional 
justification estimates the number of students served under this 
program as 1,282,000 in fiscal year 2006, fiscal year 2007, and fiscal 
year 2008. How was this figure derived and what confidence do you have 
in the number? Are 21st CCLC programs subject to inflationary cost 
increases, and if so, and the funding remains constant between fiscal 
year 2006 and fiscal year 2008, shouldn't the number of students served 
show a decline?
    Answer. Data on participation in the 21st Century Community 
Learning Centers (CCLC) program are based on grantee records and 
reporting. The estimates for fiscal years 2006 through 2008 were 
generated based on the actual participation data from fiscal year 2005, 
the last year for which the Department had grantee attendance 
information at the time that the budget documents were printed. The 
figures are the best estimates available on the number of children 
participating in the 21st Century Community Learning Centers program 
across the country. The data currently available to the Department do 
not indicate that a slight reduction in constant-dollar funding results 
in fewer children being served.
                         non-competitive awards
    Question. For fiscal year 2006, please identify for each Department 
program the number of grants, contracts or other funding arrangements 
that were made through means other than a competitive process and the 
associated dollar value of those awards. For these noncompetitive 
awards, please provide the justification supporting the decision not to 
utilize a competitive process.
                      non-competitive grant awards
    Answer. The Department made non-competitive grant awards to all 
earmarked entities identified in program authorization statutes or in 
the 2006 appropriations. It did not make additional non-competitive 
awards in 2006.
    The Department did award nine new unsolicited awards in fiscal year 
2006. However, unsolicited proposals are reviewed by external peer 
reviewers following established procedures. Six of the nine awards were 
made by the Institute of Education Sciences, which announces 
unsolicited grant opportunities on its website at http://ies.ed.gov/
funding/. The IES unsolicited grant program allows investigators in the 
field to propose projects of their choosing, as opposed to applying to 
competitions on announced topics. The remaining three awards were made 
by other offices, and went to the National Institute of Building 
Sciences to operate the National Clearinghouse for Educational 
Facilities, Portland State University to support additional data 
collection and analysis for the Longitudinal Study of Adult Learning, 
and Reach Out and Read to support its early literacy program.
                    non-competitive contract awards
    In fiscal year 2006, $25,205,836 or 1.79 percent of the 
Department's contract obligations, which totaled approximately $1.407 
billion for both new contract awards and modifications to existing 
contracts, were made using other than full and open competition. Since 
2000, there has not been much change in the Department's reliance on 
other than full and open competition.
    The Department has identified five separate reasons that contracts 
were not competed in fiscal year 2006. The following chart provides a 
list of contracts not fully and openly competed for fiscal year 2006, 
separated by ``reason not competed.''

                                 FISCAL YEAR 2006 NON-COMPETITIVE ACTION SUMMARY
----------------------------------------------------------------------------------------------------------------
                                                                                                      Percent of
                        Reason not competed                             No. of          Amount          total
                                                                       actions                         dollars
----------------------------------------------------------------------------------------------------------------
UNIQUE SOURCE......................................................            2        $750,000.00         2.98
FOLLOW-ON DELIVERY ORDER FOLLOWING COMPETITIVE INITIAL ORDER.......            8       6,138,284.85        24.35
AUTHORIZED BY STATUTE--SBA 8(a) PROGRAM............................           15       5,708,683.63        22.65
ONLY ONE SOURCE--NOT STATE EDUCATION AGENCY........................           17       5,824,579.70        23.11
ONLY ONE SOURCE--STATE EDUCATION AGENCY............................           52       6,784,288.00        26.92
                                                                    --------------------------------------------
      TOTAL........................................................           94      25,205,836.18         1.79
----------------------------------------------------------------------------------------------------------------

    The Department uses other than full and open competition when a 
unique source exists.

                   REASON NOT COMPETED--UNIQUE SOURCE
------------------------------------------------------------------------
                                                        Fiscal year 2006
Contract No.                Vendor name                   obligations
------------------------------------------------------------------------
  ED06CO0105 NATIONAL ACADEMY OF SCIENCES                  $250,000.00
  ED05CO0039 MASSACHUSETTS INSTITUTE OF TECHNOLOGY          500,000.00
              (3594)
                                                    --------------------
                   Total Fiscal Year 2006                    50,000.00
                    Obligations for Unique Source
------------------------------------------------------------------------

    The Department uses other than full and open competition when 
awarding follow-on delivery orders under an initial contract that was 
competed.

   REASON NOT COMPETED--FOLLOW-ON DELIVERY ORDER FOLLOWING COMPETITIVE
                              INITIAL AWARD
------------------------------------------------------------------------
                                                        Fiscal year 2006
  Contract No.                Vendor name                 obligations
------------------------------------------------------------------------
ED04CO0013/0015 GRANT THORNTON LLP                       $2,945,967.85
ED04CO0130/0011 NCS PEARSON INCORPORATED                    647,587.00
     ED06DO0255 MICROSTRATEGY INCORPORATED                  314,856.00
     ED05PO0506 ACQUISITION SOLUTIONS INC.                  325,000.00
     ED06DO0196 GARTNER, INC.                               124,650.00
ED04GS0004/0006 LOW + ASSOCIATES INCORPORATED               500,126.00
ED05DO0099/0004 SPECTRUM SYSTEMS INCORPORATED               281,882.00
ED06CO0107/0002 PEROT SYSTEMS GOVERNMENT SERVICES           998,216.00
                 INCORPORATED (8756)
                                                    --------------------

                    Total fiscal year 2006                6,138,284.85
                 Obligations for Follow-On Delivery
                 Orders
------------------------------------------------------------------------

    The Department uses other than full and open competition when it is 
authorized by statute, for example, under section 8(a) of the Small 
Business Act. One purpose of the Small Business Act is to encourage and 
develop small businesses by insuring that a fair proportion of the 
total purchases and contracts or subcontracts for property and services 
for the Government be placed with small business enterprises.

      REASON NOT COMPETED--AUTHORIZED BY STATUTE--SBA 8(A) PROGRAM
------------------------------------------------------------------------
                                                        Fiscal year 2006
  Contract No.                Vendor name                 obligations
------------------------------------------------------------------------
     ED04CO0011 ONPOINT CONSULTING INCORPORATED            $291,000.00
ED04CO0134/0005 ENDEAVOR SYSTEMS INCORPORATED               960,000.00
ED04CO0134/0010 ENDEAVOR SYSTEMS INCORPORATED               250,000.00
ED04CO0134/0012 ENDEAVOR SYSTEMS INCORPORATED               215,581.68
     ED04CO0135 WINDWALKER CORPORATION                      435,847.71
ED05CO0002/0006 2020 COMPANY LIMITED LIABILITY              296,313.00
                 COMPANY
     ED05CO0059 METRO MAIL SERVICES INCORPORATED            676,290.00
     ED05CO0064 GRANATO COUNSELING SERVICES                 300,000.00
                 INCORPORATED
     ED05DO0078 VISIONARY INTEGRATION PROFESSIONALS         583,915.00
                 INCORPORATED
     ED06CO0013 RCW COMMUNICATION DESIGN                    118,523.24
                 INCORPORATED
ED06CO0089/0001 I T PROFESSIONALS INCORPORATED              419,300.00
     ED06CO0111 COMMAND DECISIONS SYSTEMS AND               338,909.00
                 SOLUTIONS INCORPORATED
     ED06CO0115 COMMAND DECISIONS SYSTEMS AND               173,012.00
                 SOLUTIONS INCORPORATED
     ED06CO0127 KAUFFMAN AND ASSOCIATES                     149,992.00
                 INCORPORATED (0375)
     ED06CO0037 KEVIN J SHIN                                500,000.00
                                                    --------------------

                      Total Fiscal Year 2006              5,708,683.63
                       Obligations for Authorized
                       by Statute--SBA 8(a) Program
------------------------------------------------------------------------

    The Department uses other than full and open competition when only 
one source will meet the Department's requirement, for example, for 
support and maintenance of specific software from the software 
developer or for parking in a building occupied by Department 
employees.

              REASON NOT COMPETED--ONLY ONE SOURCE (OTHER)
------------------------------------------------------------------------
                                                        Fiscal year 2006
Contract No.                Vendor name                   obligations
------------------------------------------------------------------------
  ED02CO0025 STICHTING IEA SECRETARIAAT NEDERLAND        $1,000,000.00
  ED04CO0145 STICHTING IEA SECRETARIAAT NEDERLAND           500,313.00
  ED06CO0101 UCF HOTEL VENTURE                              250,000.00
  ED06CO0103 PARBALL CORPORATION                            400,000.00
  ED06CO0112 HYATT CORPORATION (DEL) (9660)                 310,000.00
  ED06CO0038 NATIONAL COMMITTEE ON UNITED STATES            270,352.00
              CHINA RELATIONS
  ED06PO0954 GRETCH KEN INDUSTRIES INCORPORATED             205,773.56
  ED02CO0004 830 FIRST STREET LLC                           202,403.97
  ED04CO0163 JBG/POTOMAC SOUTH LIMITED LIABILITY            345,607.44
              COMPANY
  ED06CO0033 BERBEE INFORMATION NETWORKS                    135,000.00
              CORPORATION
  ED06CO0113 C S AND M ASSOCIATES                           270,000.00
  ED06DO0241 CENTECH GROUP INC                              286,850.00
  ED06PO0775 INTERNATIONAL BUSINESS MACHINES                208,444.25
              CORPORATION
  ED06PO0778 INTERNATIONAL BUSINESS MACHINES                388,192.00
              CORPORATION
  ED02PO1086 DTI ASSOCIATES INC                             219,888.00
  ED04PO0491 SILENT PARTNER SECURITY                        499,308.00
  ED06PO0339 HEWLETT PACKARD COMPANY (3067)                 332,447.48
                                                    --------------------
                   Total Fiscal Year 2006                 5,824,579.70
                    Obligations for Only One
                    Source--Other
------------------------------------------------------------------------

    Finally, the majority of the Department's sole source contracts are 
to State Education Agencies in support of Public Law 107-279, section 
157 for participation in the National Cooperative Education Statistics 
System. The purpose of the system is to produce and maintain comparable 
and uniform educational information and data. State Education Agencies 
are the only sources capable of obtaining the necessary information 
from local school districts. The contract amounts include Assessment 
funds to pay for State education agency activities in support of the 
administration of the National Assessment of Educational Progress 
(NAEP).

      REASON NOT COMPETED--ONLY ONE SOURCE: STATE EDUCATION AGENCY
------------------------------------------------------------------------
                                                        Fiscal year 2006
Contract No.                Vendor name                   obligations
------------------------------------------------------------------------
  ED03CO0030 EDUCATION ARIZONA DEPT OF                     $139,445.00
  ED03CO0035 COLORADO DEPARTMENT OF EDUCATION               132,608.00
  ED03CO0037 EDUCATION CONNECTICUT STATE DEPARTMENT         166,265.00
              OF
  ED03CO0038 EDUCATION, DELAWARE DEPARTMENT OF              162,490.00
  ED03CO0039 EDUCATION, IDAHO STATE DEPARTMENT OF           113,978.00
  ED03CO0040 EDUCATION KANSAS DEPT OF                       177,714.00
  ED03CO0041 ADMINISTRATION, LOUISIANA DIVISION OF           99,535.00
  ED03CO0042 DEPARTMENT OF EDUCATION MASSACHUSETTS          131,851.00
  ED03CO0043 EDUCATION MINNESOTA DEPARTMENT OF              129,917.00
  ED03CO0044 EDUCATION MISSISSIPPI STATE DEPARTMENT         101,649.00
              OF
  ED03CO0045 PUBLIC INSTRUCTION MONTANA OFFICE OF           107,337.00
  ED03CO0046 EDUCATION NEBRASKA DEPARTMENT OF               104,070.00
  ED03CO0047 EDUCATION NEW JERSEY DEPARTMENT OF             152,792.00
  ED03CO0050 NORTH DAKOTA DEPARTMENT OF PUBLIC               88,226.00
              INSTRUCTION
  ED03CO0051 EDUCATION (265) OKLAHOMA STATE                 207,498.00
              DEPARTMENT OF
  ED03CO0052 RHODE ISLAND DEPT OF ELEMENTARY AND            206,424.00
              SECONDARY EDUCATION
  ED03CO0053 SOUTH CAROLINA STATE DEPARTMENT OF             107,413.00
              EDUCATION
  ED03CO0055 UTAH STATE OFFICE OF EDUCATION                 196,248.00
  ED03CO0056 EDUCATION VIRGINIA DEPARTMENT OF               127,574.00
  ED03CO0057 PUBLIC INSTRUCTION WASHINGTON                  134,384.00
              SUPERINTENDENT OF (1112)
  ED03CO0058 WEST VIRGINIA DEPARTMENT OF EDUCATION          122,028.00
  ED03CO0059 PUBLIC INSTRUCTION WISCONSIN DEPT OF           256,096.00
  ED03CO0060 WYOMING DEPARTMENT OF EDUCATION                128,621.00
  ED03CO0061 EDUCATION ALABAMA DEPT OF                      136,209.00
  ED03CO0062 EDUCATION AND EARLY DEVELOPMENT ALASKA         119,595.00
              DEPARTMENT OF
  ED03CO0063 EDUCATION, ARKANSAS DEPARTMENT OF               95,446.00
  ED03CO0064 EDUCATION, GEORGIA DEPARTMENT OF               145,141.00
  ED03CO0065 EDUCATION, HAWAII DEPT OF                      168,147.00
  ED03CO0066 ELEMENTARY AND SECONDARY EDUCATION             105,995.00
              MISSOURI DEPARTMENT OF
  ED03CO0067 EDUCATION NEW HAMPSHIRE DEPARTMENT OF          125,413.00
  ED03CO0068 NORTH CAROLINA DEPARTMENT OF PUBLIC            104,903.00
              INSTRUCTION
  ED03CO0069 PENNSYLVANIA STATE DEPT OF EDUCATION           132,752.00
  ED03CO0070 EDUCATION, ILLINOIS STATE BOARD OF             155,410.00
  ED03CO0071 KENTUCKY DEPARTMENT OF EDUCATION               121,146.00
              (0439)
  ED03CO0072 ADMINISTRATIVE AND FINANCIAL SERVICES          104,173.00
              MAINE DEPARTMENT OF
  ED03CO0073 MARYLAND DEPARTMENT OF EDUCATION                98,989.00
  ED03CO0074 EDUCATION MICHIGAN DEPARTMENT OF               146,653.00
  ED03CO0075 EDUCATION NEVADA DEPARTMENT OF                 129,656.00
  ED03CO0076 EDUCATION NEW MEXICO DEPARTMENT OF             125,023.00
  ED03CO0077 DEPARTMENT OF EDUCATION OHIO (4820)            141,522.00
  ED03CO0078 EDUCATION OREGON DEPARTMENT OF                 112,600.00
  ED03CO0079 SOUTH DAKOTA DEPARTMENT OF EDUCATION            93,122.00
  ED03CO0080 TEXAS EDUCATION AGENCY                         130,583.00
  ED03CO0084 DEPT OF EDUCATION CALIFORNIA (8051)            137,626.00
  ED03CO0085 DISTRICT OF COLUMBIA BOARD OF                  118,050.00
              EDUCATION
  ED03CO0086 EDUCATION FLORIDA DEPARTMENT OF (3914)         115,026.00
  ED03CO0087 EDUCATION, INDIANA DEPARTMENT OF                80,096.00
  ED03CO0088 SECRETARY OF STATE IOWA (4571)                 204,809.00
  ED03CO0089 DEPARTMENT OF EDUCATION OF PUERTO RICO          87,803.00
  ED03CO0091 EDUCATION TENNESSEE DEPARTMENT OF              108,313.00
  ED03CO0092 EDUCATION VERMONT DEPT OF                      134,924.00
  ED03CO0097 NEW YORK STATE DEPARTMENT OF EDUCATION          11,000.00
                                                    --------------------
                   Total Fiscal Year 2006                 6,784,288.00
                    Obligations for Only One
                    Source--State Education Agency
------------------------------------------------------------------------

                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
                       native hawaiian education
    Question. Your proposed budget for 2008 eliminates funding for the 
Native Hawaiian Education Act. In arriving at this conclusion, what is 
your view of statistics which indicate that Native Hawaiian students: 
(1) lag behind statewide averages by approximately 10 percentile points 
in reading and math; (2) are more likely to be referred to special 
education classes at a rate of one in five compared with a referral 
rate of 1 in 10 for non-Hawaiians; (3) are the least likely to graduate 
from high school than any other ethnic group; (4) enroll in college at 
substantially reduced rates than other ethnic groups in Hawaii; (5) are 
underrepresented in the University of Hawaii college system; (6) are 
least likely of any ethnic group to graduate in 6 years while enrolled 
at the University of Hawaii; and (7) are statistically underrepresented 
in professional fields requiring advanced degrees? Furthermore, how 
does the Department of Education plan to address the disparities 
illustrated by these statistics?
    Answer. The administration recognizes that significant achievement 
gaps exist between Native Hawaiian and non-Hawaiian students and 
recognizes the importance of ensuring that Native Hawaiian students 
receive appropriate educational services to enable them to achieve high 
academic standards. However, the President's fiscal year 2008 budget is 
consistent with the administration's policy of eliminating narrow 
categorical programs in order to provide significant increases for more 
flexible State grant programs that support comprehensive reforms to 
improve educational opportunities for all students, including Native 
Hawaiians.
 program increases supporting educational and cultural needs of native 
                           hawaiian students
    School districts that seek to implement programs and services 
tailored to the educational and cultural needs of Native Hawaiian 
students will be able to use funds provided under other programs, such 
as Title I Grants to Local Educational Agencies, 21st Century Community 
Learning Centers, Title II Improving Teacher Quality State Grants, and 
Special Education State Grants.
    The fiscal year 2008 budget would increase funding for Title I 
Grants to Local Educational Agencies by approximately $1 billion, to 
$13.9 billion; much of this increase directed toward high schools that 
serve large numbers of low-income students. The budget would also 
provide $500 million in new funding for Title I School Improvement 
Grants. These grants would provide additional resources to States to 
build their capacity to provide support to schools identified for 
improvement. We believe these programs will have a significant impact 
on Native Hawaiian students, since many of those students attend 
schools that receive Title I funds. Native Hawaiian students will also 
benefit from support provided through the Special Education State 
Grants program because more than one-third of Native Hawaiian students 
who attend public school in Hawaii receive special education services.
    In addition to the recommended increase for Title I, the budget 
would provide significant increases for several K-12 education programs 
that are designed to help all students meet challenging State standards 
in reading and mathematics. For example, the fiscal year 2008 budget 
request includes $100 million (a $68 million increase) for the Striving 
Readers program, to make it possible for many more middle school 
students who read below grade level to receive interventions designed 
to pull them up to grade. The budget would also provide $250 million to 
initiate the Math Now program, which would support scientifically based 
mathematics instruction in elementary and middle schools, particularly 
those with concentrations of students from low-income families. 
Additionally, the President' 2008 budget requests a $90 million 
increase for the Advanced Placement program to provide a new emphasis 
on training teachers and expanding opportunities in for students, in 
high-poverty schools, to enroll in Advanced Placement (AP) and 
International Baccalaureate (IB) courses in mathematics, science, and 
critical foreign languages.
                   higher education program requests
    The administration is also proposing substantial investments in the 
area of higher education to ensure that a college education remains 
accessible and affordable to all students, including Native Hawaiians. 
The budget requests more than $828 million for the Federal TRIO 
Programs and more than $300 million for the Gaining Early Awareness and 
Readiness for Undergraduate Education Programs (GEAR UP) to provide 
educational outreach and support services to help low-income students 
prepare for and pursue postsecondary education. The administration is 
also targeting limited Federal resources to students most affected by 
increases in college tuition by requesting over $90 billion in new 
grants, loans, and work-study assistance to help millions of student 
and their families pay for college. The budget would provide more than 
$15 billion for the Pell Grant program in fiscal year 2008 and would 
raise the maximum Federal Pell Grant to $4,600 in 2008 and over the 
next 5 years would raise the maximum to $5,400 in 2012. By increasing 
the maximum Pell Grant award, we would ensure that low- and middle-
income students--including part- time and older students--have the 
resources to pay all tuition and fees at an average public community or 
technical college, and 75 percent of the tuition at an average public 
4-year institution. This concentrated increase in Pell Grants, which is 
considered the most effective, broadly available Federal aid program, 
will benefit significant numbers of Native Hawaiian students.
    Further, the fiscal year 2008 budget provides approximately $1.2 
billion for the Academic Competitiveness (ACG) and National SMART 
Grants programs. The ACG program, enacted in 2006, provides need-based 
grants to low-income first- and second-year undergraduates who complete 
a rigorous high school curriculum, while, the National SMART Grants 
program provides need-based awards to low-income, high-achieving 
college juniors and seniors majoring in math, science, technology, 
engineering, and critical foreign languages.
          flexibility to address educational needs of students
    The administration believes that by concentrating our Federal 
education dollars into priority programs, we are providing States and 
school districts with both the needed resources and the flexibility to 
direct those resources to where they are most needed in meeting the 
educational needs of their students.
         native hawaiian education program performance measures
    Question. The Native Hawaiian Education Act intends to provide 
culturally appropriate education to Native Hawaiian students through 
the provision of programs aligned with the purpose and intent of the 
Native Hawaiian Education Act. What are the indicators used by the U.S. 
Department of Education to measure those programs funded under the 
Native Hawaiian Education Act?
    Answer. The Department has established three performance measures 
for the Native Hawaiian Education program authorized under Title VII of 
the ESEA. The measures are:
  --The percentage of teachers involved with professional development 
        activities that address the unique educational needs of program 
        participants.
  --The percentage of Native Hawaiian children participating in early 
        education programs who improve on measures of school readiness 
        and literacy.
  --The percentage of students participating in the program who meet or 
        exceed proficiency standards in mathematics, science, or 
        reading.
    The Department collects data on these measures through the annual 
performance reports submitted by grantees.
    performance indicator development for native hawaiian education 
                                programs
    Question. How does the U.S. Department of Education assure that 
measurement indicators selected are consistent with the purposes for 
which the Native Hawaiian Education Act was created?
    Answer. The Department based its development of the performance 
indicators for the Native Hawaiian Education program on an analysis of 
the program's purpose, priorities, and authorized activities and of how 
those align with the overall priorities and purpose of the No Child 
Left Behind Act (NCLB).
    The specific areas addressed by the performance indicators were 
selected based on a review of grantee activities and goals to determine 
common features. The review showed that grantees were implementing 
projects concentrated in a number of topic areas, including early 
childhood, teacher professional development, and math and science 
education. Drawing on that information, the Department developed three 
indicators (described above) to track program performance on activities 
authorized under the statute.
           native hawaiian education program performance data
    Question. What does the aggregate data show about the impact of 
this program in meeting the needs for which the Native Hawaiian 
Education Act was created?
    Answer. Recent performance data, self-reported by grantees, show 
slight improvement in two key areas--professional development and 
school readiness. However, data on the percentage of students 
participating in Native Hawaiian Education programs who meet or exceed 
proficiency in mathematics, science, or reading show a decline. With 
limited data pooled across a small number of projects, these changes do 
not imply causality.
    These annual program performance data are available on the 
Department's website under the Education for Native Hawaiians program 
webpage [http://www.ed.gov/programs/nathawaiian/performance.html].
              impact of native hawaiian education programs
    Question. Specifically, based on your administration of this 
competitive Native Hawaiian Education Act grant program and your 
receipt of the data and reports generated by grantees under the Act, 
what is your assessment of the impact of these Native Hawaiian 
education grants on an annual and an aggregate basis:
  --In advancing and promoting the use of the Hawaiian language in 
        instruction?
  --In increasing early education opportunities for Native Hawaiian 
        children?
  --In increasing fluency and proficiency in math, science, and reading 
        for Native Hawaiian children?
  --In increasing employment by Native Hawaiians in fields and 
        disciplines where Native Hawaiians are underrepresented?
  --In reducing those education factors causing a disproportionate 
        amount of Native Hawaiian students to be deemed to be ``at 
        risk''?
  --In reducing the number of Native Hawaiian students who do not 
        advance to the next grade level, who drop out of school, or who 
        do not graduate from high school on a timely basis?
  --In increasing the creation, availability, and use of curriculum 
        aligned to the culture of Native Hawaiian students and in 
        training teachers to use and understand this curriculum?
  --In increasing the self-esteem of Native Hawaiian students and 
        stemming cultural loss?
           native hawaiian education program performance data
    Answer. The Native Hawaiian Education Act (NHEA) places 
responsibility for formally collecting and assessing data on projects 
serving Native Hawaiians, including those funded under this program, 
with the Native Hawaiian Education Council (NHEA, section 7204). The 
Department works closely with the Council to provide annual grantee 
reports and performance information. Since the Council is responsible, 
by statute, for all data collection and project evaluation, the 
Department has not conducted a formal evaluation of the Education for 
Native Hawaiians program. However, the Department has posted program 
performance plans and data on its website under the Education for 
Native Hawaiians program webpage[http://www.ed.gov/programs/
nathawaiian/performance.html].
    With approximately 52 grants, the program supports a broad range of 
activities that address the educational and training needs of small-
targeted populations on various islands and in schools. The diversity 
and small scale of the projects makes it extremely difficult to assess 
the program's impact in specific areas, as you have requested. At this 
time, neither the Department nor the Council has conducted this type of 
detailed program analysis or computed a formal scientific evaluation of 
the program.
                 native hawaiian program grants process
    Question. How does the Department assure that those grants selected 
for funding are grants, which best meet the needs of the Native 
Hawaiian community? Do you engage in a community process to understand 
which grants are best aligned to meet the needs of the Native Hawaiian 
community? Please describe this process and the work you have 
accomplished in this regard.
    Answer. The Education for Native Hawaiians program uses a 
competitive process, as required by the Department's discretionary 
grant policy, to select grant recipients. This process involves an 
independent panel of experts in Native Hawaiian issues, who review, 
discuss, and score applications depending on how well the proposals 
address the published selection criteria and the program's statutory 
purpose. Based on these written reviews and scores, the project office 
ranks the applications followed by a final review to ensure that the 
projects selected for funding are those address the selection criteria 
and that will provide needed services for Native Hawaiian students, as 
authorized in the statute.
    The Department's program office engages with the Native Hawaiian 
community through its ongoing work with the Native Hawaiian Education 
Council. Together, the Department and the Council identify communities 
with high need and try to engage potential applicants that have not 
been applying for funds under the Education for Native Hawaiians 
program. The Department has also conducted multiple application 
workshops in Hawaii, where program staff have met with organizations to 
increase their awareness of the program, its purpose, and the broadened 
eligibility criteria under NCLB as well as provide guidance on the 
application process. As a result of these workshops and the direct 
engagement with the Hawaiian community, the Department has received 
increased numbers of applications from organizations that had not 
previously applied for program funds.
    Question. How is it that you assure that those grants selected by 
the U.S. Department of Education for funding are grants which do not 
duplicate existing funding available or present in the Native Hawaiian 
community? Please describe this process and the work you have 
accomplished in this regard.
    Answer. The Native Hawaiian Education Act (NHEA) does not prohibit 
grantees from developing projects that have similar goals or serve 
similar populations as existing projects. The NHEA does contain, 
however, a supplement-not-supplant provision that prohibits the use of 
Federal funds in place of existing local or State funds. Under the 
current statute, a grantee is allowed to use Federal grant funds to 
expand existing programs, by adding participants or services, so long 
as the funding streams are maintained as separate and distinct. The 
program office monitors all funded projects on a regular basis to 
ensure that grantees are following Federal regulations and guidelines 
and also meeting the objectives proposed in the project application.
       reporting the impact of native hawaiian education programs
    Question. Have you reported the aggregate data you have collected 
about the impact of the Native Hawaiian Education Act grant funded 
program to the Native Hawaiian community?
    Answer. As discussed previously, the Native Hawaiian Education 
Council is responsible for collecting, assessing, and reporting data on 
projects serving Native Hawaiians, including those funded under this 
program. The Department works closely with the Council to provide 
information about applicants and funded projects, including annual 
grantee reports and related performance information. The Council is 
also required to provide Congress with an assessment of federally 
funded education projects that serve Native Hawaiians.
              promising native hawaiian education programs
    Question. Based on your analysis, what programs are most promising 
and what programs are least promising? What is your understanding of 
the ``best practices'' gleaned from your review of all of these past 
funded grants under the Native Hawaiian Education Act? Please indicate 
the work you have performed, including the steps you have taken to 
inform and educate the broader community about those things you have 
learned from funding and evaluating these programs.
    Answer. The Department's program office has conducted an informal 
review of the annual grantee progress reports and found that a majority 
of grantees are successful in developing, assisting, or expanding 
programs that provide supplemental services and address the educational 
needs of targeted Native Hawaiian populations on the various islands. 
Because these grants support small programs that address a diverse 
range of educational issues, it is difficult to assess overall program 
impact.
    Several programs, however, have developed noteworthy programs that 
serve diverse segments of the Hawaiian community, including the 
University of Hawaii's projects for Hawaiian Language Teaching and 
Curriculum, the Aha Punana Leo project for support of Hawaiian Medium 
Teachers, and the Partners in Development projects that address issues 
of early childhood, school readiness, and parental care by 
grandparents. In addition, the Pacific American Foundation, through its 
teacher training programs, has developed a cultural curriculum that the 
Hawaii Department of Education has adopted. The dissemination of 
information on these innovative projects is accomplished through the 
Native Hawaiian Education Council and its work with various island 
councils and local organizations.
    Further, the Council's numerous reports and recommendations provide 
guidance on the effective use of educational resources and highlight 
programs that hold promise for advancing Native Hawaiian education.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
                 full funding for no child left behind
    Question. The lack of adequate funding for NCLB affects every 
school district in Wisconsin. In Sun Prairie, two Title I math teachers 
were let go. In Waukesha, they have had to cut back on writing classes. 
And in Green Bay, support for art and music education has fallen. The 
Sun Prairie School District receives 6 percent of their budget from the 
Federal Government; however, they spend 30 percent of their budget on 
meeting NCLB mandates. Sun Prairie is not alone. Underfunding NCLB 
forces our local taxpayers and school districts to make up the 
difference. Taxpayers feel pressures to raise local property taxes, 
districts are forced to cut vital programs, and students are left 
behind. How would you respond to Sun Prairie and the other districts 
faced with this inequity?
    Answer. No Child Left Behind was never intended to serve as a 
primary funding vehicle for education, but to leverage more effective 
use of the more than 90 percent of funds for elementary and secondary 
education that are provided by State and local governments. As you 
know, President Bush and the Congress provided significant increases in 
funding for NCLB program, particularly during the early years of 
implementation, though the share of these increases received by local 
school districts varies widely according to their eligibility under the 
various program formulas.
    On average, I believe that we have done a good job of increasing 
funds for new requirements in such areas as the development and 
implementation of State assessments, paying for public school choice 
and supplemental educational services, and school improvement. That 
said, I am sure that some districts, and their supporting taxpayers, 
face difficult choices in deciding how to best allocate resources to 
ensure that all students are achieving on grade level. However, these 
are the kind of choices that parents, educators, and local government 
officials have struggled with for decades, and a real benefit of NCLB 
is that it gives them solid data and new improvement tools to help 
reach our common goal of a high-quality education for every child.
     after-school funding--21st century community learning centers
    Question. As you know, funding for 21st Century Community Learning 
Centers has been flat funded at $981 million. Many school districts, 
including Milwaukee Public Schools (MPS), have been forced to shut down 
programs and deny children services. As a result, many at risk youth 
have no opportunities for academic enrichment or a safe place to go 
after school. Last year, MPS sought funds to keep their summer program 
open. With a little over $1 million, over 6,000 students at 33 sites 
would receive additional academic support they need during the summer 
months, nutritious meals on a daily basis, and exposure to enriching 
activities and caring adults, all which support student learning and 
health. There is no ``new'' Community Learning Centers funding and 
there hasn't been in 2 years. Where in this budget has your Department 
accounted for the closing of this program?
    Answer. The Department distributes 21st Century Community Learning 
Centers funds to States using a formula, and each State holds 
competitions to award grants to programs within the statute's 
parameters. Several States have chosen to make large grant commitments 
in one fiscal year, using their subsequent years' funding on 
continuation grants to fully-fund programs over a 3 to 5 year period. 
The Department does not direct States on how to administer the program 
so long as the State is adhering to statutory requirements, such as 
giving competitive priority to applicants that propose to serve 
students who attend schools in need of improvement under Title I.
            reading first grants--inspector general's report
    Question. Last year, I sent a letter to your office regarding 
Reading First Grants. As you are aware, a recent internal audit of the 
Department's Reading First program cited significant mismanagement of 
the program. The report questions the program's credibility and implies 
the Department may have broken the law by interfering in the curriculum 
decisions made by schools, thereby failing to follow proper grant 
review procedures.
    In 2004, Madison Metropolitan School District declined to continue 
to participate in the program, citing overly rigid requirements and 
reservations about the Reading First approval process. Madison's 
curriculum was working, but because it did not adopt your Department's 
recommended curriculum--a curriculum that has been called into question 
by your own Inspector General--the District has lost over $2 million in 
Federal funds as a result. Reading First is a $1 billion program. How 
do you plan on addressing this report, and moreover what is the status 
of efforts to reinstate Madison's funds?
    Answer. The Department continues to fully implement all of the 
Inspector General's recommendations relating the Reading First program. 
The Department has had conversations both with the Madison Metropolitan 
School District and the State of Wisconsin regarding Madison's 
participation in the Reading First program. The Department will issue a 
statement on the matter in the coming weeks.
                     alternative assessment funding
    Question. Under the current framework of the NCLB law, States are 
required to develop high-quality State assessment systems, including 
assessments for students with severe disabilities and English language 
learners. However, the funding provided under NCLB for State 
assessments is not sufficient to cover the cost of these alternative 
assessments.
    In Wisconsin, for example, it will cost the State $2 million to 
develop an alternative assessment for 6,000 students with severe 
disabilities, or about 1.3 percent of the State's population of 
students with disabilities. How does the administration expect States 
to pay for these costs associated directly with the alternative 
assessment mandates of NCLB?
    Answer. On April 4, 2007, the Department announced that it will 
provide $21.1 million in grant funds for technical assistance as States 
develop new alternate assessments: $7.6 million from the Grants for 
Enhanced Assessment Instruments program and 13.5 million under the IDEA 
General Supervision Enhancement Grants program.
    In addition, States have many existing Federal resources at their 
disposal to help them develop high-quality State assessments. The $400 
million appropriated for fiscal year 2007 for the State Assessment 
Grants will provide formula grants to States to pay the costs of 
developing standards and assessments, and the President has requested 
another $400 million for this program for fiscal year 2008.
    States can also reserve about 1 percent of their grants under 
Elementary and Secondary Education Act Title I Grants to Local 
Educational Agencies program for administrative expenses, including 
paying the costs of developing assessments. The fiscal year 2007 
appropriation for this program is approximately $12.8 billion and the 
President's fiscal year 2008 request is $13.9 billion.
    With regard to specifically to students with disabilities, under 
the Special Education Grants to States program appropriation for fiscal 
year 2007 and the President's request for 2008, the States may set 
aside in each year about $1 billion for a variety of State-level 
activities including the development of assessments of children with 
disabilities.
    Federal technical assistance resources are also available through 
comprehensive regional and content technical assistance centers that 
help States implement NCLB for all children. One of the content 
centers, the Center on Assessment and Accountability, is mandated to 
focus on providing assistance on the implementation of valid, 
standards-based testing and large-scale assessment programs especially 
for students with limited English proficiency and special education 
students. The Department also supports the National Technical 
Assistance Center on Assessment for Children with Disabilities, which 
specifically targets students with disabilities.
                         state data collection
    Question. Data collection is a critical component of the NCLB law. 
There is currently funding available to States through a discretionary 
competitive grant process to develop longitudinal data systems. My home 
State of Wisconsin was awarded $3 million over 3 years for the 
development of their data system. However, while there is funding 
available to build these important systems, there is no funding 
available to States to sustain them, which, in my States, could cost 
from $600,000 to $1 million per year. If data collection is such a 
vital component of this law, how does the administration expect States 
to maintain the longitudinal data systems that they create specifically 
to comply with the Federal law without providing them additional 
funding?
    Answer. We believe that longitudinal data on student academic 
achievement are an important tool to help States track the progress of 
individual students in order to enhance overall achievement and close 
achievement gaps among groups of students. Indeed, longitudinal data 
can be used not only at the State level, but also at the district, 
school, classroom, and student level to support decision-making and 
improvement efforts. The State Assessment Grants program is another 
source of funds to States under the No Child Left Behind Act that can 
be used to support testing and reporting functions. The President's 
2008 budget requests $411.6 million for this program for activities 
that improve the dissemination of information on student achievement 
including the development of information and reporting systems designed 
to assist in linking records of student achievement, length of 
enrollment, and graduation over time. Grants awarded under the 
Statewide Data Systems program provide additional support to help 
States design, develop, and implement data systems that allow them to 
analyze, disaggregate, and use individual student. These grants are not 
intended to offset the cost of complying with Federal data reporting 
requirements. States are not required to use longitudinal data systems 
under the No Child Left Behind law. Nonetheless, these systems will 
help States meet the reporting requirements more efficiently. They will 
save States money by automating reporting functions that currently 
require considerable labor.
                            perkins funding
    Question. Over the past 7 years, 97 percent of Wisconsin's high 
schools have participated in federally funded Carl Perkins Act programs 
that support career and technical education. This includes over 98 
percent of 11th and, 12th grade students, as well as secondary special 
education students in the State. As the result of this investment in 
career and technical education (CTE) program improvement, 94 percent of 
Wisconsin students who enroll in a concentration of CTE programming 
graduate from high school; 90 percent of Wisconsin students who enroll 
in a concentration of CTE programming realize positive academic and 
technical skill attainment levels; and 71 percent of Wisconsin students 
completing high school career and technical education programs pursue 
postsecondary education. With results like this that are so clearly 
tied to the NCLB goals of high academic achievement in high school and 
beyond, how does the administration justify elimination of this program 
in its proposed budget?
    Answer. The President requested $600 million for the Career and 
Technical Education State Grants program. We are not proposing 
elimination of the program. The administration recognizes that the new 
Perkins Act incorporates several important changes that strengthen the 
program's accountability provisions, provide opportunities to improve 
program performance, and increase emphasis on improving the academic 
achievement of career and technical education (CTE) students, a purpose 
that is aligned with the objectives of the No Child Left Behind Act 
(NCLB). Funding the program provides an opportunity to improve the 
quality of CTE programs so that CTE students can acquire both the 
rigorous academic and technical skills they need to succeed.
    Too few high school graduates have the skills they need to succeed 
in the workplace or in postsecondary education. To succeed in our 
economy, all students, even career and technical education students, 
need to acquire a high level of academic knowledge and skills. For that 
reason, the administration is also seeking a $1.2 billion increase for 
Title I Grants to local educational agencies under NCLB, with a 
significant portion going to high schools. These additional funds will 
help improve academic achievement and graduation rates for at-risk high 
school students, many of whom are CTE students.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
 teacher quality enhancement grants and other programs funding teacher 
                              development
    Question. There is a rising consensus that the most significant 
factor in raising student achievement is the quality of the teacher. 
However, the President's fiscal year 2008 budget proposal eliminates 
funding for the Teacher Quality Enhancement Grants (Title II of HEA) 
that effectively prepares teachers for the classroom, and decreases 
funding for Improving Teacher Quality Grants (Title II of NCLB) that 
provide teachers with enhanced professional development. The 
administration is underfunding the most significant piece of the 
achievement puzzle--what is the reasoning behind these cuts?
    Answer. For fiscal year 2008, the administration is requesting no 
funding for the Teacher Quality Enhancement program because it is 
duplicative of other Federal teacher quality programs. In addition, 
because of the progress that school districts are making in ensuring 
that all core academic classes are taught by highly qualified teachers, 
the administration is proposing a modest decrease of 3 percent in 
funding for the Improving Teacher Quality State Grants program in order 
to shift those funds ($100 million) to the Teacher Incentive Fund 
program.
    The administration is requesting no funding for Teacher Quality 
Enhancement Grants in fiscal year 2008 because State and local entities 
may already use funds they receive under a number of other Department 
programs, including the Improving Teacher Quality State Grants program, 
the Transition to Teaching program, and the Teacher Incentive Fund, to 
carry out the kinds of activities supported through the Teacher Quality 
Enhancement program. The administration believes that the resources 
previously used to support the Teacher Quality Enhancement program 
should be shifted to higher-priority programs and initiatives that have 
greater potential to be effective in improving teacher quality.
    All of the activities allowable under the Teacher Quality 
Enhancement program can be carried out under other existing programs. 
For example, the Improving Teacher Quality State Grants program focuses 
on preparing, training, and recruiting high-quality teachers. Under 
that program, States may use funds to reform teacher and principal 
certification/licensing requirements, support alternative routes to 
State certification, support teacher and principal recruitment and 
retention initiatives, and initiate innovative strategies to improve 
teacher quality.
    Additionally, under Improving Teacher Quality State Grants, States 
are required to award subgrants, on a competitive basis, to 
partnerships that are structured similarly to the partnerships funded 
under the Teacher Quality Enhancement program and consist of at least 
one institution of higher education, one high-need local educational 
agency, and one other entity. Partnerships may receive funds to support 
new teacher and principal recruitment and retention initiatives as well 
as to support a broad range of innovations to improve teacher quality, 
including teacher and principal mentoring, teacher testing, reforming 
tenure systems, merit pay, signing bonuses and other financial 
incentives, and pay differentiation initiatives. The Transition to 
Teaching program is intended to help mitigate the shortage of qualified 
licensed or certified teachers in many of our Nation's schools by, 
among other things, encouraging the development and expansion of 
alternative routes to certification. The program provides funds to 
States, local educational authorities, and partnerships to support 
efforts to recruit, train, and place high-quality teachers in high-need 
schools and school districts. The Teacher Incentive Fund provides 
States and local educational agencies with resources to reward teachers 
for increasing student achievement and for teaching in the most 
challenging schools and to employ performance-based compensation 
strategies for improving teacher quality. These three programs are 
better designed to provide the services currently funded by the Teacher 
Quality Enhancement program.
                     teacher incentive fund program
    For fiscal year 2008, the administration is requesting 
approximately $2.8 billion for the Improving Teacher Quality State 
Grants program, $100 million less than the 2007 level. The 
administration proposes to move this $100 million to the Teacher 
Incentive Fund program, in order to support additional State and local 
initiatives to introduce performance-based teacher and principal 
compensation systems and provide incentives for the most effective 
teachers to serve in the most challenging schools. Because most 
teachers are now considered to be highly qualified, it is appropriate 
to shift a portion of funds to the Teacher Incentive Fund in order to 
encourage these important reforms in compensation practices.
                 improving teacher quality state grants
    The budget would continue provision of a significant amount of 
funding for Improving Teacher Quality State Grants. Using the resources 
available through this program, States and LEAs can implement high-
quality recruitment, professional development, and induction programs 
and other strategies to ensure that our Nation's schools are staffed 
with fully qualified teachers who are prepared to help all children 
succeed academically. The requested funds will help maintain the 
momentum for ensuring that all children are taught by teachers who have 
expertise in the subjects they teach and the skills needed to teach 
effectively.
  teacher preparation, induction and professional development programs
    Question. What is the Department doing to ensure that teachers are 
prepared to teach before entering the classroom, receive strong 
mentoring and induction in their first years of teaching, and 
continuous and intensive professional development?
    Answer. Spending on programs designed to improve teacher quality 
surpasses $3.4 billion in fiscal year 2007 and the administration is 
requesting more than $3.5 billion for programs relating to improving 
teacher quality in fiscal year 2008. These programs include Improving 
Teacher Quality State Grants ($2.8 billion in fiscal year 2008), 
Mathematics and Science Partnerships ($182.1 million), Troops-to-
Teachers ($14.6 million), Transition to Teaching ($44.5 million), 
Teaching of Traditional American History ($50 million), Special 
Education Personnel Preparation ($89.7 million), and Language 
Acquisition Grants for Professional Development. All of these programs 
focus on teacher preparation, teacher induction, or professional 
development, or a combination of the three.
    In addition to programs dedicated to improving teacher quality, the 
Title I Grants to Local Educational Agencies programs has an important 
professional development component. The Department estimates that the 
professional development set-aside in Title I will increase from $624.1 
million in 2007 to $688.3 million in 2008 under the President's 
request.
  funding for improving literacy through the school libraries program
    Question. Multiple studies have affirmed a clear link between 
academic achievement and the quality of school libraries. Based on 
analysis from the first year of funding for the Improving Literacy 
Through School Libraries program, 95 percent of funded districts 
reported increases in their reading scores. The Department's own 
November 2005 evaluation found the program to be a success. Moreover, 
the program is competitive so that of the 520 districts that applied 
for funding in fiscal year 2006, only 78 were funded, and overall eight 
States and the District of Columbia have yet to see any funding during 
the 5 years of the program's existence. Given how successful the 
Improving Literacy Through School Libraries program is and how many 
districts are vying for such a limited pool of funding, can you explain 
why the administration's budget request once again only provides level 
funding for this program?
    Answer. The Department's request recognizes the strategic role that 
school libraries can play in making information available to all 
students, training students and teachers about how to obtain and make 
use of information, and increasing access for low-income students to 
technology and information. The program also supports a central goal of 
the administration and of the No Child Left Behind Act of 2001--
enabling all children to read well.
    Although the administration supports the program's goals, we have 
been concerned in the past about the quality of applications that we 
receive. In recent years, we have awarded grants to those applications 
that received a score of approximately 85 (out of 100) or above in the 
peer review in order to ensure that only the most competitive projects 
receive grants. Because we do not want to award grants to applicants 
that score less than approximately 85, we believe that continued 
funding of $19.5 million is about right.
    Based on our experiences over the past 5 years, the Department has 
implemented some changes to the application to improve the quality of 
projects this year. First, we are placing a greater emphasis on the 
quality of applicants' management plan, granting more points to 
projects that can demonstrate greater community support for the 
project's planned activities. Second, we have added a competitive 
preference that allows applicants to receive an additional five points 
if they can provide evidence that the project supports a school or 
district academic improvement plan.
                        environmental education
    Question. Our Nation is increasingly beset by environmental 
challenges--global warming, deteriorating air and water quality--that 
present threats to human health, economical development, biological 
diversity, and national security. Our basic life-support system is 
increasingly at risk, and we're passing this legacy on to our 
children--who will need to understand how our environment and economy 
impact each other to be adequately prepared for the workforce. How can 
current efforts to educate K-12 students about environmental sciences 
and to connect students to outdoor laboratories/nature be improved, and 
how can the Department of Education, through NCLB in particular, be a 
leader in driving our Nation's schools to teach students the importance 
of environmental science?
    Answer. Although the Department does not currently administer an 
environmental education program, the Mathematics and Science 
Partnerships (MSP) and Improving Teacher Quality State Grants (Title 
II) programs provide support that grantees can focus on environmental 
education. Both programs are sufficiently flexible that grantees could 
use program funds for curriculum development (MSP) or professional 
development (MSP and Title II) in environmental education.
    The Mathematics and Science Partnerships program supports State and 
local efforts to improve students' academic achievement in mathematics 
and science by promoting strong teaching skills for elementary and 
secondary school teachers, including integrating teaching methods based 
on scientifically based research and technology into the curriculum. 
Grantees may also use program funds to develop more rigorous 
mathematics and science curricula that are aligned with challenging 
State and local content standards; establish distance learning programs 
for mathematics and science teachers; and recruit individuals with 
mathematics, science, and engineering majors into the teaching 
profession through the use of signing and performance incentives, 
stipends, and scholarships. The administration is requesting $182.1 
million for this program in fiscal year 2008.
    The President has requested almost $2.8 billion in 2008 for the 
Improving Teacher Quality State Grants program, which provides funds to 
States and school districts to develop and support a high-quality 
teaching force through activities that are grounded in scientifically 
based research. The program gives States and school districts a 
flexible source of funding with which to meet their particular needs in 
strengthening the skills and knowledge of teachers and administrators 
to enable them to improve student achievement in the core academic 
subjects, including science.
               epa environmental education grants program
    The Environmental Protection Agency (EPA) has an Environmental 
Education Grants program, which supports environmental education 
projects that enhance the public's awareness, knowledge, and skills to 
help people make informed decisions that affect environmental quality. 
Annual funding for the program ranges between $2 million and $3 
million. The EPA, and not the Department of Education, has for a long 
time had the lead Federal role in supporting environmental education. 
The EPA's efforts draw on that agency's expertise in environmental 
issues. We have seen no need to change this allocation of 
responsibilities.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
               raising achievement levels in high schools
    Question. The President's No Child Left Behind reauthorization 
proposal focuses its increase in funding on expanding the act to high 
schools. Why would you expand the program to high schools when we know 
that elementary and middle schools still do not have adequate funding 
to implement the current standards?
    Answer. We have never agreed with the argument that current funding 
levels are not sufficient to successfully implement No Child Left 
Behind. The accountability system created by NCLB was intended to 
leverage better and more effective use of all education funding from 
Federal, State, and local sources, and I believe it is doing exactly 
that in States and districts and schools across the Nation. We are 
seeing improved achievement, based on both State assessment results and 
the National Assessment of Educational Progress, but most of that 
improvement is concentrated in the early grades. For this reason, we 
believe it is appropriate to target new resources to the high school 
grades, where achievement levels have stagnated and where businesses 
are demanding improved performance to ensure our competitiveness in the 
global economy.
                          education technology
    Question. Technology is critical for students to remain competitive 
in the global market place. In fact, I think we will see a huge 
increase in distance learning on the Internet in the coming years. How 
do you square the increasing role of technology in learning with the 
President's proposal to eliminate funding for Education Technology 
State Grants?
    Answer. The President's 2008 budget request would eliminate funding 
for the Educational Technology State Grant program based on evidence 
that schools today offer a greater level of technology infrastructure 
than just a few years ago, and that there is no longer a significant 
need for a State formula grant program focused specifically on (and 
limited to) the integration of technology into schools and classrooms. 
States and school districts that seek to support activities designed to 
utilize technology to improve instruction and student learning can use 
funds provided under other Federal programs, such as Title I Grants to 
Local Educational Agencies and Title II Improving Teacher Quality State 
Grants.
                  american competitiveness initiative
    A key priority of the President's fiscal year 2008 budget is to 
ensure continued progress in preparing students academically to compete 
in a global, technology-based economy. The fiscal year 2008 budget, 
through the American Competitiveness Initiative and through other 
programs, focuses on keeping our students and our workforce competitive 
for the 21st century. In that context, the budget includes $365 million 
in new funding to support a critical new focus on improving student 
achievement in math and science from the early grades through high 
school. Besides math and science education, a key to ensuring America's 
economic competitiveness is improving the performance of our high 
schools, and the budget includes approximately a $1 billion increase 
that would distribute Title I funds more equitably to the high school 
level, strengthen assessment and accountability in high schools, and 
encourage more effective restructuring of chronically low-performing 
schools. Because the challenges facing the Nation's secondary schools 
vary between and within States, these additional resources will allow 
LEAs to choose their own programs and approaches for the interventions 
to be implemented in eligible Title I high schools, including, for 
example, approaches emphasizing the integration of technology into the 
curriculum.
                                vouchers
    Question. The President's budget proposes funding to allow students 
to attend private schools under a voucher program. However, these 
private schools would not have to meet the same standards as public 
schools. Why should private schools be allowed the use of public funds 
while they are exempt from the same standards as public schools?
    Answer. The two proposals, Opportunity Scholarships and Promise 
Scholarships, would empower parents to determine which schools or 
supplemental service providers can best meet their child's needs. While 
schools that are identified for school improvement, corrective action, 
or restructuring implement reform efforts, students attending these 
persistently low-performing schools must have the opportunity to pursue 
other educational opportunities. Because the current choice options 
available to students in restructuring schools tend to be so limited, 
it is appropriate, indeed essential, to make expanded opportunities 
available, including private schools and out-of-district public 
schools, as well as enhanced supplemental services, and to ensure that 
low-income students have the resources to take advantage of those 
options.
    While private schools are not subject to the same standards as 
public schools, they are publicly accountable in that they are likely 
to lose enrollment if they do not do a good job educating children. 
Research on the existing private-school choice programs in Milwaukee, 
Cleveland, and Florida indicates that these types of programs can be 
successful. All of them have been well received by low-income parents 
concerned about their children being ``trapped'' in failing schools.
                     funding for special education
    Question. New Jersey ranks third in the Nation for the number of 
children designated with disabilities. How can school districts meet 
the needs of special education students and No Child Left Behind 
requirements when the President's budget decreases funding for special 
education?
    Answer. In the 6 years between 2001 and 2007, the appropriations 
for the Special Education Grants to States program have grown by $4.44 
billion, or 70 percent. The large increase in Special Education Grants 
to States funding was driven in part by four unprecedented back-to-back 
$1 billion increases included in the President's budget requests. The 
request for 2008 would have provided level funding from fiscal year 
2007 based on the continuing resolution in place at the time the 
President's request was made for 2008.
    While Special Education funds provided under the IDEA provide 
critical support to help States and local school districts meet the 
educational needs of children with disabilities, the administration's 
2008 budget request for substantial funding increases under ESEA 
programs would target resources where they are most needed, including 
activities that would provide substantial benefits to children with 
disabilities.
      funding the educational needs of students with disabilities
    For example, under the reauthorized School Improvement Grants 
program, for which the administration has requested $500 million in new 
funding, States would be required to target funding on addressing the 
needs of schools and local educational agencies that have been 
identified for improvement under NCLB. We know that many schools and 
districts fail to make adequate yearly progress (AYP) because they have 
not adequately addressed the educational needs of students with 
disabilities. According to the National Assessment of Title I: Interim 
Report to Congress, during the 2003-2004 academic year, approximately 
37 percent of all schools for which AYP was calculated for students 
with disabilities missed AYP for this subgroup. The increase requested 
for the Title I Grants to Local Educational Agencies program of more 
than $1 billion would also directly benefit children with disabilities, 
both in Schoolwide programs serving all students in participating 
schools and in Targeted Assistance programs serving low-achieving 
students, including low-achieving students with disabilities.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter
                           mentoring program
    Question. Madame Secretary, the statistics on youth violence are 
staggering. Philadelphia has the fifth highest homicide rate of all 
major U.S. cities, and juveniles account for 38.5 percent of all 
arrests in Philadelphia County. Mentoring programs are one way to 
address some of the aspects of youth violence. Children who have 
mentors are more likely to earn higher grades, are less likely to miss 
school and initiate the use of drugs and alcohol. Your budget proposes 
to eliminate the $48.8 million for mentoring. Can you tell me why you 
eliminated this program?
    Answer. The budget request includes no funding for the Mentoring 
program because mentoring programs, and other activities to prevent 
young people from becoming involved in criminal and delinquent 
behavior, can be supported with grant funds local educational agencies 
(LEAs) would receive under the 2008 budget request for Safe and Drug-
Free Schools and Communities (SDFSC) State Grants and National 
Programs, and by other sources of funds. The administration endorses 
local efforts to implement mentoring programs, but does not believe a 
Federal program narrowly targeted on that area is needed. States and 
localities should have the flexibility to select mentoring or other 
approaches to dealing with youth development and youth violence issues.
                     mentoring program part rating
    Question. Was the Mentoring Program ineffective?
    Answer. No, we have not determined that the program is ineffective. 
The Mentoring program was among the programs assessed in 2006 by the 
Program Assessment Rating Tool (PART). The program received a rating of 
``Results Not Demonstrated,'' which is the rating we give a program 
when we do not yet have sufficient information to determine its 
effectiveness.
    In 2005, the Department launched a 4-year evaluation to assess the 
impact of school-based mentoring programs supported with SDFSC National 
Programs grant funds. Using the 2005 cohort of grantees, under which 
students were randomly assigned either to participate or not 
participate in a mentoring program, the evaluation will address whether 
students enrolled in mentoring programs are less likely to engage in 
risky and dangerous behaviors and whether their academic performance is 
higher than that of students not enrolled in mentoring programs. The 
evaluation will also examine the relative effectiveness of different 
aspects of school-based mentoring. The evaluation is expected to be 
completed in 2008.
    mentoring activities supported with sdfsc national program funds
    Question. Are there other programs in your budget that are better 
suited for mentoring children?
    Answer. The 2008 request for SDFSC National Programs includes $59 
million for grant assistance to LEAs to support the implementation of 
drug prevention or school safety programs, which may include mentoring 
programs, that research has demonstrated to be effective in reducing 
youth drug use or violence; and for implementation and scientifically 
based evaluation of additional approaches that show promise of 
effectiveness. For example, LEAs could use those funds to target 
younger students, thereby helping to prevent them from engaging in 
violent behavior or alcohol or drug use, which are often precursors to 
delinquency.
    In addition, the 2008 request for SDFSC National Programs includes 
$79.2 million for grants to LEAs for comprehensive, community-wide 
``Safe Schools/Healthy Students'' drug and violence prevention projects 
that are coordinated with local law enforcement and also include mental 
health preventive and treatment services. These Safe Schools/Healthy 
Students projects also focus on prevention and early intervention 
services for youth.
    We also support activities to design and implement character 
education activities in elementary and secondary schools. Our request 
for SDFSC National Programs includes $24.2 million for character 
education activities. These programs have been found to reduce many of 
the risk factors that lead to delinquency, truancy, and drug use.
    The 2008 budget includes $100 million for a proposed restructured 
SDFSC State Grant program under which the Department would allocate 
funds by formula to SEAs, which would use the funds to provide school 
districts within their State support for the implementation of 
effective models that, to the extent possible, reflect scientifically 
based research, for the creation of safe, healthy, and secure schools. 
Such activities could include financial assistance to enhance drug and 
violence prevention resources available in areas that serve large 
numbers of low-income children, are sparsely populated, can demonstrate 
a significant need as a result of high rates of drug and alcohol abuse 
or violence, or have other special needs so that they can develop, 
implement, and evaluate comprehensive drug, alcohol, or violence 
prevention programs and activities, which may include mentoring, that 
are coordinated with other school and community-based services and 
programs and that foster a safe and drug-free learning environment that 
supports academic achievement.
department of health and human services mentoring children of prisoners 
                                program
    Furthermore, the 2008 budget request for the Department of Health 
and Human Services includes $50 million for the Mentoring Children of 
Prisoners program, which aims to establish and maintain relationships 
between children at high risk of future incarceration, because one or 
both parents of their parents is incarcerated, and adult mentors to 
help them succeed in school and life.
                   helping america's youth initiative
    Finally, aside from direct support for programs, under the 
leadership of the First Lady, the administration has launched Helping 
America's Youth, a nationwide effort to raise awareness about the 
challenges facing our youth, particularly at-risk boys, and to motivate 
caring adults to connect with youth in three key areas: family, school, 
and community. The Helping America's Youth effort is highlighting 
programs that are effectively helping America's young people to make 
better choices that lead to healthier, more successful lives.
    high school to postsecondary transitional programs as means of 
                       addressing youth violence
    Question. On February 19, 2007, Senator Casey and I held a hearing 
in Philadelphia to hear the views of experts on the best ways to 
address the youth violence problem. Paul Vallas, Chief Financial 
Officer the School District of Philadelphia, stated that ``linking high 
school to college'' through programs like dual enrollment and early 
college, which guarantees high school seniors a college education, is 
being implemented in the Philadelphia schools to keep kids interested 
and in school. Mr. Vallas also stated that guaranteeing children 
employment opportunities through work-study programs is another 
incentive to keep kids in school. What are your views on these 
programs?
    Answer. One of the cornerstones of my Action Plan for Higher 
Education is accessibility, not only in financial terms, but also in 
terms of improving high school education and experiences so that 
students are able to transition into postsecondary education and 
succeed there. I believe that programs that encourage students to 
finish high school and link high school to college are important and 
hold great promise. Our Academic Competitiveness grants are an example 
of a program that links high school and postsecondary education by 
addressing both the need for financial resources to go to college and 
academic preparation in high school to make the transition into 
postsecondary education. The Academic Competitiveness program provides 
additional financial aid to college students who have taken a rigorous 
academic high school program, thereby encouraging high school students 
to choose the right high school courses and plan for college.
                           dropout prevention
    Question. Last March, the Bill and Melinda Gates Foundation issued 
a report ``The Silent Epidemic--Perspectives of High School 
Dropouts''--The report published findings from interviews with U.S. 
high school dropouts to better understand why they dropped out and 
preventive measures to keep them in school. The report recommended the 
following: Better early warning systems to identify students at risk 
for dropping out and to ensure support is given--such as tutoring, 
mentoring, summer school; a balance of raising test scores and 
graduation rates, so that schools don't have the unintended incentive 
of raising test scores by pushing out those students not performing 
well on tests. Madame Secretary, the Department's proposed budget 
eliminates funding for programs such as smaller learning communities, 
dropout prevention and parent information centers. Why are you 
eliminating programs that are designed to keep children in school?
    Answer. As you point out above, it is important that schools 
identify students at risk for dropping out early on and work to meet 
their needs before they think about leaving school. But the programs 
you mention most likely have little to no impact on the dropout problem 
and, in some cases, do not even address it. (Parent Information and 
Resource Centers, for instance, provide most of their services to 
parents of young children and have not made dropout prevention a 
priority.) In addition, No Child Left Behind, at the high school level, 
has the mission of both raising student achievement and graduation 
rates. High schools and LEAs are held accountable for meeting the 
targets set by States for improving graduation rates and reducing 
dropout rates. Thus, we do not believe there is any incentive for 
States to push students to drop out of high school.
    While the Dropout Prevention program is the only program labeled as 
such to combat the problem, we have no evidence to show that it is an 
effective approach to the problem. The small investment, just $4.8 
million, combined with no evidence of the program's effectiveness, led 
us to redistribute those resources to Title I where a $1 billion 
increase has a much greater likelihood of having an impact on the 
dropout problem. The majority of those funds would go to high schools 
and the types of activities that high schools would carry out are 
likely to address the dropout problem.
                childhood obesity and physical education
    Question. Since 1994, the number of obese and overweight children 
in the United States has more than doubled and now stands at 17.1 
percent of children ages 2 to 19. Obesity carries with it many health 
and social consequences that often continue into adulthood. 
Implementing prevention programs and treatment for youngsters is 
important to controlling the obesity epidemic. One of the programs with 
proven success is the Carol M. White Physical Education Program, funded 
at $72.6 million last year. Instead of asking for new applications, 
your website States that you received enough high-quality applications 
that you decided to use the unfunded applications from fiscal year 2006 
to make new awards in fiscal year 2007. Given the quality of the 
applications and the obvious need for such a program, why did you zero 
out this program in fiscal year 2008?
    Answer. The Department's budget does not include funding for the 
Carol M. White Physical Education program because the effectiveness of 
the program is unknown, and because the 2008 budget request for the 
Department of Health and Human Services (HHS) includes funding for a 
more promising approach to school wellness.
    The Physical Education program was among the programs assessed in 
2005 by the Program Assessment Rating Tool (PART). The program received 
a rating of ``Results Not Demonstrated.'' While the program has an 
overall strong purpose and design, and is managed well, it has 
weaknesses and deficiencies with regard to demonstrating results. 
Although a Results Not Demonstrated rating does not mean that a program 
is ineffective (it, instead, means that we cannot yet determine its 
effectiveness) there is, as yet, no evidence that the program is making 
a difference in terms of youth physical activity, reduction in obesity, 
or other desired outcomes.
                  hhs initiative--school health index
    Question. Your budget States that you will devote $17 million 
within the HHS request for grants to schools that have completed 
physical education and nutrition assessments as part of the school 
health index. What does that mean?
    Answer. The administration's 2008 budget request for the Department 
of Health and Human Services (HHS) includes $17.3 million to support an 
initiative to be implemented at the Centers for Disease Control and 
Prevention (CDC) that will aim to create a national culture of wellness 
designed to help individuals take responsibility for personal health 
through such actions as regular physical activity, healthy eating, and 
injury prevention.
    The HHS initiative will be built on a single school health 
assessment tool, the School Health Index (SHI). Local schools will use 
the SHI to assess health programs and policies and compare them to 
rigorous standards. Based on assessment results, schools will work to 
develop Action Plans that will identify the research-tested strategies 
they will implement across a broad range of areas, including physical 
education, health education, school lunch and breakfast programs, 
beverages and snack foods sold at schools, recess, intramural sports 
programs and after school programs. Schools will be able to apply to 
their State educational agency for a School Culture of Wellness Grant 
funded by the CDC that will be used to help implement tested tools that 
address the school wellness improvements identified in Action Plans. 
HHS estimates that more than 3,600 such grants will be awarded, 
reaching more than three million youngster and their families. 
Technical assistance and training activities will complement the grant 
program and also assist schools that do not receive grants.
                     title i high school initiative
    Question. Your budget proposes to start a new $1.2 billion Title I 
high school initiative to support rigorous instruction and coursework 
that will improve graduation rates and prepare students for college or 
work. While I applaud the goal of preparing students for college and 
work, I am concerned that your budget proposes all of the Title I 
increase be devoted to starting the high school program. Do you feel 
that the current funding for Title I in the elementary grades is 
sufficient?
    Answer. Yes, we do believe that the evidence we have, from both 
State assessments and the National Assessment of Educational Progress, 
shows that we are on the right track in the early grades and that the 
accountability system created by No Child Left Behind, combined with 
existing funding levels, is helping to move all students to grade-level 
proficiency.
    Question. Why start a new program when there is much criticism that 
the currently authorized programs are underfunded?
    Answer. That criticism started almost from the day the President 
signed NCLB into law--despite the very large increase in funding that 
Congress provided for the first year of implementation--and we believe 
claims about underfunding NCLB are both inaccurate and, truth be told, 
something of a smokescreen for disagreement with the goals of the law. 
Many of the same folks complaining about funding also claim that it is 
unrealistic to expect all students to perform on grade level. We 
disagree on both counts.
                           school improvement
    Question. Your budget justifications say that over 10,000 schools 
are in need of improvement. Knowing that the need is so significant, 
the Congress provided the start for a School Improvement program with 
$125 million in fiscal year 2007. With so many schools in need of 
corrective action, improvement, or restructuring, does your budget 
provide enough money to help States and localities meet the 
requirements in NCLB?
    Answer. We believe that our proposed increase to $500 million for 
Title I School Improvement Grants in fiscal year 2008, combined with 
the roughly equal amount already available for school improvement under 
the section 1003(a) 4-percent reservation, will be adequate to meet the 
expected demand for improvement resources over the next 2 years. I 
would add, however, that how those funds are spent will be important, 
and our reauthorization proposal, which would help build State capacity 
to support local improvement efforts and bring a new emphasis on 
research-based improvement practices, is integral to our funding 
request.
                     teacher incentive fund program
    Question. Your budget asks for $199 million for the Teacher 
Incentive Fund. This is double the amount in the fiscal year 2006 
budget, and I understand almost all of the money from fiscal year 2006 
wasn't spent until fiscal year 2007. Would you tell us how the $199 
million would be used and how the program works?
    Answer. The goals of the Teacher Incentive Fund (TIF) program are 
to improve student achievement by increasing teacher and principal 
effectiveness; reform teacher and principal compensation systems so 
that teachers and principals are rewarded for gains in student 
achievement; increase the number of effective teachers teaching low-
income, minority, and disadvantaged students in hard-to-staff subjects; 
and create sustainable performance-based compensation systems. The 
program provides grants to encourage school districts and States to 
develop and implement innovative ways to provide financial incentives 
for teachers and principals who raise student achievement and close the 
achievement gap in some of our Nation's highest-need schools.
    Local educational agencies (LEAs), including charter schools that 
are LEAs; States; or partnerships of: (1) an LEA, a State, or both and 
(2) at least one non-profit organization are eligible for competitive 
grants to develop and implement performance-based compensation systems 
for public school teachers and principals in high-need areas. These 
systems must be based on measures of gains in student achievement, in 
addition to other factors, for teachers and principals in high-need 
schools.
    Each applicant must demonstrate a significant investment in, and 
ensure the sustainability of, its project by committing to pay for an 
increasing share of the total cost of the project, for each year of the 
grant, with State, local, or other non-Federal funds.
    The Department reserves 5 percent of funds for technical 
assistance, training, peer review of applications, program outreach, 
and evaluation activities.
            fiscal year 2006 teacher incentive fund program
    The Department received $99 million for the Teacher Incentive Fund 
program in fiscal year 2006. The period of availability for the grants 
portion of the appropriation lasts from July 2006 through September 
2007.
    Because TIF is a new program and the Department anticipated that it 
would take applicants some time to develop their projects and write 
their applications, the Department did not plan to award the first 
round of grants until the fall of 2006. The Department awarded 16 
grants, for about $42 million, in October and November 2006. These 
applications all received scores of 85 or higher during the peer 
review.
    In order to ensure that only the highest-quality grants received 
funding, the Department did not award grants to applications that 
reviewers scored lower than 85. The Department decided to hold a second 
competition this spring to allow unsuccessful applicants to improve 
their proposals, if they chose, and to allow applicants who may not 
have felt ready to apply in the first round the opportunity to have 
more time to develop high-quality applications for the second round.
    The Department conducted technical assistance workshops and 
conference calls for potential applicants to learn more about the 
application process and the program. The application deadline has now 
passed for the second round, and the Department expects to award 
approximately $43 million in grants in June. The Department will use 
remaining grant funds (approximately $9 million) to cover early fiscal 
year 2008 continuation costs until Congress passes the fiscal year 2008 
appropriation. (Remaining funds from the 5 percent set-aside were for 
technical assistance, evaluation, and peer review; these funds were 
available on an annual basis and are no longer available.)
proposed plans for teacher incentive fund in fiscal years 2007 and 2008
    The Department received $200,000 for the program in fiscal year 
2007, which we will use to cover the costs of the second-round peer 
review. In fiscal year 2008, the administration has requested that TIF 
funds be available on an annual, rather than forward-funded, basis to 
ensure that there is not a lapse in funding for existing grantees. The 
Department would use approximately half of the funds for the second 
year of activities for grants first awarded with 2006 funds and the 
remaining amount for new awards.

                 INTRODUCTION OF SECOND PANEL WITNESSES

    Senator Harkin. Let us call our second panel: John 
Jennings, Gene Wilhoit, Deborah Jewell-Sherman, Jane Babcock, 
and Robert Slavin.
    We will start in the order which I mentioned, first of all, 
and then just go on down the line. First of all, John F. 
Jennings founded the Center on Education Policy in January 
1995, serves as its president and CEO, from 1967 to 1994 served 
as the subcommittee staff director and general counsel for the 
U.S. House of Representatives Committee on Education and Labor. 
In these positions he was involved in nearly every major 
education debate held at the national level. He holds an A.B. 
from Loyola and a J.D. from Northwestern University School of 
Law.
    Mr. Jennings, welcome to the committee. With you as with 
all of the rest, your statements will be made a part of the 
record in their entirety. If you could just take 5 minutes to 
sum it up we would sure appreciate it.
STATEMENT OF JOHN F. JENNINGS, PRESIDENT AND CEO, 
            CENTER ON EDUCATION POLICY
    Mr. Jennings. Thank you, Senator.
    Senator Harkin. Mr. Jennings.
    Mr. Jennings. I am very glad to be here. I watched your 
career and accomplishments on the Senate Labor Committee for 
many years and I am glad to be appearing before you in your 
other role on the Appropriations Committee.
    My name is Jack Jennings and I am the President of the 
Center on Education Policy, and I appreciate this opportunity 
to talk about funding for the No Child Left Behind Act. The 
Center on Education Policy is an independent center that 
monitors school reform. We receive all our funding from 
charitable foundations. We have no membership. We have no 
particular bias. Our only objective is to monitor school 
reforms that are meant to improve public schools.
    One of the major programs we look at is the No Child Left 
Behind Act. Since 2002, in monitoring that program we have 
issued four comprehensive reports, as well as more than 20 
specialized reports. Today I would like to summarize our 
findings dealing with funding based on survey information from 
all 50 States, from a national sample of 300 school districts, 
and this is the same type of sample the U.S. Department of 
Education uses for its studies. In fact, we are using the same 
contractor that the U.S. Department of Education has used for 
its work because we want objective information to be able to 
show the effects of No Child Left Behind.
    After reviewing the act for 5 years, these are our four 
major conclusions as regards funding. First, for the last 2 
years 80 percent of the school districts in this nationally 
representative sample have reported that they are absorbing 
costs to carry out No Child Left Behind that they are not being 
reimbursed for by the Federal Government. These costs deal with 
testing, they deal with administering the tutoring provisions, 
the public school choice provisions, upgrading the quality of 
teachers, providing remedial services to students, providing 
professional development to teachers--a wide range of costs, 
and many of these are not being reimbursed by the Federal 
Government.
    My second point is that for the current school year about 
two-thirds of the school districts in the country have received 
a smaller grant than last year or a frozen grant under Title I 
of the Elementary and Secondary Education Act, due to the 
appropriations for 2005-2006 which were frozen, slightly 
decreased appropriations, and certain factors in the law. In 
fact, this percentage may be even higher depending on how much 
money States reserve for school improvement out of a percentage 
set-aside that they can reserve money for under the law.
    So what we are asking is school districts to do much more 
under No Child Left Behind while we are giving the vast 
majority of school districts less money or at best the same 
amount of money. This does not make sense to school districts. 
This is at a time when the Federal Government has shifted from 
a role it used to have, Senator, that you will remember well, 
where the Federal Government used to provide special services 
for at-risk children, mostly disabled and disadvantaged 
children, and that would be about 25 percent of the student 
enrollment. Today the Federal Government is requiring that all 
schools, every public school regardless of whether it receives 
any Federal money, regardless of the percentage of poor 
children in that school, that every school in the country test 
its children, release the test results, and be ranked, have 
teachers that are fully qualified in basic academic subjects.
    This is a vastly expanded Federal role in education and yet 
the Federal Government is only providing 8 to 9 percent of the 
cost of education. So the expansion of the Federal role has not 
been met with an expansion of funding this role in education.
    The third point we would make is that last school year 34 
States reported that they received inadequate Federal funds to 
carry out their general responsibilities under the No Child 
Left Behind Act, and inadequate staffing was the basic reason 
for this. This is a crucial matter because the State 
departments of education are the key link in trying to carry 
out this type of reform. They are the agencies that promulgate 
the standards. They are the agencies that have the testing 
programs, that are supposed to provide assistance to schools in 
need of improvement. And yet they do not have adequate staffing 
to carry out these duties. We would urge special attention 
being paid to the role of the State departments of education.
    Our last point is that in the last 2 school years nearly 
two-thirds of the States reported that they were receiving 
insufficient Federal funds to carry out their NCLB-imposed 
duties of assisting schools that are in need of improvement. 
Under No Child Left Behind, as you know, schools after 2 years 
are put on a State watch list and then they are progressively 
subject to sanctions if they receive Federal money. There are 
going to be more and more of these schools.
    Last year, in California there was a doubling of the number 
of schools that are in restructuring under No Child Left 
Behind. They have more than 700 schools now that have to be 
restructured. Yet State departments of education and local 
school districts are not receiving the funds that they need in 
order to implement these types of changes.
    Based on our findings, we recommend four courses of action. 
First, we recommend that the appropriations under the Title I 
program be very substantially increased. Title I is the core 
program for all school districts in the country and it is the 
program on which all these new Federal requirements have been 
based. Title I funding is totally inadequate in order to carry 
out the vastly expanded duties that are being imposed on local 
school districts.
    Second, we recommend a rejection of the Bush 
administration's proposal that new funding under Title I be 
tied to new duties. The administration is saying that they are 
proposing $1 billion in new funding for Title I. This funding 
is earmarked for an expansion of testing in high schools and 
for programs in high schools. This will not relieve the burden 
on local school districts, on school districts that are trying 
to carry out what they have been told to do for 5 years. This 
will leave them with frozen money or with less money. So we 
urge a rejection of the administration's proposal in that 
regard.
    Third, we urge support for State departments of education. 
As I have already said, they are the key elements in this 
scheme. They are inadequately supported. In fact, over the last 
10 years Federal aid to education has gradually withdrawn 
support from State departments of education, and they need to 
be buttressed if we are to carry out--if they are to carry out 
their duties under No Child Left Behind.
    Last, we recommend an increase in funding for the school 
improvement program under Title I. This is the program that is 
earmarked for those schools that are in need of improvement as 
identified under No Child Left Behind. That program needs to be 
much better funded than it is currently being funded.

                           PREPARED STATEMENT

    In conclusion, we recommend that the Congress recognize 
that the Federal role in education is vastly expanded. School 
districts throughout the country are being asked to do much 
more by the Federal Government than they have ever been asked 
to do before and they are trying. They are trying a hard as 
they can. But the Federal Government has to provide them with 
the tools to comply with the law in order to raise student 
achievement.
    So we would recommend a very substantial increase in 
Federal aid to education. Thank you.
    [The statement follows:]
                 Prepared Statement of John F. Jennings
    Thank you for the opportunity to testify about this important 
issue.
                                summary
    The Center on Education Policy is an independent national advocate 
for improved public schools that monitors school reform policies to 
determine their effects. In this role, CEP has followed the 
implementation of the No Child Left Behind Act since 2002, issuing four 
comprehensive annual reports and more than 20 specialized reports.
    Today, I will summarize our findings dealing with funding, based on 
survey information from all 50 States and a national sample of 300 
school districts, and from our analysis of the effects of prior 
appropriations. After studying NCLB for 5 years, we've reached four 
findings about funding:
  --For the last 2 school years, 80 percent of the school districts in 
        our nationally representative sample have reported that they 
        are absorbing costs to carry out NCLB for which they are not 
        being reimbursed by the Federal Government.
  --For this current school year, about two-thirds of the school 
        districts in the Nation have received a smaller grant than last 
        year or a frozen grant for Title I of the Elementary and 
        Secondary Education Act, due to flat appropriations for 2005-
        2006 and certain factors in the law. The share of districts 
        with declining or flat funding may be even greater than two-
        thirds because of the way the State set-aside for school 
        improvement is applied. This means that most school districts 
        are receiving less or the same funding even as they are being 
        asked to do more than ever under NCLB.
  --Last school year, 34 States reported receiving inadequate Federal 
        funds to carry out their general responsibilities under NCLB. 
        Insufficient staffing is a major problem for State departments 
        of education, since their responsibilities have multiplied 
        greatly under NCLB.
  --In the last 2 school years, nearly two-thirds of the States 
        reported receiving insufficient Federal funds to carry out the 
        NCLB-imposed duty of assisting schools identified for 
        improvement.
    Based on these findings from our studies, we recommend that the 
Congress take the following steps:
    1. Increase the appropriations for programs under the Elementary 
and Secondary Education Act, especially Title I, since NCLB demands so 
much from school districts and States while the Federal contribution to 
education covers only 8 to 9 percent of total costs.
    2. Reject the Bush administration's recommendation to tie 
additional funding to additional duties, since State officials and 
local educators point out that they don't have enough funds currently 
to carry out the duties already imposed on them by NCLB.
    3. Support State departments of education with increased resources 
since they are the key bodies charged with developing standards, 
assessments, accountability programs, and teacher quality standards, 
among other duties.
    4. Increase funding for school improvement under section 1003(g) of 
Title I. States face serious challenges in assisting the growing number 
of schools that have been identified for improvement. Extra funding for 
this section will help States meet this challenge and provide schools 
with the resources they need to bring about change.
                       major findings on funding
    Since 2002, the Center on Education Policy has monitored the State 
and local implementation of the No Child Left Behind Act by surveying 
all 50 State departments of education, surveying a nationally 
representative sample of school districts, conducting case studies of 
38 school districts and their schools, reviewing in depth three States' 
efforts to restructure schools identified for NCLB improvement, and 
generally studying Federal, State, and local actions. Our work has 
resulted in four comprehensive annual reports and more than 20 
specialized reports, including new reports on restructuring schools in 
California and State oversight of supplemental service providers. The 
Center is totally independent, with no membership and with all our 
funding provided by charitable foundations.
    Most of our reporting on NCLB relates to issues other than funding. 
Some of the areas we have studied include whether student academic 
achievement has increased, how many schools have been identified for 
improvement, how States have changed their NCLB accountability plans, 
what kinds of instructional and curricular changes NCLB has spurred, 
and what effects NCLB is having on teacher quality. We have also looked 
at the issue of adequate funding for NCLB--in fact, it comes up often 
when we ask about other aspects of NCLB. Today, I will limit my remarks 
to our findings about funding, but I urge you to consider our other 
findings as well.
                           general nclb costs
    In 2004 and 2005, CEP asked local school districts if there were 
costs associated with implementing NCLB that were not supported by 
Federal funds. Eighty percent of the districts in our 2005 survey 
responded that there were unreimbursed costs, about the same proportion 
of districts as in 2004. In 2005, greater proportions of small 
districts than very large districts reported that there were costs 
associated with NCLB not covered by Federal funds. Districts listed a 
variety of unsupported costs. Many mentioned the costs of professional 
development and training for teachers and paraprofessionals to meet the 
NCLB qualifications requirements. Several others reported that they had 
to hire staff to support instruction and assessment. Many districts 
said that some NCLB administrative costs were not covered by Federal 
funds or that Federal dollars were not sufficient to cover the costs of 
NCLB-required interventions, such as implementing public school choice 
or providing remediation services for students performing below grade 
level. A comment from one district characterized the situation many are 
facing:
    It's taking more administrative funds to do all the reporting, 
gathering, and analyzing of data. It's costing us money . . . For 
teachers, we have to have more staff development, so we have to hire 
eight more substitutes. Also, (there are) not enough funds to cover 
teachers who aren't highly qualified. We have to pull from one pocket 
to fill another.
    Several CEP case study districts also contended that funding for 
NCLB is inadequate to cover their implementation costs. Several small 
districts, including Orleans, Vermont, and Romulus Central Schools in 
upstate New York, noted that Federal funds have not fully offset such 
costs as administering and scoring tests in additional grades, training 
and tracking the qualifications of teachers, and establishing data 
systems. Last school year, tiny Hermitage R-IV School District in 
Missouri had to divert funds from other activities to cover the extra 
costs of scoring 16 State-mandated tests in grades assessed for NCLB 
versus the 6 tests administered in past years.
    Officials in many case study districts also felt that the mandatory 
set-asides in NCLB for choice, supplementary services, and professional 
development hampered their ability to effectively implement the law. To 
comply with these set-asides, both Grant Joint Union High School 
District in California and Berkeley County in South Carolina had to 
reduce Title I allocations to individual schools, leaving schools with 
fewer resources to implement needed instructional changes.
                          title i allocations
    Comments from our surveys show that having adequate funding to 
carry out NCLB is considered a serious challenge by local school 
districts. To better understand this challenge, we must look at how 
much the Federal Government has appropriated for Title I, the principal 
program in the Elementary and Secondary Education Act, and what has 
happened with Title I allocations to school districts. But first, it's 
necessary to understand how NCLB has changed the Federal role in 
education.
    From the 1960's through the 1990's, the Federal Government focused 
on ``at risk'' students. Most Federal aid to education provided extra 
services for disadvantaged and disabled students. Beginning in 1994 
with legislation adopted under President Clinton, and culminating in 
2002 with the enactment of the No Child Left Behind Act, this Federal 
role has been broadened. Now, the Federal Government affects all public 
schools in the country, regardless of whether they receive any Federal 
aid and regardless of how many ``at risk'' students they have. Public 
school students must be tested in grades 3 through 8 and once in high 
school. States must release test scores for every school and for a 
variety of racial, ethnic, economic, and other subgroups within each 
school. A determination must be made about whether every school has 
made adequate yearly progress. All public schools need to have ``highly 
qualified'' teachers in core academic subjects. Schools receiving 
Federal Title I aid are subject to further requirements, including 
sanctions if inadequate percentages of their students achieve at the 
proficient level on State tests.
    This expanded Federal role in education is one reason why local 
educators have complained about having too few funds, even when Title I 
and certain other Federal programs received a significant boost in 
appropriations for fiscal years 2002 and 2003. The Federal role in 
education has expanded from affecting about 25 percent of students who 
were ``at risk'' to affecting all students, while the Federal share of 
total revenues for elementary and secondary education has reached only 
about 8 to 9 percent, even with those earlier funding increases.
    In this expanded role, the No Child Left Behind Act imposes 
sanctions on schools that receive Title I funds if the percentage of 
their students reaching proficiency falls short of State benchmarks for 
2 consecutive years. To carry out these sanctions--public school choice 
and then supplemental educational services--school districts must set 
aside 20 percent of their Title I grants. If a school district has not 
received additional funds--and most have not, as I describe below--then 
the district must take these funds from teacher salaries and other 
current services to set them aside for the sanctions. This is a second 
reason why educators complain about inadequate funds for NCLB.
    A third reason is that many school districts have received less or 
the same amount of Title I money since NCLB was enacted, despite 
increases in appropriations for fiscal years 2002 through 2005. This is 
due to two factors: (1) changes made by NCLB to the Title I allocation 
formulas, which directed all the new money to a smaller subset of 
districts with the highest concentrations of low-income children, and 
(2) annual updates in the census counts of poor children, which cause 
year-to-year shifts in funding. In addition, even some high poverty 
districts did not receive the full increases they anticipated because 
of the process used to fund schools identified for improvement under 
NCLB.
    To make matters worse, Federal funding for Title I and other key 
NCLB programs was cut in fiscal year 2006 for the first time since NCLB 
was enacted. We analyzed Title I allocations for fiscal year 2006--the 
funds being used by school districts in the current school year, 2006-
2007. We found that compared with their allocations for school year 
2005-2006, at least 62 percent of the Nation's school districts lost 
funding for school year 2006-2007 or received the same amount. At most, 
38 percent of school districts received any increase, and this 
proportion may actually be smaller because of the State school 
improvement set-aside discussed below. These cuts and freezes are 
attributable to the Title I formula factors mentioned above, aggravated 
by a lower appropriation.
    Last year, in his fiscal year 2007 budget request, the President 
recommended shrinking Federal education spending further, by about 3 
percent. As you know, earlier this year the Congress rejected the 
President's recommendation and instead appropriated an additional $125 
million for basic grants under Title I. These funds have not yet been 
allocated by the U.S. Department of Education, but we do not expect a 
major shift in the pattern described above for the upcoming school 
year.
    In light of the expanded Federal role in education, this 
subcommittee should consider substantially increasing appropriations 
for the Elementary and Secondary Education Act, as amended by NCLB, 
especially for the Title I program. The subcommittee may also want to 
work with the authorizing committee to find a way to provide some 
increased funding for the large majority of school districts. All 
districts are affected by the demands of NCLB, and these demands are 
accelerating as States push to ensure that 100 percent of students 
achieve proficiency by 2014.
                    state capacity to implement nclb
    Today, the Center on Education Policy issued a report on one aspect 
of NCLB--State administration of the provisions affecting supplemental 
educational service providers. These providers supply tutoring for low-
income students who attend Title I schools in their second year of 
improvement and beyond. Providers include profit-making companies, non-
profit groups, and school districts. States are charged by the law with 
evaluating the effectiveness of these services. Our report, which is 
based on survey information from 49 States in fall 2006, shows that 38 
States are not significantly overseeing whether those providers are 
effectively raising test scores for students receiving these services. 
The main reason for this lack of monitoring is inadequate funding to 
provide staff for this task.
    State education agencies are a key link in the standards-based 
reform movement embodied in the No Child Left Behind Act. These 
agencies establish the State's academic standards, the State assessment 
program, the system to determine accountability for local school 
districts, the criteria for determining teacher quality, data systems 
for reporting all this information, and assistance to help schools to 
improve after they have failed to make adequate progress under NCLB. 
Yet, States have told us that they lack the capacity to carry out their 
major responsibilities under NCLB, as illustrated in our supplemental 
services report.
    Our fall 2006 survey of all 50 State education agencies asked about 
the degree to which inadequate Federal funds challenged their capacity 
to implement various aspects of No Child Left Behind. Twenty-three 
States reported that the lack of Federal funds challenged ``to a great 
extent'' their capacity to provide technical assistance to districts 
with schools in the various phases of improvement, corrective action, 
or restructuring. Another 18 States said the lack of funding posed a 
``moderate'' challenge to their capacity to carry out this requirement. 
A lack of Federal funds also challenged States' capacity to develop the 
language proficiency assessments required by NCLB for English language 
learners. Twenty-one States reported that insufficient Federal funding 
affected their capacity to develop these assessments ``to a great 
extent,'' and 18 States said a lack of funds affected this capacity 
``moderately.'' The inadequacy of Federal funds is also affecting 
States' ability to monitor the activities of districts with schools in 
improvement and to monitor supplemental educational service providers. 
This is a serious problem when the agencies charged with carrying out 
NCLB in each State show such shortages of personnel.
    Our survey also revealed an interesting paradox: While States' 
capacity to carry out their responsibility under NCLB is hampered by 
inadequate Federal funding, local school districts turn to State 
education agencies far more often than they turn to other entities for 
help in implementing NCLB. In CEP's survey of districts conducted in 
2005-2006, 98 percent of Title I school districts received assistance 
in implementing NCLB from their State education agencies, and 75 
percent reported that this assistance was helpful or very helpful. All 
other agencies and organizations ranked lower both in terms of the 
percentage of districts that reported receiving assistance and their 
level of satisfaction with this assistance.
    For these reasons, we recommend an increase in Federal funding for 
State departments of education. One possible source of funding would be 
Title VI, Part A, Subpart 2 of the Elementary and Secondary Education 
Act, which had provided aid to State agencies in the past but has not 
been recently funded.
                     schools in need of improvement
    On February 28, CEP released a report on schools in California that 
are involved in restructuring under NCLB. Restructuring, the final 
stage of NCLB accountability, begins after a school has fallen short of 
State targets for student proficiency for 5 consecutive years. As a 
first step, schools in restructuring must develop a plan to 
dramatically revamp the school. The number of California schools in 
restructuring nearly doubled in 2006-2007 over the year before, and now 
constitutes 8 percent of the State's schools. For several reasons, 
California is ahead of many other States in identifying schools for 
restructuring, but other States will soon follow.
    State departments of education under NCLB must provide assistance 
to all restructuring schools, as well as to other schools ``in need of 
improvement,'' the earlier accountability stages of NCLB. To carry out 
these school improvement responsibilities, a State must reserve up to 4 
percent of the sum of the Title I, Part A allocations to its school 
districts; however, before a State can set aside these funds, each 
school district in the State must be held to its previous year's 
allocation level. According to our analysis of Title I allocations for 
school year 2006-2007, $508 million was supposed to be available for 
this school improvement, but instead only $308 million was available--a 
shortfall of 40 percent--because funds had to be used to hold school 
districts harmless.
    An additional route to provide funds for school improvement is 
through funding section 1003(g) of Title I. This is a separate 
authorization that is not affected by the local ``hold-harmless.'' For 
fiscal year 2007, President Bush requested $200 million for this 
purpose, and the continuing resolution appropriated $125 million. This 
was the first appropriation provided for this section since it was put 
in the law in 2002.
    This first-time appropriation is a good start, but with so many 
schools now on State lists of schools in need of improvement, and with 
more schools moving into the restructuring stage, it is important to 
increase this appropriation. States can reserve 5 percent of the 
section 1003(g) sums for State-level activities and the remainder must 
be sent to local school districts as grants to assist schools. This 
does not solve the problem of the 4 percent set-aside, which is a 
matter for the authorizing committee, but it will help.
                               conclusion
    The No Child Left Behind Act has greatly expanded the Federal role 
in elementary and secondary education without a comparable increase in 
Federal funding of education. Additional appropriations are necessary 
to maintain support for the Act and to help educators to meet its 
goals. This is a message that State officials and local educators have 
asked us to send on to the Congress as they struggle with implementing 
NCLB.

    Senator Harkin. Thank you very much, Mr. Jennings. Now we 
will turn to Gene Wilhoit, who assumed his role as executive 
director of the Council of Chief State School Officers in 
November 2006, having spent his entire professional career 
serving education at the local, State, and national levels. Mr. 
Wilhoit began his career as a social studies teacher in Ohio 
and Indiana. From 1994 to 2006 he led two State education 
agencies, as director of the Arkansas Department of Education 
and as deputy commissioner and commissioner of the Kentucky 
Department of Education.
    Mr. Wilhoit, welcome to the committee.
STATEMENT OF HON. GENE WILHOIT, EXECUTIVE DIRECTOR, 
            COUNCIL OF CHIEF STATE SCHOOL OFFICERS
    Mr. Wilhoit. Senator Harkin, thank you so much. It is a 
pleasure to be with you today and to talk about where we go 
with No Child Left Behind.
    As you noted in that introduction, I have been in two 
States over the last 13 years as chief State school officer. 
During that time a lot of things have changed. Over those 13 
years we have seen a major transformation of education. That 
radical transformation has taken us from loosely coupled 
systems to a standards-based system that is in place in 
virtually every State in the country.
    Now, what we have going in the States right now out of the 
very serious effort is that virtually every State has an 
accountability system that did not exist before, student 
standards that did not exist, data systems that did not exist 
13 years ago. We now have criteria for highly qualified 
teachers. We have consequences and rewards for school districts 
that are achieving. We have intervention strategies in place 
for school districts that are not. We are devoting resources of 
the State education agency to provide assistance.
    So this is a very different environment for State education 
agencies and we are pleased to make some comments to you about 
that role. There are people out there that hope that No Child 
Left Behind will go away. I think serious educators do not 
agree with that and in fact to a greater extent many of them 
believe that we ought to hold on to these ideals that are in No 
Child Left Behind. Those lofty goals are really our promise to 
every child in this country.
    So it is not a matter of doing the right thing. It is a 
matter of doing the things right. My comments today are around 
those issues.
    As you look at reauthorization, we think that there ought 
to be a commitment to build on the successes that we can 
acknowledge, but at the same time we are going to need to look 
very directly and confront and correct some of the problems 
that exist. I will say to you that our organization has offered 
some very specific suggestions about how we might redesign the 
approach of No Child Left Behind that is on record in Congress, 
and each of those methods of redesign are going to need 
financial support.
    We have got to invest in what we are about to do in the 
next 5 years, because this will take us to 2012. We will be so 
close to that 2014 target that has been set. So it is critical 
that we begin to think about adequate funding that will make 
this law successful across this country. We have got to make 
sure that, in addition to what we have that I just mentioned on 
the table, we are going to have two additional concerns 
pressing us in the next few years. These underperforming 
schools are increasing. As Jack noted earlier, the need to 
address very directly the needs of children inside schools, to 
meet those individual needs, to identify their problems and 
correct those problems really deserves a greater resource 
allocation than what we have right now.
    So as we move ahead and you begin to look at reinvestment, 
we think that we have got to maintain the momentum that we have 
set in place, but in order to do it it is going to take some 
continued attention. Because the States are the linchpins of 
implementation of No Child Left Behind, all of this is flowing. 
We sit between the Congress and those school districts that are 
working very hard out there. We think there are programs that 
need to be funded.
    We agree that those foundational programs need dramatically 
more money in them than we have right now. That is Title I; it 
is also the programs for special needs, children with 
disabilities, and those other kinds of programs that set the 
groundwork.
    But beyond that, I would like to use some of my short time 
to say there are three specific programs that we think, if 
funded, could make a dramatic difference. They are not high 
cost programs in terms of the overall Federal budget.
    First of all, this issue of longitudinal data systems. We 
request that you provide $100 million for this important high-
quality longitudinal data system development in States. This is 
different than what Senator Craig was talking about earlier. 
This is not a top-down data collection system at the Federal 
level. This is a bottom-up situation in the States. We at this 
point need to put in place and are putting in place data 
systems that collect information across the State, that report 
that information back to the schools that use it in a way that 
provides value added to the local school districts.
    We also in that process are looking at a number of 
situations that require upgrading of those data systems in 
order for us to make the kind of value decisions that we need.
    I was commissioner of education in Kentucky, as you 
mentioned. I received one of the 14 Federal grants. The problem 
with those--and it helped us dramatically. But the problem with 
those grants is that they were competitive. Every State needs 
that kind of assistance. With that partnership with the Federal 
Government, it would help.
    Additionally, we are working in a State collaborative to 
develop a data quality campaign with the Bill and Melinda Gates 
Foundation you probably heard about. This is a statewide 
effort. It is receiving a lot of support across the States. It 
includes the development of a center for State education data. 
This kind of a system, where we can collect all of our 
federally required data, where we can report those data back to 
the States in a way that takes a lot of the burden away, this 
utility could be used as a reporting mechanism for the States.
    Second, we would ask you that you give us some 
consideration to school improvement grants. We know that at 
this point we are going to have at least a growing number, as 
was indicated earlier, of schools that will be identified for 
improvement. That list has grown. There are over 10,000 schools 
across the country right now that are in need of State 
assistance. That list is going to grow over the next few years. 
Your support in 2007 would help us tremendously in that area.
    Finally, this issue of State assessments. We appreciate the 
work that has been made in this area, but again this is not 
completed. This is an area where we are going to have to 
advance State assessments in the next few years. We are--for 
example, the State I just came from, only $1 out of $8 in that 
whole arena to develop these highly qualified systems is in 
place. Again, we are asking that the Congress come forward with 
some assistance.

                           PREPARED STATEMENT

    These three programs, you add them up, $100 million on the 
first, $500 million and $500 million on the other two, it 
really is about $400 million. That is a lot of money, but in 
the whole scheme of things it could leverage this whole system. 
We could find that kind of money to make this a real 
development program in this country.
    Again, I appreciate the time with the committee and would 
appreciate any conversations later.
    [The statement follows:]
                   Prepared Statement of Gene Wilhoit
    Chairman Harkin, Ranking Member Specter, and members of the 
subcommittee, thank you for this opportunity to testify today about the 
funding levels needed to properly implement the No Child Left Behind 
Act. My name is Gene Wilhoit. I am the Executive Director of the 
Council of Chief State School Officers (CCSSO) and served, until 
November 2006, as the Commissioner of Education in the Commonwealth of 
Kentucky.
    CCSSO is a nonpartisan, nationwide, nonprofit organization of the 
public officials who lead departments of elementary and secondary 
education in the States, the District of Columbia, the Department of 
Defense Education Activity, and five U.S. extra-state jurisdictions. 
Over the last few years, our members have been immersed in the 
transformation to standards-based education and have assumed the 
primary responsibility to transform the No Child Left Behind Act (NCLB) 
from policy on paper to practice in classrooms over the last 5 years, 
including leading the effort to develop State content and student 
performance standards, State assessments, State accountability systems, 
State data reporting systems, State systems of rewards and consequences 
for underperforming schools, State teacher quality requirements, and 
more.
    Today, we are at a vital crossroads in education. In this (the 
21st) century's increasingly global economy and diverse society, 
education has never been more important--morally, democratically, and 
economically--to the success of every child and our Nation as a whole. 
Ours is a great challenge, to transform an education system that was 
created for the agricultural and industrial ages and in many ways still 
resembles the system our ancestors created for a simpler and very 
different time. For more than a decade, States have aggressively 
pursued the path of standards-based reform--putting in place the core 
foundations of more rigorous standards, robust assessment systems, 
accountability for schools and districts, and comprehensive data 
collection and reporting. To date, we have not seen the kind of 
dramatic returns in student achievement that we must see. Why is that? 
I believe that it is because we have yet to complete the theory of 
standards-based reform, at least on a national scale. It would be a 
grave mistake to abandon the solid groundwork that is just now 
beginning to show results. To see the kind of dramatic transformation 
we need in education, we must invest and finish what we have started, 
with continuous efforts to not only strengthen standards, improve 
assessments, enhance data quality, improve teacher performance, and so 
forth, but also with new investments to assist and intervene in 
underperforming schools, provide each student with a range of options 
and interventions to meet his/her individual needs, and break down 
barriers between K-12 and higher education. Nothing is more important 
to the future of our Nation and our world, and the Nation's chief State 
school officers are committed to this work. But it will take 
investments at all levels.
    The No Child Left Behind Act is part of this story. When Congress 
enacted NCLB in 2001, State education reform efforts were uneven. Five 
years later, through strong State and local leadership, NCLB's core 
foundational reforms are widely in place. This incredible 
transformation, however, came at a sizable, and ongoing, cost to States 
at a time when many State budgets are strained and when staff within 
State education agencies has been reduced. As you know, significant 
State investments were needed to make up the difference between NCLB's 
requirements and authorized funding levels and actual Federal support 
to implement the law. As a long-time chief State school officer in both 
Kentucky and Arkansas, and as someone who has worked in education at 
the Federal level, I know the primary role that States and districts 
play in education funding, and I know the common difference between 
Federal authorizations and Federal appropriations. But we have to ask 
ourselves: If we agree that education is among the single most 
important investments we can make to secure the long-term future of 
individuals and our Nation in the 21st century, why would we tolerate 
every year a known and significant difference between what we judge it 
will take to implement our Federal education policies and what we are 
willing to pay for them? Thanks to State initiatives and to NCLB, we 
now have systems of accountability and transparency across our Nation's 
public schools. Now is the time to invest in those systems, even as we 
continuously improve them, so that we can move from ``no child left 
behind'' to every child a graduate, prepared for higher education, 
workforce, and citizenship.
    To maintain the momentum achieved since the passage of NCLB, 
increased Federal investments are needed in many areas, particularly as 
States seek to build upon NCLB's reforms and promote greater innovation 
and action. The NCLB reauthorization process offers Congress an 
opportunity to examine the law's overall funding requirements and to 
help ensure that the next stage of standards-based reform shifts from 
the law's current focus on prescriptive compliance requirements to a 
dynamic law focused on providing real incentives for innovative State 
and local models--along with fair and meaningful accountability for 
results.
    Between now and the time you reauthorize the law, however, there 
are several immediate investments that Congress can make to ensure that 
States, districts, and schools have the resources they need to 
successfully implement the law. These investments include increased 
funding for Title I, Part A; Title V, Part A; Teacher Professional 
Development; and Education Technology State Grants. CCSSO sent a letter 
this morning--March 14--to House and Senate appropriators making the 
case for our fiscal year 2008 appropriations priorities as you craft 
your respective bills for mark-up this spring. Our appropriations 
letter was submitted along with my written testimony.
    In addition to these priorities, I would like to use my time this 
afternoon to focus on three specific programs that--if adequately 
funded--are capable of making a major impact on student achievement in 
a short period of time. If they are not adequately supported, I fear we 
will negatively impact the progress we have made. The first priority is 
the statewide data systems grant, which currently supports competitive 
awards to State education agencies to foster the design, development, 
and implementation of longitudinal data systems. The second is the 
school improvement grants program, which helps States provide 
assistance to districts and schools identified for improvement. The 
third is the State assessments program, which provides formula grants 
to States to help pay for the cost of developing the standards and 
assessments required by NCLB.
                       longitudinal data systems
    CCSSO respectfully requests that you provide $100 million to 
implement high-quality longitudinal data systems in every State by 2009 
and to develop a Center for State Education Data. To move reform ahead, 
all States must have real-time capacity to collect, report, and 
effectively use information, to standardize reporting to the Federal 
Government and to work with districts and schools to strengthen data 
quality and better use data in teaching and learning. While I was 
Commissioner of Education in Kentucky, we were privileged to receive 
one of the 14 competitive data systems grants, and with the Federal 
resources, we were able to leverage the State investments to improve 
our collection system, enhance our ability to track individual student 
progress, provide teachers with powerful technology-based tools to 
assist student learning and enhance our reporting system. Every State 
should have a similar partnership with the Federal government. 
Unfortunately, current funding levels are insufficient to ensure a 
rapid national build-out of these systems, and without further 
investments, educators and policymakers will continue to lack the vital 
information needed to most effectively modify policies and practices to 
improve student achievement.
    CCSSO has been working closely with its members, with other 
national organizations participating in the Data Quality Campaign, with 
the Bill and Melinda Gates Foundation, and with the U.S. Department of 
Education in an effort to expand States' data capabilities, including 
the development of a Center for State Education Data. This effort would 
help strengthen State data and reporting systems (including through 
funding for State data coordinators); provide a one-stop collection, 
repository, and dissemination utility that will collect all federally 
required data as well as additional educationally appropriate data; 
store such data for Federal and State reporting requirements; and 
disseminate such data as required and/or requested by Federal agencies 
or research entities--with the overall goal of improving student 
achievement and closing achievement gaps. Additional Federal support 
would provide a critical boost to this important effort to give 
educators one of the tools they most need to succeed.
                       school improvement grants
    CCSSO respectfully requests that you provide at least $500 million 
for Title I school improvement grants (section 1003(g)). During the 
past year, many new schools and districts have been ``identified for 
improvement'' under the accountability requirements of NCLB. As we move 
forward with implementation, more schools and districts will be 
identified as not making adequate yearly progress. Struggling schools 
and districts must have access to sound technical assistance and 
additional resources before they fall further behind. NCLB correctly 
requires States to offer such assistance and authorizes the Secretary 
of Education to award grants to States for school improvement 
activities at the district and State levels. Congress, for the first 
time, provided $125 million for the program through the fiscal year 
2007 continuing resolution, but additional resources are needed to 
serve the 10,214 schools identified for improvement in 2006-2007. Your 
support for school improvement funding for fiscal year 2007 is deeply 
appreciated and must continue for fiscal year 2008 if States are going 
to successfully turn around these struggling districts and schools.
                           state assessments
    CCSSO respectfully requests that you allocate at least $500 million 
for development and implementation of the State assessments required by 
NCLB. As you know, valid and reliable testing and accountability 
systems are vital components of the Act. Significant, ongoing resources 
are needed to ensure that States can properly design, improve, and 
implement high quality assessments across the board. Recent Federal 
appropriations, however, have covered only a portion of the funding 
needed to satisfy NCLB's testing requirements. For example, in Kentucky 
the Federal allocation for State assessments is $6.1 million. However, 
we are spending over $50 million in State resources. The Federal 
resources have allowed us to fill in the previously untested 3-8 grades 
and to bring our State program into compliance with NCLB. As we move 
forward, we know that we will need to provide quick turnaround 
documents to teachers and administrators to help them address student 
needs, enhance professional development, build better assessments that 
truly reflect what students know and are able to do, and develop better 
ways to measure learning for English language learners and students 
with disabilities. Most of these costs will be assumed by states, but 
Federal resources will be critical to this work. The time has come to 
rectify this shortfall.
    Thank you again for the opportunity to testify today, and I look 
forward to continuing these discussions as the fiscal year 2008 
appropriations (and NCLB reauthorization) process moves forward. I 
would be pleased to answer any questions you may have about my 
testimony.

    Senator Harkin. $400 million?
    Mr. Wilhoit. Well, if you subtract from that $1.1 billion 
the amount of money that is in the current budget submitted by 
the Department, we are about $400 million apart from being able 
to fund those programs. It is about $416 million precisely. We 
can find----
    Senator Harkin. My quick calculation is that is about a day 
and a half in Iraq.
    Mr. Wilhoit. Yes. Is in the choice program right there.
    Senator Harkin. Next we go to Dr. Deborah Jewell-Sherman, 
who has served as Superintendent of Richmond Public Schools 
since 2002, received her doctorate degree from Harvard 
University, Undergraduate degree from NYU, master's degrees 
from King College and Harvard University. Dr. Jewell-Sherman 
began her tenure in Richmond as associate superintendent for 
instruction after serving as an educational leader in New York, 
New Jersey, and Fairfax County, Hampton, and Virginia Beach in 
Virginia.
    Dr. Jewell-Sherman, welcome to the committee.
STATEMENT OF DEBORAH JEWELL-SHERMAN, Ph.D., 
            SUPERINTENDENT, RICHMOND PUBLIC SCHOOLS
    Dr. Jewell-Sherman. Thank you, Chairman Harkin. It is my 
pleasure to be here this afternoon to represent Richmond Public 
School Board, my RPS colleagues, and most importantly our 
25,000 students. I thank you for the opportunity to testify 
today regarding funding for NCLB and its impact on our schools 
and our students.
    As you stated, the law was signed in 2002, which was the 
year that I began my superintendency, and in preparing this 
testimony the coincidence was inescapable to me. NCLB is 
focused primarily on disadvantaged and minority students, and 
of the 25,000 students in Richmond that I daily serve 70 
percent qualify for free or reduced lunch, 89 percent are 
African American, 19 percent are students with disabilities, 
and our Hispanic English language learners are the fastest 
growing segment of our population. A significant number of our 
students come from single parent homes and reside in low income 
housing.
    We all know that No Child Left Behind demands 
accountability for student academic progress and requires 
specialized efforts to turn around low performing schools. I 
was very pleased that in 1998 in our State of Virginia the 
standards of learning assessments were implemented, and they 
focus on four core areas. That process began holding all of our 
schools accountable for accreditation. 70 percent of the 
students had to pass each of those areas.
    Initially in Richmond only two of our schools earned full 
accreditation. By 2002 that number reached ten and the board 
hired me to accelerate that process. I am pleased to report 
that in 2003 we more than doubled the number of accredited 
schools from 10 to 23 of our 51. We went to 39 in 2004, 45 in 
2005, and 44 in 2006.
    Regarding the Federal benchmark of adequate yearly 
progress, our students have shown a similar pattern of 
progress. In 2003, 12 or 23 percent of our schools made AYP; in 
2004 27 or 53 percent; in 2005 41 or 82 percent; and last year 
40 or 78 percent of our schools.
    Having one of our schools, Jeb Stuart, named a 2006 
National Blue Ribbon School was a very proud moment for our 
district. However, this type of progress does not happen by 
accident, nor does it happen overnight. It takes commitment and 
leadership on the part of our board and central office, and 
certainly the commitment and dedication of principals, 
teachers, and all other school staff. And most importantly, it 
takes hard work.
    We instituted major changes in instructional strategies, 
programs and practices and supported the implementation of 
these initiatives at the school and classroom level. I have 
listed a number of these strategies in my written testimony.
    Mr. Chairman, these types of instructional reforms also 
take money. The district was the beneficiary of a substantial 
infusion of Federal education funds that initially accompanied 
No Child Left Behind. These funds helped us in virtually all of 
our instructional initiatives, particularly in implementing 
intervention models for identified low-performing schools, 
supporting tiered classroom strategies with additional 
materials for underperforming students, supporting better in-
service teacher training, deploying outside educational 
consultants, and providing classroom level coaching and 
mentoring. Concentrating improvements on classroom level 
implementation and support has been the key to our success, 
with our stellar teachers as our primary asset.
    Richmond's regular Title I formula allocations increased 
during my first 3 years as superintendent by $1.5 million, $1 
million, and $1.5 million respectively from 2002 to 2004. In 
2002 our Title II allocation jumped by $1.9 million. Our school 
improvement funding began at $1.6 million and climbed to $1.8 
million in 2003. These funds helped us underwrite our 
systemwide transformation.
    As the second lowest performing district in Virginia, 
Richmond was one of the first to receive targeted assistance 
from our governor and we are very appreciative of that. We are 
also appreciative of the fact that on a pro bono basis we had 
on-site assistance from school district educators from the 
Council of the Greater City Schools.
    Unfortunately, the infusion of NCLB funding early in my 
tenure has now dropped off, and that has been spoken about at 
length. In the past year our regular Title I allocation 
declined by nearly $800,000. Our NCLB school improvement 
allocation from the State has also declined sharply, from a 
high of $1.8 million to $650,000 this school year.
    In Richmond I worry every day whether we can sustain and 
expand the academic progress that our teachers and 
administrators have worked so hard to achieve and that our 
community deserves. Our annual student mobility rate averages 
40 percent. Our increasing limited English proficient 
population and our teacher turnover rate of approximately 9 
percent means that each year will present a new set of students 
and a new set of challenges in virtually every school.
    Therefore I respectfully recommend that the committee 
consider a sustained and predictable increase in Title I 
formula funding for school districts that by statute will be 
allocated broadly to schools with the largest concentrations of 
disadvantaged students. I would encourage the same approach of 
sustained and predictable increases for other key programs, 
such as Title II, III, and IDEA. The current NCLB 4 percent 
set-aside for specially focused school improvement grants from 
the States seems to strike the right balance.

                           PREPARED STATEMENT

    We are proud of our progress. We are pleased that 
colleagues from other Virginia communities come to Richmond the 
find out how to address the achievement gap. Sustaining that 
progress, however, is a daily challenge.
    I appreciate, Chairman Harkin, the opportunity to discuss 
this matter with you further and for the opportunity to testify 
today.
    [The statement follows:]
            Prepared Statement of Dr. Deborah Jewell-Sherman
    Good morning Chairman Harkin, Senator Specter, and members of the 
Committee. I am Deborah Jewell-Sherman, superintendent of Richmond City 
Public Schools in Richmond, Virginia. I represent the School Board and 
25,000 students. Thank you for the opportunity to testify regarding 
funding for No Child Left Behind Act and its impact on our schools and 
our students.
    The No Child Left Behind Act (NCLB) was signed into law on January 
8, 2002 and began implementation in school year 2002-2003. My first 
year as superintendent of the Richmond Public Schools was in 2002 as 
well. In preparing this testimony, the coincidence was inescapable.
    No Child Left Behind is focused primarily on disadvantaged and 
minority children. Of the 25,000 Richmond students whom we serve, 
nearly 70 percent qualify for free or reduced price lunch, 89 percent 
are African American, 19 percent are students with disabilities, and 
our Hispanic English language learners are the fastest growing segment 
of our population. And, a significant number of our students come from 
single-parent homes and reside in low-income housing.
    No Child Left Behind demands accountability for student academic 
progress and requires specialized efforts to turn around low-performing 
schools. The State of Virginia implemented its Standards of Learning in 
four core subjects and began holding schools accountable for an 
accreditation standard of 70 percent of students passing these State 
assessments. Initially, only two of Richmond's schools earned full 
accreditation. By 2002 that number reached 10 schools. The Richmond 
School Board hired me to accelerate that school improvement process. In 
2003, we more than doubled the number of accredited schools from 10 to 
23 of our 51 schools. We went to 39 in 2004, 45 in 2005, and 44 in 
2006. In meeting the Federal NCLB benchmark, Adequate Yearly Progress 
(AYP), our students have shown a similar pattern of progress. In 2003, 
12 or 23 percent of our schools made AYP; in 2004, 27 or 53 percent 
schools; in 2005, 41 or 82 percent and in 2006, 40 or 78 percent of our 
schools.
    This type of progress does not happen by accident, nor does it 
happen overnight. It takes commitment and leadership on the part of the 
School Board and central administration and an expectation and a focus 
on student academic success on the part of our principals, teachers and 
all other school staff. It also takes hard work. We instituted major 
changes in instructional strategies, programs and practices, and 
supported the implementation of these initiatives at the school and 
classroom level, including:
  --Developing a district-wide curriculum, and instituting research-
        based programs;
  --Aligning the curriculum to State academic standards and State 
        assessments;
  --Adopting a managed instructional theory of action;
  --Creating district-wide instructional models and interventions;
  --Reducing site-based decision-making, and prohibited competing and 
        non-aligned programs, textbooks, and other materials;
  --Developing a reservoir of instructional tools for classroom 
        teachers, including lesson plans for each academic standard, 
        pacing guides, sample activities, sample assessment, and 
        technology integration;
  --Developing benchmark and other formative assessments to augment the 
        annual State assessment data in order to guide central office, 
        principal-level, and classroom-level instructional decisions;
  --Deploying central office resources and academic coaches to schools 
        and classrooms to support curriculum implementation, school 
        improvement planning, and differentiated instruction;
  --Redesigning professional development to support implementation of 
        these system-wide reforms as well as improve staff morale and 
        professional interaction;
  --Initiating systematic monitoring of instructional implementation 
        with an internal accountability system of yearly targets and 
        professional feedback, and a Balanced Scorecard to ensure 
        transparent tracking of processes and outcomes.
    Mr. Chairman, these types of instructional reforms also take money. 
The district was the beneficiary of the substantial infusion of Federal 
education funds that initially accompanied the No Child Left Behind 
Act. These funds helped us in virtually all of our instructional 
initiatives, particularly in implementing intervention models for 
identified low-performing schools, supporting tiered classroom 
strategies with additional materials for under-performing students, 
supporting better in-service teacher training, deploying outside 
educational consultants, and providing classroom-level coaching and 
mentoring. Concentrating improvement efforts on classroom-level 
implementation and support has been the key to our success with our 
teachers as our primary asset.
    Richmond's regular Title I formula allocations increased during my 
first 3 years as superintendent by $1.5 million, $1 million, and $1.5 
million respectively from 2002 to 2004. In 2002, our Title II 
allocation jumped by $1.9 million. Our School Improvement funding began 
at $1.6 million, and climbed to $1.8 million in 2003-2004. These funds 
helped underwrite our system-wide transformation.
    As the second lowest performing district in Virginia, Richmond was 
one of the first districts targeted for help under Governor Mark 
Warner's Partnership for Achieving Successful Schools (PASS). At the 
same time, Richmond was the beneficiary of ``pro bono'' on-site 
assistance from nearly a dozen of the best instructional, special 
education, and Federal program managers among the Great City Schools. 
Actually, a portion of the costs of these site visits, instructional 
and management reviews, and formal recommendations from these top urban 
educators were underwritten by Federal funding from Secretary Rod 
Paige. In fact, the instructional improvement and reform plan that 
Richmond designed with our urban colleagues was adopted by the State of 
Virginia and the Richmond Public Schools in a formal memorandum of 
understanding.
    Unfortunately, the infusion of NCLB funding early in my tenure as 
superintendent has now dropped off. In the past year Richmond's regular 
Title I allocation declined by nearly $800,000. School level Title I 
allocations have dropped by some 10 percent. Our NCLB school 
improvement allocation from the State has also declined sharply, from a 
high of $1.8 million to $650,000 this year. Our Title II allocation has 
not increased for 4 consecutive years. Our Federal educational 
technology grants and our safe and drug free schools grants have 
declined by 35 percent and 33 percent respectively. Moreover, 
Richmond's IDEA funding declined for the first time in anyone's 
recollection this school year 2006-2007.
    Speaking from a national perspective, the majority of the Nation's 
school districts have had their ESEA Title I allocations frozen or cut 
for Federal fiscal years 2004, 2005, and 2006. The 2007 district level 
Title I allocations have yet to be issued, so there is uncertainty 
about whether a similar pattern of freezes and cuts will occur for a 
fourth consecutive school year. Nationally, schools and school 
districts are in desperate need of additional Title I funding to meet 
the increasing NCLB performance requirements, to address mandated NCLB 
expenditures, to retain highly qualified teachers, and most 
importantly, to make significant progress in closing student 
achievement gaps.
    In Richmond, I worry every day whether we can sustain and expand 
the academic progress that our teachers and administrators have worked 
so hard to achieve and that our community deserves. School success in 1 
year does not guarantee success in upcoming years. Our annual student 
mobility rate of averages 40 percent, our increasing limited English 
proficient population, and our teacher turnover rate of approximately 9 
percent means that each year will present a new set of students and a 
new set of challenges in virtually every school. Developing building-
level and classroom-level capacity is an on-going process, especially 
with teachers and principals leaving for higher pay and less intense 
environments.
    I am concerned that focusing major investments on a limited number 
of under-performing schools can divert attention and resources away 
from other schools that face identical challenges and are on the brink 
of some of the same problems. As Richmond superintendent, I have 
benefited from a substantial infusion of supplemental funds, and have 
struggled to adjust to a substantial decline in that funding. In 
hindsight, I believe that sustained and predictable increases in 
funding for school districts, rather than a large boost in funding for 
particular schools followed by the inevitable decline, are more 
beneficial for coherent planning and implementation of instructional 
reforms.
    Therefore, I respectfully recommend that the Committee consider a 
sustained and predictable increase in Title I formula funding for 
school districts that--by statute--will be allocated broadly to schools 
with the largest concentrations of disadvantaged students. I would 
encourage the same approach of sustained and predictable increases for 
other key programs such Title II, Title III, and IDEA. The current NCLB 
4 percent set-aside for specially-focused School Improvement Grants 
from the State seems to strike the proper balance of systematic 
investment through Title I formula grants and focused assistance for 
certain failing schools. With a low-income rate of 70 percent, some of 
our 44 fully accredited schools could easily join our remaining under-
performing schools if attention, support, and resources are not 
properly balanced.
    We are proud of our progress. We are pleased that colleagues from 
other Virginia communities, including suburban communities, are coming 
to Richmond to talk with us about how to address the achievement gaps 
of low-income and minority students. Sustaining that progress is a 
daily challenge. I am particularly appreciative to Chairman Harkin, 
Senator Specter, and your colleagues for stemming the tide of the 
education budget cuts of recent years and hopefully getting the Nation 
back to investing in education.

    Senator Harkin. Thank you very much, Dr. Jewell-Sherman.
    Next, welcome, Jane Babcock. Ms. Babcock has served as 
superintendent of the Keokuk, Iowa, Community School District 
since 1999. She began her career in education as an elementary 
school teacher in northwest Iowa. She originally came to Keokuk 
as an elementary principal, then became curriculum director and 
assistant superintendent.
    Ms. Babcock, welcome to the committee.
STATEMENT OF JANE BABCOCK, SUPERINTENDENT, KEOKUK 
            COMMUNITY SCHOOL DISTRICT
    Ms. Babcock. Thank you. I am so honored to be here to 
represent my State and the educational team of Iowa during this 
subcommittee session.
    As you know, Iowans--I am from the Midwest--we always have 
to begin with a story. I do not have a fishing story. That is 
what my dad might tell. But I am going to start with a story. I 
have a picture. We talk about students who are at risk.
    Senator Harkin. You might turn it so that camera sees it.
    Ms. Babcock. Okay.
    You will see five children there. These children are all 
adopted. They live in a single parent home. Two of these 
children have a Chinese cultural background. The other three 
came from the foster care system. They are 7, 9, 9, 11, 16. Did 
I name five? Yes.
    These children have all participated in the programs that 
we have talked about today and that I have listed in my 
statement. You need to know I am usually a person who speaks 
from a little card like this, so I am trying to follow what I 
have written.
    The 16 year old participates in the Success Center, which 
is a program that was funded through State funding and a 
combination of Federal. It is at the high school. It is 
provided after school for tutoring. The four youngest children 
attend Kid Zone, which is a before-school, after-school program 
funded by the 21st century grant, which originally started with 
Federal and State funds. In addition, my one son, who is 9, has 
participated in Title I in the years that he has been with me, 
which is about 2 years.
    You might guess this is a family of a single parent person 
who is very busy, has lots of meetings, and they are mine. So 
when I talk about this topic you need to understand that when I 
went to Keokuk 17 years ago I was going to go and stay a year. 
Keokuk has a wonderful spirit. It is the southeast--they call 
it, what, the Florida of Iowa.
    It is a place where we boast of a historical perspective 
related to the Civil War and we have a wondrous river of 
beauty. We are diverse in heritage and cultural background. We 
serve 2,319 K-12 students. It is located in the most southeast 
point of the State and we represent an economic spectrum from 
poverty to prosperous.
    You will find, I believe, we used to have the third highest 
tax rate in the State, which of course is not a popular place 
to be. I believe now we are at tenth. We are one of those 
places where just raising the levy to provide services is not 
something we can do in our community without an economic 
decline, a loss of business.
    We are a place where the diversity is important to us. We 
embrace it. We have about 10 percent minority. We have one 
building that has 90 percent poverty. The average for my seven 
buildings, which is the K-12, is 54 percent of free and 
reduced.
    With any diverse community, we have a unique set of student 
community needs. Utilizing the NCLB philosophy and policy, we 
strive for educational excellence for everybody who goes there. 
While doing our best to meet those needs, we still have ended 
up on the infamous schools in need of improvement list. I also 
have a school that ended up on the President's blue ribbon 
list. Ah, so we see a real dichotomy.
    We have all of our people working hard. We work. We have 
our middle school on for reading and math this year and our 
high school on for reading and math and the district for the 
graduation rate. I say to you, you know what, this does not 
represent my district, this does not tell about my working 
staff, it does not tell about all the strategies that we do. 
There is not enough money or time for us to do everything we 
need to do to serve all of our kids of diversity.
    When you talk about Ruby Pain and all the different things 
we need to do, we are doing them. I could go through and in my 
testimony you will see all the things that we are doing.
    If you have seen the Register, Senator Harkin, you will see 
that I have the highest dropout rate. Okay, which has been 
highly publicized. There are many reasons for that. Twenty-
seven of those students have gotten their GEDs. That does not 
count. The students have gone on and finished in 5 years are 
not included in there.
    So it is an unusual year. I can go through and list the 
other years where our graduation rate is much higher, but it 
does not matter. This year I am in the news for graduation 
rate. As you know, superintendents are often in the news, but 
it is not necessarily the way I would like to be there.
    As far as our allocation, I am a high poverty district. I 
think if you look only 4.6 percent of the Iowa elementary and 
secondary schools are really receiving Federal funding. You 
will find in my district that in 2001 I received $485,000. Now 
I am down to $471,000 or less in that allocation.
    I serve K-3 students in Title I. Ten years ago you would 
have seen me probably serving all K-5 students. It has been 
many, many years since any of our middle school students had 
Title I services and I can find no record of high school 
students receiving Title I funds in my district.
    One of the things that I think is really important for us 
to remember is that we are working--we have started in the 
elementary and that had happened in our district before No 
Child Left Behind, or ``NCLB.'' But you know, and it is moving 
through, and we are seeing progress. But do not forget the 
middle school. Do not forget those middle school kids who have 
all of these needs, too. Yes, our high schools are in the news 
and we know we have to do things differently and we are working 
on resiliency, all of those important pieces. But the middle 
school kids need that, too.
    Are we working hard? Yes. Do we want all kids to be 
successful? You bet. Do we search for outside resources? You 
know how people say, get out there and find some more funds. We 
in the last 10 years, the assistant superintendent in my 
district and her team have secured more than $10 million in 
grant funds for our district. Thank you, Senator Harkin; some 
of them were the construction grant funds that you provided us. 
Is it enough? No, obviously it is not.
    Have they made a difference? Yes. I have a brand new middle 
school. I have an alternative school that is new. In our 
community they passed the one-cent sale, the local option. 6 
months later they passed a bond election. I do not think you 
will find anywhere else that has happened. But the bottom line 
is it is not enough.
    We analyze our data. We look for gaps. We base all of our 
instruction on local standards and benchmarks. We work on the 
core curriculum, but we have also got to remember that we have 
those social and emotional skills to work on also.

                           PREPARED STATEMENT

    I have listed for you also in the testimony some of the 
other things that we are doing. So what I guess I would ask for 
you to do today is remember that when we want to show the 
families we care about them that we need to remember before-
school, after-school, I serve 300 kids a day. After this year, 
unless I find some additional funding, that will go away. That 
is my tutor program. That is it. That is what does it.
    So thank you.
    [The statement follows:]
                   Prepared Statement of Jane Babcock
    It is my honor to represent my State and the educational team of 
Iowa during this Senate session. As No Child Left Behind progresses, we 
all continue to learn together. The focus for each of us . . . is the 
educational success for the students of our country.
    I am the Superintendent of the Keokuk Community School District. 
Our community boasts of a historical perspective grounded in the Civil 
War and wondrous river beauty. Diverse in heritage and cultural 
background, we serve 2,319 K-12 students. The community, located in the 
most southeast point of the State, represents an economic spectrum 
ranging from poverty to prosperous.
    The levels of building poverty average 54 percent with a high of 90 
percent and above. With diversity comes a unique set of student and 
community needs. Utilizing the NCLB philosophy and policy, we strive 
for educational excellence for all. While doing our best to meet 
students and staff needs, we still find ourselves on the infamous 
``list'' for Middle School reading and math, High School reading and 
math, and finally as a District for our graduation rate.
    We are a district receiving Title I funding. In the last 6 years, 
Title funding has decreased for more than half of the districts in 
Iowa. For my district, the 2001 allocation of $485,000 was reduced to a 
$471,000 allocation by 2007. Utilization of the funding has been 
focused on teaching specialized reading strategies to the elementary 
students of our district. Currently, needy K-3 students are identified 
and served twenty minutes a day. A decade ago, you would have observed 
K-5 students receiving these services. It has been many, many years 
since Middle School students have received Title I services. And there 
are no records documenting Title I funding utilized at the High School 
Level.
    Are we working hard? Yes! Do we want all kids to learn and be 
successful community members! Yes! Do we search for outside resources? 
Yes! In the last 10 years, Dr. Lora Wolff, Assistant Superintendent for 
Curriculum and Technology, has secured more than $10 million in grant 
funding. Is it enough? No? Have the additional funds made a difference? 
Yes? But we need more resources!
    Let's talk about the data we are analyzing now:
  --Accelerated Reader (K-12);
  --Accelerated Math (K-8);
  --Early Literacy Testing;
  --STAR Testing;
  --Iowa Test of Basic Skills/Iowa Tests of Educational Development; 
        and
  --Basic Reading Inventory
    We analyze the data and focus instruction on identified gaps. 
Curriculum and instruction is based on locally developed standards and 
benchmarks. We are working to provide our students the core curriculum 
as well as those social and emotional skills required for survival in 
our complicated world. Listed below are the districtwide activities you 
would observe on a visit:
  --Sixty minute reading block: K-5;
  --Ninety minute reading/language arts block at Middle School level;
  --Reading Improvement Class offered to select High School students;
  --Success Center: After school Monday-Thursday;
  --7-12 Learning Center providing alternative education programming;
  --Kid Zone: Before School/After School program serving over 800 K-5 
        students;
  --Transition Class for 9th Grade;
  --High School Resource Officer serving Middle School and High School;
  --Collaborative effort to provide citywide Character Education has 
        begun;
  --First ninety minutes of each day off limits for any activity not 
        related to reading and math;
  --IEP's written based on district standards and benchmarks; and
  --Special Education and Regular Education instructors team teaching 
        the core classes.
    When discussing ample funding, I would be remiss not to talk a few 
minutes about our Kid Zone program. In the beginning, the program was 
funded by State and Federal 21st Century dollars. As the Federal 
dollars decreased, we had to make hard decisions about what activities 
to eliminate. Key to this programming are activities directly related 
to the District standards and benchmarks and grade level curriculum 
maps. Homework rooms are available for students needing assistance with 
homework completion and/or skill acquisition. A structured schedule is 
provided for the average 300 students attending daily. The focus is 
academics and skill building.
    Again, funding was appropriate when the program was initiated. We 
made a recorded difference in student learning and achievement. Where 
is the funding to come from now to continue this program? The police 
department has noted a 40 percent decrease in adolescent crime since 
the program's inception. Juvenile crime has decreased, student 
participation in Kid Zone continues to increase! We also see the number 
of crimes against children declining. Our police chief, Tom Crew, 
credits the supervision provided by Kid Zone as the source of this 
decline.
    We spoke with a mother recently regarding the possibility of losing 
Kid Zone and she broke down in tears. She explained that she would 
never have made it through college after her divorce and would be 
afraid of losing her current job without the support from Kid Zone. 
Knowing her child is safe and getting homework done, along with the 
extra help needed for his disability, reduced a stress she felt she 
couldn't face alone so that she could be a productive citizen. 
Providing quality Before School/After School funding allows our low-
income and misplaced workers the opportunity to work and complete much 
needed educational training. We are making a difference for our 
children and parents!
    Why fully fund Title I and other child centered Federal programs? 
We must do more to assist our students and raise student achievement 
for all! How about this?
  --Smaller class sizes in Middle School and High School;
  --Reading specialists at the High School level;
  --Tutors available for Middle School and High School students;
  --Flexible scheduling at all K-12 levels;
  --Summer school programs K-12 for skill building;
  --Extended credit recovery programs for 6-12;
  --In house psychiatrists and psychologists K-12;
  --Safe schools for all students in the USA;
  --Extended Before School/After School programs for K-12;
  --Equal opportunities for all kids . . . small rural communities 
        rarely qualify for Title I funding; and
  --Additional dollars for Professional Development! Don't take my 
        desperately needed Title I funds for Professional Development! 
        Give me the additional funds I need to make all instructors 
        specialized in reading and math strategies!
    We are accountable! We are doing our best! We want to give every 
child the skills they need to achieve in the world in which we live. 
Don't make districts like mine pick and choose the kids who get the 
help. Let us truly serve all . . . give us the funding we need . . . 
and we will no longer need the stringent accountability law . . . we 
can send each child on an adventure for life! Give us the funding to 
give each child the tools they need to strike out on their own! We can 
do it! Show the parents and children of our Nation you care! Fully fund 
the child centered programs we require to ensure that, indeed, No Child 
Is Left Behind!

    Senator Harkin. Thank you very much, Ms. Babcock. I have 
been to that middle school. I visited that.
    Now, Robert Slavin, director of the Center for Data-Driven 
Reform in Education at Johns Hopkins University and chairman of 
the Success for All Foundation. He received his B.A. in 
psychology from Reed College and his Ph.D. in social relations 
in 1975 from Johns Hopkins. Dr. Slavin has authored or co-
authored more than 200 articles and 20 books on education.
    Dr. Slavin, welcome again to the committee.
STATEMENT OF ROBERT E. SLAVIN, Ph.D., DIRECTOR, CENTER 
            FOR RESEARCH AND REFORM IN EDUCATION, JOHNS 
            HOPKINS UNIVERSITY
    Dr. Slavin. Thank you very much, Senator Harkin. And 
another thing you should note: I have a wife from Iowa. Just 
thought you would like to know. Grew up in the mean streets of 
West Des Moines.
    Senator Harkin. You are even smarter than your curriculum 
vitae.
    Dr. Slavin. It is not Keokuk, but--anyway, as you noted in 
your introduction, we are--we work in many States all around 
the country trying to help high poverty schools to meet all of 
the expectations that have been placed on them. In particular, 
we have a program called Success for All, a reading program, 
comprehensive school reform program, that is used in about 
1,200 schools, elementary and middle schools, in 47 States. We 
work with district people, with State departments, and really 
have a lot of experience working up and down the line in 
different levels of the education process.
    My message to you today, though, is on trying to improve 
the set of tools that are made available to schools to meet the 
standards of NCLB. I am here to urge that the committee support 
an immediate investment in research and development to help 
schools meet the ambitious goals of NCLB, that Congress should 
provide substantial funding to enable America's best developers 
and researchers to rapidly develop and rigorously evaluate new 
programs central to NCLB, in particular programs for Reading 
First, for supplemental educational services, and for 
turnaround programs for struggling schools.
    My experience is that educators and schools that are not 
meeting standards want to do better with their kids, but they 
need more effective tools--training, materials, and so on, 
based on the best research we know how to do.
    Without waiting for the full NCLB reauthorization, Congress 
could jump-start research and development that would greatly 
help these educators to do what they are there to do. Now, you 
might ask, are not schools already implementing proven programs 
in each of these areas? The fact is that despite more than 100 
mentions of scientifically based research in NCLB, research-
proven programs are rarely being implemented in any aspect of 
NCLB.
    Any program can claim to be based on scientifically-based 
research, but programs that have actually been found to be 
effective in comparison to control groups are rare. If you 
applied stringent criterion for evidence of effectiveness 
today, most people who are aware of the research would say that 
there are only a couple of programs, our Success for All 
program and one called Direct Instruction, that would meet that 
standard, and even those programs were not used on any 
significant scale in Reading First as turnaround models or in 
SES.
    One reason for this is that no one wants to base policies 
on just two programs. In essence then, what I am asking you to 
do is to provide substantial funding to create competitors for 
Success for All. The rationale for using proven programs I 
think is very simple: Use what works. Who could be against 
that? But somehow in education we continue to use what is 
popular or what is well marketed, not what works. I think that 
is the most important change we must make.
    I would propose that the U.S. Department of Education be 
given a special fund of $100 million, although listening to the 
conversation today I am not asking, clearly not asking for 
enough--only $100 million, maybe 5 minutes in Iraq, to use to 
greatly accelerate research and development of programs for use 
in NCLB. What I am talking about is having funds used to do the 
following: First, to fund developers to create and evaluate new 
approaches in each of those targeted areas.
    Second, based on reviews of programs in small-scale 
evaluations, to select programs in each area that appear 
particularly promising and fund large-scale randomized 
evaluations of those programs and also of promising existing 
programs.
    Third, fund nonprofit developers of proven programs to help 
them create capacity for training, materials production, and so 
on, so that they can scale up their programs rapidly.
    Fourth, disseminate information about effective programs 
and provide incentives for schools to adopt them.
    Grants for these purposes must be large enough to enable 
developers and researchers to do high-quality development and 
evaluation within a reasonable time period. R&D in education is 
not cheap. Let me just give you an example. In the previous 
administration we had a grant to develop a comprehensive reform 
program for middle schools. We did it. The evaluations came 
back, found the program to be very effective. But it cost $12 
million.
    IES today is giving grants for development that have a 
maximum of $500,000 a year. At that rate, it would have taken 
us 24 years to develop our middle school model.
    Others also support the need for substantial funding for 
R&D to solve the problems of NCLB. The recently released Aspen 
Institute ``Beyond NCLB'' report proposes doubling IES funding 
for research and development, and we agree. But we would just 
add that this new funding should focus on innovative programs 
for struggling schools.
    America's greatest asset in the world economy is its 
capacity for innovation, development, and research, its 
entrepreneurial skills in taking good ideas to scale. However, 
these assets have rarely been applied in the field of 
education. A targeted funding program like the one I am 
proposing could help make American educational programs the 
standard of excellence in the world and help millions of 
children to reach levels of academic success that have never 
before been achieved at scale.

                           PREPARED STATEMENT

    I look forward very much to your questions and there is of 
course more detail in my written testimony. Thank you.
    [The statement follows:]
                 Prepared Statement of Robert E. Slavin
    Mr. Chairman and Members of the Subcommittee: I am pleased to have 
the opportunity to speak with you today about the need for accelerated 
development and evaluation of programs critical to No Child Left 
Behind.
    First, I should introduce myself. I direct the Center for Data-
Driven Reform in Education (CDDRE) at Johns Hopkins University, funded 
by IES to develop and evaluate district-wide strategies for helping 
schools meet their State standards. I am also Chairman of the Success 
for All Foundation, a non-profit organization that develops and 
evaluates programs for high-poverty schools, from pre-K to high school. 
Our flagship Success for All program is used in about 1200 elementary 
and middle schools in 47 States. Success for All has been successfully 
evaluated in more than 50 experiments, thirty of which were done by 
third parties. Most recently, a national randomized evaluation led by 
Geoffrey Borman at the University of Wisconsin once again found 
positive effects of Success for All on elementary reading achievement.
                    research, development, and nclb
    My message to you today is straightforward. NCLB needs immediate 
investment in research and development. It should include substantial 
funding to enable America's best developers and researchers to rapidly 
develop and rigorously evaluate new programs central to NCLB, 
specifically, programs for Reading First, Supplemental Educational 
Services, and turnaround programs for schools. Educators in struggling 
schools want to do better with their kids, but they need more effective 
tools. Without waiting for the full NCLB reauthorization, you could 
jumpstart research and development that would greatly help these 
educators.
    Aren't schools already implementing proven programs in each of 
these areas? Despite more than 100 mentions of ``scientifically based 
research'' in NCLB, research-proven programs are rarely being 
implemented in any aspect of NCLB. One reason for this is that there 
are too few programs with strong evidence of effectiveness. If you 
applied a stringent criterion for evidence of effectiveness today, it 
is widely recognized that only two programs would qualify: Our Success 
for All program and another program called Direct Instruction. Even 
these programs were not used at any significant scale in Reading First, 
as turnaround models, or in SES, but one reason for this is that no one 
wanted to base policies on only two programs.
    In essence, then, I'm here to ask you to provide substantial 
funding to create competitors for Success for All.
    Why am I arguing for more competitors? My commitment, and that of 
my colleagues at Johns Hopkins University and the Success for All 
Foundation, is to evidence-based reform in education. We believe that 
education will not truly advance in this country until educators 
implement programs and practices with strong evidence of effectiveness, 
which means that they have been compared to randomly assigned or 
matched control groups on valid measures of achievement. Only when 
evidence of effectiveness, not salesmanship, becomes the basis for 
educators' decisions about the programs they use with students will 
education begin the cycle of constant improvement through research and 
development that has made American medicine, agriculture, and 
technology the best.
    The rationale for evidence-based reform is simple. Use what works. 
Who could be against that? Yet in education, we continue to use what is 
popular or what is well-marketed, not what works. This must change.
    No Child Left Behind already contains provisions and rhetoric that 
favor evidence-based reform. Its accountability provisions create 
motivation to use effective programs, and its focus on programs to 
assist schools in meeting standards, such as Reading First, SES, and 
turnaround programs for struggling schools, all create mechanisms for 
increasing the use of research-proven programs, especially in schools 
not meeting their State standards. Yet in practice, research-proven 
programs have played very little role in NCLB. To change this, two 
things are needed: Revisions in the legislation to more clearly focus 
educators on proven programs, and creation and evaluation of many more 
programs. It is the second of these that is my focus today.
    Aren't the Institute for Education Sciences (IES) and other 
agencies already developing and evaluating programs that could be used 
in NCLB? IES has in fact funded a variety of research and development 
projects on many topics and grade levels, and this research is 
identifying some programs and practices that could add to the set of 
research-proven programs for NCLB. But IES is underfunded, and spread 
too thin across all subjects and grade levels to produce rapid change 
targeted to the programs urgently needed in Reading First, SES, and 
turnaround programs. A few months ago I saw a New York Times article 
bemoaning cuts in NSF funding of $400 million. An NSF spokesman was 
trying to dispel the idea that $400 million is ``decimal dust.'' Yet 
this ``decimal dust'' is 2\1/2\ times the IES budget for research and 
development.
    IES should continue its broader focus on all aspects of research 
and development in education, but alongside this effort there is an 
immediate need to rapidly develop and evaluate programs for the 
critical areas of NCLB that help schools meet AYP.
                            overall proposal
    I propose that the U.S. Department of Education be given a special 
fund of $100 million to use to greatly accelerate research and 
development of programs for use in NCLB. These funds would be used as 
follows.
    1. Fund developers to create and evaluate new approaches in each of 
the targeted areas, plus others (such as mathematics) that become 
targets in the reauthorized NCLB.
    2. Based on reviews of programs and small-scale evaluations, select 
programs in each area that appear particularly promising. Fund large-
scale randomized evaluations of these programs.
    3. Fund researchers to carry out large-scale, randomized 
evaluations of existing programs.
    4. Fund non-profit developers of proven programs to help them 
create capacity for training, materials production, and so on, so they 
can scale up their programs rapidly.
    5. Disseminate information about effective programs and provide 
incentives for schools to adopt them.
    Grants for these purposes must be large enough to enable developers 
and researchers to do high-quality development and evaluation within a 
reasonable time period. Research and development in education is not 
cheap. As one example, in the previous administration we had a 5-year 
grant to develop a comprehensive school reform model for middle 
schools. We did it, and two large-scale studies have found it to be 
effective. But it cost $12 million. IES development and formative 
evaluation grants today have a maximum of $500,000 per year. At this 
rate, it would have taken 24 years to develop and evaluate our middle 
school program.
    Others see the need for substantial funding for research and 
development. The recently released and highly regarded Aspen 
Institute's ``Beyond NCLB'' report recommends doubling IES funding for 
research and development. We agree, but would add that this new funding 
should focus on innovative programs for struggling schools.
                           specific proposals
    For each of the focus areas of NCLB, the current situations and 
needs are different.
    1. Reading First.--Reading First focuses on core reading programs 
in grades K-3. There are only two programs widely acknowledged to have 
strong evidence of effectiveness in this area: Success for All and 
Direct Instruction. An earlier version of a textbook called Open Court 
also has two studies showing its effectiveness, but the current version 
has not been evaluated. The National Reading Panel identified research-
based principles of practice in early reading, but there is little work 
going on today to develop entire new programs that incorporate those 
principles.
    There is a need for rapid, well-funded development and evaluation 
of new approaches to early reading. For example, our own research on 
embedding video in reading lessons found surprisingly large benefits, 
and research on the use of video from the PSB show Between the Lions 
suggests great promise for this strategy. Now research on other 
technology applications, on teaching of metacognitive skills, on 
cooperative learning, on assessment, and on professional development, 
all create new possibilities in early reading. The best reading 
programs we have today were developed 20 to 40 years ago. We can do 
much better today.
    2. Turnaround Programs.--Under NCLB, schools failing to meet their 
adequate yearly progress goals are subject to escalating sanctions, 
depending on how long the school has not met AYP. An array of solutions 
are suggested, including adopting a comprehensive school reform model, 
but a survey of schools in corrective action found that the great 
majority were not using any of the listed solutions. Instead, most such 
schools are given advice from ``distinguished educators'' sent by their 
State departments of education, but then try to muddle through, hoping 
for better results next time. Currently, States are expected to use 4 
percent of their Title I funds to help struggling schools, and both the 
President and Senator Kennedy have proposed an additional $500 million 
fund for this purpose. But how should States and districts use these 
funds most effectively to turn around struggling schools?
    The base of research on effective programs is stronger than in 
other areas. The Comprehensive School Reform Quality Center (CSRQ) at 
AIR did reviews of comprehensive school reform programs, and found 
fifteen elementary and secondary models that met their ``moderate'' 
level of evidence or better. Yet only two, Success for All and Direct 
Instruction, met their more stringent ``moderately strong'' criteria, 
and many of the providers of comprehensive school reform models no 
longer have capacity to scale up their operations because the cutoff of 
CSR funding in 2004 greatly curtailed their operations. In this area, 
there is a need to strengthen the most promising of the CSR models 
capable of working with difficult, high-poverty schools, to carry out 
additional high-quality research on their outcomes, and to develop or 
refine new approaches able to operate effectively in the NCLB 
environment.
    3. Supplemental Educational Services (SES).--SES has been one of 
the most controversial provisions of NCLB, but the controversy has 
focused on which organizations and teachers can provide SES services 
and on increasing student participation rates. Little if any attention 
has been paid to the quality or evidence base of the programs students 
are receiving.
    The purpose of SES is to provide remedial instruction to individual 
students who are performing below grade level in reading or math. 
Currently, the focus is on after-school programs, but there is no 
reason that interventions could not take place during the school day or 
during the summer. However, there are few research-proven programs for 
any of these purposes.
    There is a need to develop and evaluate programs for small-group 
remedial interventions in reading and math for all grades. Promising 
programs may use technology, video, innovative teaching practices, or 
other means, but all will be held to a common standard of evidence. 
Programs are most likely to be adapted from existing core programs or 
technology programs, but all types of programs should be encouraged and 
evaluated for potential use in SES.
                    a virtuous cycle of improvement
    The funding programs I have suggested would lead to the rapid 
creation, evaluation, and scale-up of a broad range of programs for 
schools struggling to meet NCLB accountability requirements. It would 
also create a virtuous cycle of improvement. As more proven programs 
become available, Federal, State, and local governments are likely to 
encourage schools to use them, confident in their effectiveness. This 
will encourage for-profit companies and others to invest in their own 
R&D, as they perceive that the marketplace demands evidence of 
effectiveness. Once the large publishing, software, and professional 
development companies are competing on evidence of effectiveness, not 
just salesmanship, educational programs will enter a cycle of 
improvement like that which characterizes other fields that respect 
evidence of effectiveness, such as medicine, agriculture, and 
technology.
    America's greatest asset in the world economy is its capacity for 
innovation, development, and research, and its entrepreneurial skills 
in taking good ideas to scale. These assets have rarely been applied in 
the field of education, however. A targeted funding program like the 
one proposed here could jump-start a process that could make American 
educational programs the standard of excellence in the world, and to 
help millions of children reach levels of academic success never before 
achieved at scale.

    Senator Harkin. Thank you, Dr. Slavin. Since you were last, 
I will start with you first.
    Dr. Slavin. All right.
    Senator Harkin. You are one of the main people whose 
concerns about Reading First led to the IG's investigation, 
which we have followed very closely. In your opinion what harm 
was done to the program by the Department's mismanagement.
    Dr. Slavin. Boy, that is a longer question than I can 
answer. But let me give you the short version. Essentially what 
happened is that the concept that the program was going to be 
based on evidence of effectiveness was thrown out and instead 
there was--the program was permeated with cronyism and, 
frankly, corruption, in which individuals who had financial 
interests in certain programs or had political interests in 
certain programs promoted those programs inside the Department 
of Education, to the expense of others that had much better 
evidence and that had equal capacity to work at scale.
    I think it--so I still support the program. I think that it 
should be continued. But it absolutely has to be cleaned up.
    Senator Harkin. You mean the Reading First program?
    Dr. Slavin. Sorry, Reading First program. Needs to be 
cleaned up and focused on programs with strong evidence of 
effectiveness, where strong evidence of effectiveness is 
defined by set, well-defined standards rather than by whatever 
somebody in the dark of night thinks they can get away with.
    Senator Harkin. Well, I am very disturbed by this whole 
thing, and the more we looked at it the more there is just an 
odor about it that I do not like. But we are continuing to keep 
a look out on it.
    Title I funding includes the 4 percent set-aside for 
funding that is intended to help schools get off the needs 
improvement list. Tell me how, in your opinion, how schools 
have been using that money? Have they been using it on 
strategies that we know to work? Is there something we can do 
to ensure it is spent more wisely?
    Dr. Slavin. Yes. I think it has not been very well used. We 
work in our Center for Data-Driven Reform in Education, we work 
with a number of State departments of education and many 
districts of various sizes, and what we find the 4 percent 
money primarily being used for is sending distinguished 
educators or teams out to go look at schools and give advice to 
schools and so on, and that is not a bad thing. Oftentimes the 
distinguished educators are doing very--working very hard and 
very capable.
    But what does not exist is the opportunity for the schools 
to then take that advice and do something about it, and 
particularly to do something about it that has strong evidence 
of effectiveness behind it. I would like to see the 4 percent 
money and the $500 million that various folks are talking about 
for this purpose as well applied to help schools consider a 
range of solutions, all of which have strong evidence of 
effectiveness, all of which come along with strong professional 
development, good materials, and so on, that would be known to 
make a difference and make a difference in a short period of 
time with these struggling schools.
    Senator Harkin. I will think about that.
    Jane Babcock. Again, everyone says we need more money, but 
obviously it is not coming from the Federal Government right 
now. Talking about Keokuk, you mentioned kind of briefly that 
you went out and obviously did some ingenious things to find 
some funding. I assume that is not something that is going to 
continue year after year. How would the residents of Keokuk 
feel if they raised their property taxes again?
    Ms. Babcock. They would be very unhappy. You need to know, 
the educational system is very important to Keokuk. We have 
been supported in many, many ways. But at this time in our 
history raising the property tax would not be a go.
    Senator Harkin. The reason I ask that, because obviously I 
know Keokuk well.
    Ms. Babcock. Yes.
    Senator Harkin. Even though it is a great city and 
everything, there is a high proportion of elderly in Keokuk.
    Ms. Babcock. Exactly.
    Senator Harkin. They are living on fixed incomes. They may 
have a house, they may have a property, but they just cannot 
pay more property taxes.
    Ms. Babcock. No. We are cognizant of that fact. So when we 
look every year annually, our goal is to hold our levy steady, 
which we did last year, and our goal is to do that again. So 
then what you need to do is you have to look at other places or 
other ways to do that. You know, we use the at-risk funds.
    But some of the things that we need now, like for instance 
that would not maybe be mentioned, we could use a psychologist 
in our schools. I mean, we have kids who are coming with big 
needs. We need guidance counselors, we need psychologists to be 
there to help us, and psychiatrists, to help us with those 
kids. We do not have the funds to do it.
    Senator Harkin. I am glad you brought that up. For all of 
you people who are thinkers in this area, I dare say when all 
of you went to school, you had a classroom and you had a 
teacher. That has sort of been imbued in our minds since the 
first classrooms. You had a class and a teacher, and the 
teacher taught a subject and you learned that.
    Well, of course when I went to school the teacher taught 
everything, in a country school. But nonetheless, it was a 
teacher and students. I am wondering if that is not outmoded 
now. I am wondering if maybe we need more than a teacher in the 
classroom. We need a teacher that is highly qualified in the 
subject area, but because we made the decision--well, actually 
it was a court case of Pennsylvania that led to IDEA and that 
said that every child with a disability has to get an adequate 
appropriate education, public education.
    So based on that, we have IDEA and of course my bill, the 
Americans With Disabilities Act, and others. But so now we have 
in school kids with disabilities that we never had before. When 
I was in school, they were sent across the State to some 
institution or they just were not sent to school, period. And 
if you had kids that maybe were not visibly disabled, but had 
emotional problems, hyperactive problems, they got kicked out. 
They did not go to school and they went to work on the farm or 
they went to work at some low-paying job and that was it. They 
just got kicked out.
    But again, we have said no, we want to keep kids in school 
and we want to work with these kids and leave no child behind. 
So I am thinking that maybe what we ought to be thinking about 
is not only get a teacher in every classroom, but what you just 
said, a child psychologist, someone that is trained, highly 
trained in knowing the psychology of children and kids and can 
work with kids with emotional problems or behavioral problems, 
that type of thing, that also needs to be there.
    The reason I bring that up is because I got some money for 
a program in Des Moines a long time ago, a long time ago, 80s. 
It is called Smoother Sailing and it was getting school 
counselors in elementary school, trained school counselors, not 
just someone standing there, but someone who actually had a 
degree in that and was well trained in that and had a degree in 
child psychology.
    Over the years that we funded that--and they still are 
doing it locally--behavior problems went down, truancy problems 
went down, grades went up, number of fights on the playground 
went down. These were counselors that would actually go out to 
the home with these kids, visit with the parents, be there when 
the kids were there in the school. The goal was to reduce to, I 
think, one in every--I forget--one in every 500 kids or 
something like that a counselor. Now it is like one in every 
5,000 or something like that. I may be off a little bit, but 
not too much.
    So I am just wondering. I just throw that out. Maybe we 
ought to rethink this and we ought to think, you know, it is 
not only highly qualified teachers, but we need someone else if 
we are going to have a system of education that actually leaves 
no child behind.
    Ms. Babcock. I think one of the things that has happened 
over time is that we have more moms working.
    Senator Harkin. We do, sure.
    Ms. Babcock. We have more single parent homes, and in 
addition, if you think about our middle schools and high 
schools, we have large class sizes there.
    Senator Harkin. Huge.
    Ms. Babcock. We talk about wanting them to get everything 
they can from their education, but yet it is okay for us to 
have over 30 in an English class. It really is not okay. But 
those of us who sit at the budget table, it is difficult when 
we get to that point, because we know our high schools cost 
more to operate and there are not the funds to make those class 
sizes smaller.
    Senator Harkin. Dr. Sherman, in your testimony you 
highlighted that in 2003 23 percent of your schools made AYP. 
In 2006 78 percent of your schools did. Now, the standard for 
making adequate yearly progress will continue to get harder 
until the goal is met in 2014. How do you see the future for 
your schools there in meeting that?
    Dr. Jewell-Sherman. That is precisely the challenge, 
Senator. We have to make that benchmark each year, and the 
reward for the success that we have demonstrated in most 
instances is to reduce the funding. There is no inoculation 
that we give students in the elementary grades or when they 
first start school that is going to sustain them throughout 
their education.
    The same strategies that we put in place to help our 
students excel, we need to demonstrate each year. Yet, as we 
have improved our funding has gone down dramatically. That is 
the concern that we desperately have.
    I was at an elementary school the other day, and when we 
went to school when the dismissal bell rang children left and 
teachers left shortly thereafter. Well, when the dismissal bell 
rang this day it was as if they were going into the second 
shift. That is because the intervention strategies in place in 
that school and in most of our schools are in the morning, 
during the day, after school, and Saturday. The only day we are 
not open is on Sunday.
    In order for us to work with students that come with the 
dramatic needs that have been stated by my colleagues, we have 
to spend the funds to make the difference. They do not come to 
us at the starting gate on par. We refused to remain the second 
lowest performing school district in the Commonwealth of 
Virginia or anywhere, and we will find a way to do it. But when 
the funds are cut it makes it extremely hard, and I am not sure 
how we are going to do it.
    Senator Harkin. Mr. Wilhoit, tell me again, why is it so 
important to collect this longitudinal data that you talked 
about? What is that all about?
    Mr. Wilhoit. Can I go back to just the comments of Dr. 
Sherman? She is struggling so hard to make sense out of the 
education process. We have got to know where students are at 
this point, so we have got to have quality assessments that 
could be used in the classroom. We are measuring at the end of 
the year right now, but those summative assessments really have 
very limited benefit to a teacher in the classroom.
    If we have some data systems in place that are dynamic, 
where the real benefit of that knowledge that is coming out of 
student learning is there for the classroom and for the 
teacher, that teacher then and that principal and that school 
and that superintendent have a lot of information that they 
need to make services available to them. So the benefit first 
is with the school district.
    Second, at the State level we need comprehensive data 
across the districts in order to make some sense out of what is 
going on, to begin to target resources, to begin to look at 
innovation and occurrences that are going to be important for 
State implementation.
    It is also important that we begin to collect some data 
across this country that is fairly consistent. It would be much 
better to collect that from the State level and extract that 
data than to try to create a giant collection system at one 
level. We think through a cooperative kind of effort we can 
develop this kind of a system at a reasonable cost, with less 
burden on States, and provide much greater information to the 
local level.
    Senator Harkin. It seems to me what I am getting out of 
that is that we need a data system that gives teachers and 
principals kind of real-time data.
    Mr. Wilhoit. Real time.
    Senator Harkin. Going through the year, not just at the end 
of the year type thing.
    Mr. Wilhoit. One of the down sides of what we are seeing in 
No Child Left Behind right now is that people are beginning to 
gear their activities toward that single test----
    Senator Harkin. Yes, sure.
    Mr. Wilhoit [continuing]. At the end of the year. In fact, 
in many places they are distorting the education process to get 
the results on that single test, that summative assessment. The 
real value of assessment is done by teachers in classrooms and 
by principals in the building and working with parents and 
feeding information back to them. So why not build these data 
systems at the State level and provide that kind of direct 
information to them, and then a byproduct of that is the 
information coming out of the system, but not develop a system 
that is simply devoted to simply collecting information at a 
single point in time at the end of the year, and turning that 
around 5 or 6 months later when the students have moved on to 
the next grade level and the teachers are moved on to a 
different instructional pattern.
    Unless we get to a point where we have real-time 
information gathered on students, professionals making 
decisions about what to do about that information, either 
accelerating learning for those students or giving another 
student some more time with a different instructional program 
and then making further adjustments, then we are not going to 
get to the lofty goals that we are talking about.
    Senator Harkin. One last question, Mr. Jennings, about your 
surveys. You know, it all just comes down, everything I hear, 
whether we are going to do data collecting or remediation or 
whatever it might be, it comes down, it takes money. So have 
your surveys in any way indicated the capacity of State and 
local school districts to meet this requirement of the funding? 
I have heard about all this money, but has your survey shown 
anything about what their capacity is to meet this?
    Mr. Jennings. Well, you have different capacities among 
different school districts. What we find is that most school 
districts say that they do not have the capacity to help all 
their schools in need of improvement. Most of the States say 
that they do not have the full capacity to help schools in need 
of improvement. So what we are doing with this law is that we 
are asking schools to do much more than they have ever done 
before, and it is probably good for the country that we are 
asking them to do that, but we are not giving them the tools in 
order to achieve these ends. So we are putting the demands on 
without the assistance.
    I will go back to an earlier point. Before we only dealt 
with at-risk children with extra services. Today we are dealing 
with all children and we are putting demands on schools for all 
children. You know, once a State accepts No Child Left Behind 
money, and all 50 States have accepted this money, they bind 
all school districts within their States to these requirements. 
So that means you can have a school district that receives no 
Title 1 money at all and yet they have to test, they have to 
reveal the test score, they have to upgrade the quality of 
their teachers. They have to do a lot of things, without a 
dollar of Federal money.
    So we have changed the way the Federal Government is trying 
to improve education so that we are requiring something of 
everybody regardless of the level of funding. Yet our funding 
is still geared to the old way, which is that we only give 
money to school districts based on poverty. Now with No Child 
Left Behind there is a provision that the new money only goes 
to a subset of those school districts that have the highest 
percentages of poverty. So we wind up with demanding something 
more from everybody and not giving them the assistance. That is 
where you get the resistance.
    If school people felt that the Federal Government was 
asking more, but also helping them, you would not get this 
degree of resistance to Federal demands for improvements in 
education.
    Senator Harkin. Where does it say in the Constitution of 
the United States that education is to be paid for by property 
taxes? Anybody know where that is located in the Constitution 
of the United States?
    Mr. Jennings. Obviously, nowhere.
    Senator Harkin. Nowhere, of course. I have talked about 
this many times. People wonder why is that the system of 
education in this country. Well, it just sort of grew up that 
way. When our early colonists wanted to have a free public 
education, we did not have income taxes. We had some excise 
taxes and property taxes. That was the source of it. So that 
built up through the 18th, 19th, 20th century, and the Federal 
Government did not do anything in education.
    The first time the Federal Government ever got involved in 
education was in 1862 with the Morrill Act, and that was for 
higher education, land grant colleges. It was to teach young 
people out in the hinterlands how to be agriculturalists and 
mechanics, A&M. That is where our A&M schools came from.
    The next time the Federal Government did anything about 
education was about 100 years later and that was the GI Bill 
after World War II, again directed toward higher education. 
Then there was a program in the 1950s, the Eisenhower program. 
Again, that was a loan program for college students. So I went 
to college on the National Defense Student Loan Program.
    So now we come up into the 1960s. Up until that time the 
Federal Government had never done anything about elementary or 
secondary education. So then we passed ESEA and the Higher 
Education Act in the Johnson administration. Not much happened. 
ESEA again focused on helping schools with disadvantaged 
students, a slice like that. Then of course we had the 
Education of Handicapped Children Act, which later morphed into 
the IDEA, Individuals with Disabilities Education Act.
    So we have had a very short history in this country of 
funding from the Federal Government for elementary and 
secondary education. What, maybe, oh, at the most 25 years, 30 
at the most. Then we made all these promises with IDEA that we 
would pay 40 percent of the additional cost, and we are now at 
about 16 percent and going backwards.
    But more and more we have recognized, I think, that 
education in this country is a national problem. I have often 
said that the genius behind the American system of education is 
its diversity, local control. I have been to these countries 
that tout their educational systems. It is top-down. Everybody 
studies the same thing. Oh, sure, they put out some good math 
students, but the heck with everybody else, and all those math 
students come here to go to graduate school. It is a top-down, 
regimented, that does not allow for creativity, which is what 
marks us as different.
    That has been the genius of our schools. The failure of our 
schools is how we pay for them. We pay for them with property 
taxes. What opened my eyes on this was 20--let me think about 
this. This is 2007--22, 23 years ago with Jonathan Kozol's 
book, ``Savage Inequalities.'' Finally, after reading that book 
the scales sort of fell from my eyes and I said: Of course, you 
have got a poor area with low income and low property taxes, 
you have poor schools. You have high income, you have got great 
schools.
    But why should it be in this country that the quality of a 
kid's education should depend on where you are born? That makes 
no sense. We have obvious examples of kids born in poverty who 
have become Nobel Prize winners, so that should not be a 
determinant factor. But it is still today a determinant factor. 
Where you live decides a lot in what your education is like.
    So I just think that we have got to get over this hurdle. 
We have got to understand our national responsibilities. And we 
can do that. We can provide the funding necessary for schools, 
for education, for teacher improvement. We can do all that. We 
can collect the data. We can do all that and still provide for 
local schools to experiment, to have their own control over 
what they teach.
    That is why I got so upset over that Reading First program. 
Here they are coming in telling them, here is what you have got 
to do. So we can still have that, that sort of creativity out 
there, and still have Federal funding.
    But it all comes back to money. As I have often said, if 
you want education on the cheap you will get cheap education. 
And that is just what will happen.
    Mr. Jennings. Senator, can I add two points?
    Senator Harkin. Yes, Mr. Jennings.
    Mr. Jennings. On school finance, one of the principles is 
that the level of funding--the higher the level of government 
providing the funding, the fairer the level of funding. So that 
if you rely on the local school district to report its taxes, 
you are going to have great inequities between school districts 
because of the different property bases.
    Senator Harkin. That is right.
    Mr. Jennings. If you have a higher percentage of the money 
that comes from a State government because they have broader 
taxing authority, you are going to have a fairer distribution 
of money among school districts. The Federal Government has the 
broadest taxing authority. So if you rely more on the Federal 
Government for funding of education, eventually you will have 
even fairer types of funding.
    So we have to move away from this reliance on property 
taxes to State funding and national funding of education if we 
want equitable funding.
    The other point is for years since I have worked in this 
area I have heard folks say, business people, politicians: 
Well, there will be more money for education provided when 
there is more accountability. Well, today you will not find an 
educator in the country who will tell you that the 
accountability is not coming from No Child Left Behind. So the 
accountability is there, but the money is not there.
    So it seems time for the Congress and the administration to 
own up to its responsibility to provide the money, and what we 
heard earlier today from the Secretary: Well, we only provide 
8, 9 percent of the money and we cannot provide any more. That 
is not the answer. The answer is if the Federal Government 
wants all this the Federal Government has to help to pay for 
it.
    Senator Harkin. Absolutely. I could not agree more, and 
that is what we are trying to get about, and that is to 
rejiggle this crazy budget that we have, that is sent down to 
us, and to try to get adequate--no, not adequate; I would not 
say adequate. We have to get a big increase in education. Not 
adequate. That is not the right word. We need to have funding 
of education that would match exactly what we want to get out 
of it.
    As I said at the beginning, teachers I talk to, the ones 
that I hear that are really griping about No Child Left Behind, 
it is not that they do not want to do it. They cannot do it. 
They are frustrated. Look at how many teachers we are losing in 
the first or second year.

                         CONCLUSION OF HEARING

    Well, anyway, I did not mean to go on like that. But thank 
you all very much for your lifetimes of work in education and 
for being here today and providing some very valuable insight 
and information to this committee.
    [Whereupon, at 4:47 p.m., Wednesday, March 14, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
